No. ____________________

_______________________________________________________________________

IN THE
SUPREME COURT OF THE UNITED
STATES
_______________________________________________________

DAGHRIB SHAHEED, WAHEEDAH SHAHEED - PETITIONER
vs.
STEPHAN KROSKI, NEW YORK CITY POLICE OFFICER; IN AN INDIVIDUAL
AND OFFICIAL CAPACITY, PAUL BLISS, NEW YORK CITY POLICE OFFICER;
IN AN INDIVIDUAL AND OFFICIAL CAPACITY, LYDIA FIGUEROA, NEW
YORK CITY POLICE OFFICER; IN AN INDIVIDUAL AND OFFICIAL
CAPACITY, CITY OF NEW YORK – RESPONDENTS
_______________________________________________________________________

Appendices: Volume 1 of 2

Lawrence P. LaBrew, Esq.
Law Office of Lawrence LaBrew
Attorney for the Petitioners
30 Wall Street 8th Floor
New York, New York 10005-2205
Tel:(212) 385-7500
Fax:(212) 385-7501
e-mail: lawrencelabrew@verizon.net

INDEX OF APPENDICES
APPENDIX
Appendix A

Appendix B

Appendix C

Appendix D

Appendix E

Appendix F

Appendix G

Appendix H

Appendix I

Appendix J

PAGE NUMBER
Summary Order of the United States
Court of Appeals for the Second Circuit
affirming the Order and
Judgment of the District Court

A0001

United States Court of Appeals for the
Second Circuit: Order Consolidating
Docket Numbers 19-90 and 19-94

A0008

United States District Court for the
Southern District of New York: Decision
and Order on Motion to Dismiss

A0009

United States District Court for the
Southern District of New York: Order
and Opinion on Motion for Summary Judgment

A0028

United States District Court for the
Southern District of New York:
Order and Opinion on Motion
for Entry of Judgment

A0056

United States District Court for the
Southern District of New York:
Order on Motion in Limine

A0062

Petitioner Daghrib Shaheed’s Amended
Complaint

A0190

Respondents’ Answer to Petitioner
Daghrib Shaheed’s Amended Complaint

A0226

Petitioner Waheedah Shaheed’s Amended
Complaint

A0243

Respondents’ Answer to Petitioner Waheedah
Shaheed’s Amended Complaint

A0285

ii

APPENDIX (cont.)
Appendix K

PAGE NUMBER (cont.)
New York State Family Court Order
Issued Pursuant to N.Y. FAM.
CT. § 1034

A0304

New York State Family Court
Removal Order for Abdul Maleek Rahim

A0305

New York State Family Court
Removal Order for Hannah Olodan

A0309

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Waheedah Shaheed,
Docket Number 2012NY050853

A0313

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Daghrib Shaheed,
Docket number 2012NY044694

A0314

Criminal Court of the City of New York
Certificate of Disposition, The People of the
State of New York v. Waheedah Shaheed,
Docket Number 2012NY044692

A0315

New York State Family Court Order of
Dismissal

A0316

New York State Family Court Order of
Disposition

A0317

Appendix S

U.S. CONST. amend. IV

A0321

Appendix T

N.Y. CONST. art. VI, § 13

A0322

Appendix U

N.Y. CRIM. PROC. LAW § 1.20 (Consol. 2012)

A0324

Appendix V

N.Y. CRIM. PROC. LAW § 2.10 (Consol. 2012)

A0335

Appendix W

N.Y. CRIM. PROC. LAW § 2.20 (Consol. 2012)

A0359

Appendix L

Appendix M

Appendix N

Appendix O

Appendix P

Appendix Q

Appendix R

iii

APPENDIX (cont.)

PAGE NUMBER (cont.)

Appendix X

N.Y. CRIM. PROC. LAW § 10.10 (Consol. 2012)

A0362

Appendix Y

N.Y. CRIM. PROC. LAW § 120.10 (Consol. 2010)

A0364

Appendix Z

N.Y. CRIM. PROC. LAW § 120.20 (Consol. 2010)

A0365

Appendix AA

N.Y. CRIM. PROC. LAW § 120.70 (Consol. 2010)

A0367

Appendix BB

N.Y. CRIM. PROC. LAW § 120.80 (Consol. 2010)

A0368

Appendix CC

N.Y. CRIM. PROC. LAW § 690.05 (Consol. 2012)

A0370

Appendix DD

N.Y. CRIM. PROC. LAW § 690.25 (Consol. 2012)

A0372

Appendix EE

N.Y. CRIM. PROC. LAW § 690.35 (Consol. 2012)

A0373

Appendix FF

N.Y. CRIM. PROC. LAW § 690.35 (Consol. 2012)

A0377

Appendix GG

N.Y. CRIM. PROC. LAW § 690.40 (Consol. 2012)

A0378

Appendix HH

N.Y. CRIM. PROC. LAW § 690.45 (Consol. 2012)

A0380

Appendix II

N.Y. CRIM. PROC. LAW § 690.50 (Consol. 2012)

A0383

Appendix JJ

N.Y. FAM. CT. ACT § 141 (Consol. 2012)

A0386

Appendix KK

N.Y. FAM. CT. ACT § 153 (Consol. 2012)

A0387

Appendix LL

N.Y. FAM. CT. ACT § 153-A (Consol. 2012)

A0388

Appendix MM

N.Y. FAM. CT. ACT § 157 (Consol. 2012)

A0389

Appendix NN

N.Y. FAM. CT. ACT § 1022 (Consol. 2012)

A0390

Appendix OO

N.Y. FAM. CT. ACT § 1023 (Consol. 2012)

A0395

Appendix PP

N.Y. FAM. CT. ACT § 1025 (Consol. 2012)

A0396

Appendix QQ

N.Y. FAM. CT ACT § 1027 (Consol. 2012)

A0399

Appendix RR

N.Y. FAM. CT. ACT § 1029 (Consol. 2012)

A0403

iv

APPENDIX (cont.)

PAGE NUMBER (cont.)

Appendix SS

N.Y. FAM. CT. ACT § 1034 (Consol. 2012)

A0404

Appendix TT

N.Y. FAM. CT. ACT § 1035 (Consol. 2012)

A0408

Appendix UU

N.Y. FAM. CT. ACT § 1036 (Consol. 2012)

A0412

Appendix VV

N.Y. FAM. CT. ACT § 1037 (Consol. 2012)

A0414

Appendix WW

N.Y. PENAL LAW § 120.05 (Consol. 2012)

A0416

Appendix XX

N.Y. PENAL LAW § 195.05 (Consol. 2012)

A0420

Appendix YY

N.Y. PENAL LAW § 205.30 (Consol. 2012)

A0421

v

19-90 (L)
Shaheed v. Kroski

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 3rd day of November, two thousand twenty.
Present:
JON O. NEWMAN,
ROBERT A. KATZMANN,
JOSEPH F. BIANCO,
Circuit Judges.
DAGHRIB SHAHEED, WAHEEDAH SHAHEED,
Plaintiffs-Appellants,
v.

Nos. 19-90, 19-94

STEPHAN KROSKI, NEW YORK CITY POLICE
OFFICER; IN AN INDIVIDUAL AND OFFICIAL
CAPACITY, PAUL BLISS, NEW YORK CITY
POLICE OFFICER; IN AN INDIVIDUAL AND
OFFICIAL CAPACITY, JONATHAN
RODRIGUEZ, NEW YORK CITY POLICE
OFFICER; IN AN INDIVIDUALAND OFFICIAL
CAPACITY, LYDIA FIGUEROA, NEW YORK
CITY POLICE OFFICER; IN AN INDIVIDUAL
AND OFFICIAL CAPACITY, CITY OF NEW
YORK,
Defendants- Appellees,
Appendix A

1

A0001

POLICE OFFICER KISHON HICKMAN, POLICE
OFFICER CHRISTOPHER MITCHELL, POLICE
OFFICER ALEX PEREZ, POLICE OFFICER WILLIAM
MORRIS, POLICE COMMISSIONER JAMES O'NEILL,
POLICE OFFICER JOHN ESSIG, POLICE OFFICER
RODNEY HARRISON, POLICE OFFICER ANDREW
CAPUL, POLICE OFFICER ROBERT LUKACH, POLICE
OFFICER WILSON ARAMBOLES, NEW YORK CITY
POLICE DEPUTY INSPECTOR, IN AN INDIVIDUAL
AND OFFICIAL CAPACITY, POLICE OFFICER FAUSTO
PICHARDO, POLICE OFFICER TIMOTHY WILSON,
POLICE OFFICER MARLON LARIN, POLICE OFFICER
BRIAN FRANKLIN, POLICE OFFICER ERIC PAGAN,
POLICE OFFICER HUGH MACKENZIE, POLICE OFFICER
CHARLES EWINGS, POLICE SERGEANT MEDINA,
POLICE OFFICER EDWARD SALTMAN, POLICE OFFICER
DANIEL TROYER, POLICE OFFICER AWILDA MELHADO,
POLICE OFFICER DARREN MCNAMARA, POLICE
OFFICER ANTHONY SELVAGGI, POLICE OFFICER
ETHAN ERLICH, POLICE OFFICER HENRY MEDINA,
POLICE OFFICER EDWARD BIRMINGHAM, IN AN
INDIVIDUAL AND OFFICIAL CAPACITY, POLICE OFFICER
CLIFFORD PARKS, POLICE OFFICER ANTONIO RIVERA,
JOHN DOE, NEW YORK CITY POLICE DETECTIVE
(FICTITIOUS NAME); IN AN INDIVIDUAL AND OFFICIAL
CAPACITY, JAMES DOE, NEW YORK CITY POLICE DETECTIVE
(FICTITIOUS NAME); IN AN INDIVIDUAL AND OFFICIAL
CAPACITY, JANE DOE, NEW YORK CITY POLICE OFFICER
(FICTITIOUS NAME); IN AN INDIVIDUAL AND
OFFICIAL CAPACITY,
Defendants.
For Plaintiffs-Appellants:

LAWRENCE P. LABREW, Esq., Law Office of
Lawrence LaBrew, New York, NY.
ASHLEY R. GARMAN (Richard Dearing,
Deborah A. Brenner, on the brief), Assistant
Corporation Counsel, for James E. Johnson,
Corporation Counsel of the City of New
York, New York, NY.

For Defendants-Appellees:

Appeal from a judgment of the United States District Court for the Southern District of
New York (Engelmayer, J.).

2

A0002

UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Plaintiffs-appellants Daghrib and Waheedah Shaheed appeal from an order of the district
court entering judgment in favor of the defendants-appellees New York City police officers. The
Shaheeds brought several claims under 42 U.S.C. § 1983 arising out of two incidents, the first on
June 6, 2012 and the second on June 29–30, 2012, during which the defendant officers entered the
Shaheeds’ apartment. The district court whittled down these claims at the motion to dismiss,
summary judgment, and trial stages. The Shaheeds’ remaining claims were rejected by the jury,
and the district court then denied the Shaheeds’ motion for judgment as a matter of law or a new
trial. We construe 1 the Shaheeds’ arguments in this appeal as challenges to (1) the district court’s
grant of summary judgment to the defendants on the Shaheeds’ false arrest, false imprisonment,
and malicious prosecution claims arising out of the June 29–30 incident, and (2) the jury’s verdict
in favor of the defendants on the Shaheeds’ false arrest and false imprisonment claims arising out
of the June 6 incident. Familiarity with the underlying facts and procedural history of the case is
assumed.

1

Plaintiffs’ brief is deficient in several respects, most glaringly in its failure to comply
with Federal Rule of Appellate Procedure 28’s requirement that the brief specify which of the
district court’s many rulings plaintiffs challenge. See Fed. R. App. P. 28(a)(6) (requiring an
appellant’s brief to include, inter alia, “a concise statement of the case setting out the facts
relevant to the issues submitted for review, describing the relevant procedural history, and
identifying the rulings presented for review, with appropriate references to the record”).
Although “[a]n appellant’s failure to comply with Rule 28 invites dismissal of the appeal,”
Taylor v. Harbour Pointe Homeowners Ass’n, 690 F.3d 44, 48 (2d Cir. 2012), we nonetheless
exercise our discretion to proceed to the merits of the appeal “because plaintiffs’ claims [we]re
substantial enough to merit a trial, and declining to consider this appeal would unfairly penalize
plaintiffs for [their attorney’s] failings as an advocate,” Amnesty Am. v. Town of W. Hartford,
361 F.3d 113, 133 (2d Cir. 2004). However, we place the plaintiffs’ attorney, Lawrence LaBrew,
“on notice that his continued failure to comply with Rule 28 or any other of the Rules of
Appellate Procedure will result in discipline.” Id.
3

A0003

As to the first set of challenges, “[w]e review a district court’s grant of summary judgment
de novo, construing the evidence in the light most favorable to the non-moving party and drawing
all reasonable inferences in its favor.” Allianz Ins. Co. v. Lerner, 416 F.3d 109, 113 (2d Cir. 2005). 2
“We will affirm the judgment only if there is no genuine issue as to any material fact, and if the
moving party is entitled to a judgment as a matter of law.” Id.
The district court dismissed plaintiffs’ false arrest, false imprisonment, and malicious
prosecution claims arising out of the June 29–30 incident on the ground that the officers had at
least arguable probable cause to believe that plaintiffs had obstructed governmental administration.
“A person is guilty of obstructing governmental administration when he intentionally obstructs,
impairs or perverts the administration of law or other governmental function or prevents or
attempts to prevent a public servant from performing an official function, by means of
intimidation, physical force or interference, or by means of any independently unlawful act . . . .”
N.Y. Penal Law § 195.05. Probable cause is a complete defense to false arrest, false imprisonment,
and malicious prosecution claims, see Betts v. Shearman, 751 F.3d 78, 82 (2d Cir. 2014), and even
“arguable” probable cause would support an independent defense of qualified immunity, see
Cerrone v. Brown, 246 F.3d 194, 202–03 (2d Cir. 2001).
Plaintiffs appear to challenge the district court’s probable cause determination on two
grounds. First, plaintiffs argue that the Family Court order was not a search warrant and did not
authorize defendants to enter their apartment during the June 29–30 incident, and so defendants
therefore were not “performing an official function” within the meaning of § 195.05.

2

Unless otherwise indicated, in quoting cases, all internal quotation marks, alterations,
emphases, footnotes, and citations are omitted.
4

A0004

The problem with plaintiffs’ argument is that New York Family Court orders provide an
independent basis for police officers to enter peoples’ homes. We have repeatedly recognized that,
“[i]n child-abuse investigations, a Family Court order is equivalent to a search warrant for Fourth
Amendment purposes.” Southerland v. City of New York, 680 F.3d 127, 144 n.15 (2d Cir. 2012);
see also N.Y. Fam. Ct. Act § 1034(2)(c) (vesting Family Court judges with the power to order
investigations and providing that the procedure for issuing such orders “shall be the same as for a
search warrant under . . . the criminal procedure law”); Nicholson v. Scoppetta, 344 F.3d 154, 176
(2d Cir. 2003) (“We have said previously that a Family Court order is probably the equivalent of
a warrant for Fourth Amendment purposes.”); Tenenbaum v. Williams, 193 F.3d 581, 602 (2d Cir.
1999) (“In the context of a seizure of a child by the State during an abuse investigation, . . . a court
order is the equivalent of a warrant.”). Moreover, New York law contemplates that instruments
other than traditional search warrants may authorize entry for police officers who are assisting
officers of the New York City Administration for Children’s Services (“ACS”). N.Y. Fam. Ct. Act
§ 1034(2)(f) (stating that “law enforcement may not enter the premises where the child or children
are believed to be present without a search warrant or another constitutional basis for such entry”
(emphasis added)). The Family Court order accordingly authorized the defendants’ entry during
the June 29–30 incident, and the defendants were therefore “performing an official function”
within the meaning of the obstructing governmental administration statute.
Second, plaintiffs argue that their refusal to open the door to their apartment was “pure
speech” and thus did not satisfy the “physical force or interference” element of the obstructing
governmental administration statute. N.Y. Penal Law § 195.05. Plaintiffs cite the Court of
Appeals’ decision in Matter of Davan L. for the proposition that “purely verbal interference may
not satisfy the ‘physical’ component under Penal Law § 195.05.” 689 N.E.2d 909, 910 (N.Y.

5

A0005

1997). They also cite a Criminal Court decision, People v. Offen, for the proposition that “it is no
crime to refuse to open a door to police officers.” 408 N.Y.S.2d 914, 916 (Crim. Ct. 1978).
But plaintiffs’ refusal to allow officers to lawfully enter their home was not pure speech,
and New York courts have found that one can obstruct governmental administration by refusing
to comply with a search warrant. 3 In People v. Paige, for example, the Third Department upheld
a defendant’s conviction for obstructing government administration where that defendant refused
to let police officers into the residence of a third party for whom police officers had an arrest
warrant. 911 N.Y.S.2d 176, 179 (App. Div. 3d Dep’t 2010), aff’d, 945 N.E.2d 1028 (N.Y. 2011).
And in People v. Nesbitt, the Third Department (again) upheld a defendant’s conviction where the
defendant refused to let police officers into an apartment to effectuate arrest warrants against him.
894 N.Y.S.2d 545, 548–49 (App. Div. 3d Dep’t 2010). Similarly, our decision in Lennon v. Miller,
66 F.3d 416 (2d Cir. 1995), further supports the conclusion that plaintiffs obstructed governmental
administration in the instant case, and that their actions were not pure speech. In Lennon, the
plaintiff was told by a police officer that her husband had a right to take the car she was using. Id.
at 419. Instead of yielding the vehicle, the plaintiff entered it, locked the doors, attempted to start
it, and refused to get out. Id. The police officer forcibly removed the plaintiff from the car and
arrested her for obstructing governmental administration, and we held that there was arguable
probable cause for her arrest because “[w]hen she refused to leave the car, it was reasonable for
[the officers] to construe her actions as ‘interference.’” Id. at 424.
Moving to the plaintiffs’ second set of challenges, the Shaheeds appeal the district court’s
entry of judgment for defendants on plaintiffs’ false arrest and false imprisonment claims arising

3

Offen is accordingly distinguishable, as the police in that case had not obtained a
warrant. See 408 N.Y.S.2d at 914–15.
6

A0006

out of the June 6 incident. Here, again, plaintiffs’ primary contention is that the Family Court
orders did not authorize defendants to enter their apartment during the June 6 incident. And for all
the same reasons as above, plaintiffs are mistaken in their view that Family Court orders cannot
authorize police officers to enter people’s homes. Although plaintiffs fail to specify which aspects
of the proceedings they are challenging—whether the district court’s decision to instruct the jury
that the Family Court orders authorized defendants to enter plaintiffs’ apartment on June 6, the
jury’s verdict in favor of defendants, or the district court’s denial of plaintiffs’ motion for a new
trial—their argument provides no basis for reversal of any of these decisions. 4
We have reviewed the plaintiffs’ remaining arguments and find in them no basis for
reversal. For the reasons stated herein, the order and judgment of the district court are
AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

4

Neither did the district court err in precluding plaintiffs from challenging the validity of
the Family Court orders. This argument bears on the district court’s denial of plaintiffs’ motion in
limine, in which plaintiffs sought to introduce the testimony of Waheedah’s minor daughter, and
on the district court’s denial of plaintiffs’ motion for a new trial, in which plaintiffs argued that
they should have been permitted to introduce evidence that Waheedah did not neglect her children.
We review these decisions for abuse of discretion, see Nimely v. City of New York, 414 F.3d 381,
392–93 (2d Cir. 2005); Leopold v. Baccarat, Inc., 174 F.3d 261, 269 (2d Cir. 1999), but regardless
of the standard of review, the district court did not err. As the district court noted, the Family Court
orders were facially valid, and there was no evidence that defendants were involved in obtaining
the orders.
7

A0007

Case 19-90, Document 32, 05/22/2019, 2570213, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of May, two thousand and nineteen,
Before:

Susan L. Carney,
Circuit Judge.
_______________________________
Daghrib Shaheed,
Plaintiff - Appellant,

ORDER
Docket No. 19-90

v.
Stephan Kroski, et al.,
Defendants- Appellees,
_______________________________
Waheedah Shaheed,
Plaintiff - Appellant,

Docket No. 19-94

v.
City of New York, et al,
Defendants – Appellees.
________________________________
IT IS HEREBY ORDERED that the above-captioned appeals are consolidated.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

Appendix B

A0008

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 1 of 19

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

------------------------------------------------------------------------X
DAGHRIB SHAHEED,
Plaintiff,

-v-

14 Civ. 7424 (PAE);
15 Civ. 3480 (PAE)
OPINION & ORDER

THE CITY OF NEW YORK, NEW YORK CITY POLICE:
OFFICER STEPHAN KROSKI, NEW YORK CITY
POLICE OFFICER PAUL BLISS, NEW YORK CITY
POLICE OFFICER JONATHAN RODRIGUEZ, NEW
YORK CITY POLICE OFFICER LYDIA FIGUEROA,
NEW YORK CITY POLICE LIEUTENANT KISHON
HICKMAN, NEW YORK CITY POLICE OFFICER
CHRISTOPHER MITCHELL, NEW YORK CITY
POLICE OFFICER ALEX PEREZ, NEW YORK CITY
POLICE CHIEF WILLIAM MORRIS, NEW YORK CITY:
POLICE COMMISSIONER JAMES P. O'NEIL, NEW
YORK CITY DEPUTY POLICE CHIEF JOHN ESSIG,
NEW YORK CITY ASSISTANT CHIEF RODNEY
HARRISON, NEW YORK CITY DEPUTY CHIEP
ANDREW CAPUL, NEW YORK CITY POLICE
INSPECTOR ROBERT LUKACH, NEW YORK CITY
POLICE DEPUTY INSPECTOR WILSON
ARAMBOLES, NEW YORK CITY POLICE
INSPECTOR fAUSTO PICHARDO, NEW YORK CITY
POLICE CAPTAIN TIMOTHY WILSON, NEW YORK
CITY DEPUTY INSPECTOR MARLON LARIN, NEW
YORK CITY POLICE CAPTAIN BRIAN FRANKLIN,
NEW YORK CITY POLICE INSPECTOR ERIC PAGAN,:
NEW YORK CITY POLICE LIEUTENANT HUGH
MACKENZIE, NEW YORK CITY POLICE SERGEANT :
CHARLES EWINGS, NEW YORK CITY POLICE
SERGEANT MEDINA, NEW YORK CITY POLICE
OFfICER EDWARD SALTMAN, NEW YORK CITY
POLICE OFFICER DANIEL TROYER, NEW YORK
CITY POLICE OFFICER A WILDA MELHADO, NEW
YORK CITY POLICE DETECTIVE DARREN
MCNAMARA, NEW YORK CITY POLICE DETECTIVE:
ANTHONY SELVAGGI, NEW YORK CITY POLICE
DETECTIVE ETHAN ERLICH, NEW YORK CITY
POLICE DETECTIVE HENRY MEDINA, NEW YORK :
CITY POLICE DETECTIVE EDWARD BIRMINGHAM, :

Appendix C

A0009

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 2 of 19

NEW YORK CITY POLICE DETECTIVE CLIFFORD
PARKS, NEW YORK CCTY POLICE DETECTIVE
ANTONIO RIVERA, NEW YORK CITY POLICE
OFFICER JAMES DOE (fictitious name),
Defendants.

WAHEEDA SHAHEED,
Plaintiff,
-v-

THE CITY OF NEW YORK, POLICE OFFICER
STEPHAN KROSKI, NEW YORK CITY POLICE
OFFICER PAUL BLISS, NEW YORK CITY POLICE
OFFICER JONATHAN RODRIGUEZ, NEW YORK
CITY POLICE OFFICER LYDIA FIGUEROA, NEW
YORK CITY POLICE LIEUTENANT KISHON
HICKMAN, NEW YORK CITY POLICE OFFICER
CHRISTOPHER MITCHELL, NEW YORK CITY
POLICE OFFICER ALEX PEREZ, NEW YORK CITY
POLICE CHIEF WILLIAM MORRIS, NEW YORK CITY:
POLICE COMMISSIONER JAMES P. O'NEIL, NEW
YORK CITY DEPUTY POLICE CHIEF JOHN ESSIG,
NEW YORK CITY ASSISTANT CHIEF RODNEY
HARRISON, NEW YORK CITY DEPUTY CHIEF
ANDREW CAPUL, NEW YORK CITY POLICE
INSPECTOR ROBERT LUKACH, NEW YORK CITY
POLICE DEPUTY INSPECTOR WILSON
ARAMBOLES, NEW YORK CITY POLICE
INSPECTOR FAUSTO PICHARDO, NEW YORK CITY
POLICE CAPTAIN TIMOTHY WILSON, NEW YORK
CITY DEPUTY INSPECTOR MARLON LARIN, NEW
YORK CITY POLICE CAPTAIN BRIAN FRANKLIN,
NEW YORK CITY POLICE INSPECTOR ERIC PAGAN,:
NEW YORK CITY POLICE LIEUTENANT HUGH
MACKENZIE, NEW YORK CITY POLICE SERGEANT :
CHARLES EWINGS, NEW YORK CITY POLICE
SERGEANT MEDINA, NEW YORK CITY POLICE
OFFICER EDWARD SALTMAN, NEW YORK CITY
POLICE OFFICER DANIEL TROYER, NEW YORK
CITY POLICE OFFICER A WILDA MELHADO, NEW
YORK CITY POLICE DETECTIVE DARREN

2

A0010

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 3 of 19

MCNAMARA, NEW YORK CITY POLICE DETECTIVE:
ANTHONY SELVAGGI, NEW YORK CITY POLICE
DETECTIVE ETHAN ERLICH, NEW YORK CITY
POLICE DETECTIVE HENRY MEDINA, NEW YORK
CITY POLICE DETECTIVE EDWARD BIRMINGHAM, :
NEW YORK CITY POLICE DETECTIVE CLIFFORD
PARKS, NEW YORK CITY POLICE DETECTIVE
ANTONIO RIVERA, NEW YORK CITY POLICE
OFFICER JAMES DOE (fictitious name),
Defendants.

------------------------------------------------------------------------X
PAUL A ENGELMAYER, District Judge:
Plaintiffs Daghrib Shaheed and Waheedah Shaheed bring these consolidated actions
under 42 U.S.C. § 1983 and state law against the City of New York (the "City") and numerous
New York Police Department ("NYPD") officers. Plaintiffs bring claims of false arrest, false
imprisonment, excessive force, deprivation of due process, intentional infliction of emotional
distress, assault, battery, and malicious prosecution. They further allege that the City failed to
properly train and supervise its officers.
Pending now is defendants' motion to dismiss Plaintiffs' First Amended Complaint
("FAC") 1 as to: (1) all claims against Lieutenant Kishon Hickman, Police Officer Christopher
Mitchell, Police Officer Alex Perez, Police Chief William Morris, Police Commissioner James P.
O'Neil, Deputy Police Chief John Essig, Chief Rodney Harrison, Deputy Chief Andrew Capul,
Police Inspector Robert Lukach, Deputy Inspector Wilson Aramboles, Police Inspector Fausto

This case began as two separate cases, which were later consolidated. Plaintiffs filed two nonidentical versions of their amended complaint on separate dockets. No. 14 Civ. 7424, Dkt. 65;
No. 15 Civ. 3480, Dkt. 56. The two versions allege the same essential facts but are told from the
perspective of the respective plaintiffs. The Court consolidated the two cases by an order dated
December 28, 2016. No. 14 Civ. 7424, Dkt. 57; No. 15 Civ. 3480, Dkt. 48. Defendants move to
dismiss both complaints. The Court here refers to the two versions of the amended complaint
collectively as the FAC.
1

3

A0011

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 4 of 19

Pichardo, Captain Timothy Wilson, Deputy Inspector Marlon Larin, Police Captain Brian
Franklin, Police Inspector Eric Pagan, Lieutenant Hugh MacKenzie, Sergeant Charles Ewings,
Sergeant Medina, Police Officer Edward Saltman, Police Officer Daniel Troyer, Police Officer
Awilda Melhado, Detective Anthony Selvaggi, Detective Ethan Erlich, Detective Henry Medina,
Detective Edward Birmingham, Detective Clifford Parks, and Detective Antonio Rivera
(collectively, the "Newly Added Defendants");2 and (2) all claims of municipal liability.
For the reasons that follow, the Court grants both motions.

I.

Background
A.

Factual Background3

Plaintiffs' claims arise from incidents on June 6, 2012; June 29, 2012, and June 30, 2012.
The Court sets out the facts alleged as to each.

1.

June 6, 2012
a.

Entry into the Apartment

On June 6, 2012, at approximately 6:30 p.m., officers of the NYPD, led by Officer
Stephan Kroski, knocked on the door of the home of Waheedah Shal1eed and her daughter
Daghrib Shaheed. No. 14 Civ. 7424, Dkt.65149; No. 15 Civ. 3480, Dkt. 56,j 50. Officers
accompanying Kroski included Police Officer Paul Bliss, Police Officer Jonathan Rodriguez,
2

In listing the names of the Newly Added Defendants in the motion to dismiss, defendants omit
the name of newly added defendant Detective Darren McNan1ara. See No. 14 Civ. 7424, Dkt. 72
at 7. The Court, however, will sua sponte treat the motion to dismiss to applying to McNamara,
as defendants' arguments about the Jack of allegations of personal involvement apply equally to
him.
3

The Court draws these facts principally from the f AC, No. 14 Civ. 7424, 0kt. 65; No. 15 Civ,
3480, Dkt. 56. See DiFolco v. MSNBC Cable LLC, 622 F Jd 104, 111 (2d Cir. 2010) ("In
considering a motion to dismiss for failure to state a claim pursuant to Rule 12(b)(6), a district
court may consider the facts alleged in the complaint, documents attached to the complaint as
exhibits, and documents incorporated by reference in the complaint."). The Court accepts all
factual allegations in the FAC as true, drawing all reasonable inferences in Plaintiffs' favor. See
Koch v. Christie's lnt'l PLC, 699 F.3d 141, 145 (2d Cir. 2012).

4

A0012

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 5 of 19

Police Officer Christopher Mitchell, Police Lieutenant Kishon Hickman, and several unnamed
"John Doe" officers. No. 14 Civ. 7424, Did. 65 ,i 49.
Noah Shaheed-son of Waheedah and brother to Daghrib--asked Kroski if he had a
warrant. Kroski responded that he did not need one. Id.; No. 15 Civ. 3480, Dkt. 56 ,i 51. The
defendant officers then forced their way into plaintiffs' apartment "without the authority of either
a search or arrest warrant." No. 15 Civ. 3480, Dkt. 56 ii 52.
Once inside the apartment, Kroski informed Daghrib that the officers had come to the
apartment to see Daghrib's "babies." No. 14 Civ. 7424, Dkt. 65 ,i 52. Daghrib did not have any
children and told this to Kroski. Id. ,i,i 49, 52. Daghrib then asked the of1icers to leave if they
did not have a warrant. Kroski again asserted that he did not need one. No. 15 Civ, 3480, Dkt.
56,i53.
b.

Detention of Daghrib Shaheed

An officer identified only as "John Doe" in the FAC grabbed Daghrib and dragged her
into the kitchen of her apartment. No. 14 Civ. 7424, Dkt. 65 ,i 53. Daghrib asked Doe if she was
under arrest; he said no but then put handcuffs on Daghrib. Id. ,i,i 54-55. During this time,
officers searched Daghrib's bedroom and damaged her bed. Td. ,i 56,
Bliss then entered the kitchen and asked Daghrib where her children were. Id. ,i 57.
Daghrib again stated that she did not have any children. id. Bliss grabbed her arm and
forcefully pulled her out of the apartment, refusing her request for time to put on her shoes. id.
Officer Bliss stated, "You don't need shoes savage." Id. Bliss also told fellow officers, "Let's
take this savage in," and "This monkey needs to shut up." Id. ii 58. While transporting Daghrib
to the 25th Precinct, he also said to her, "You know what you savage bitch, you can't even take

5

A0013

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 6 of 19

care of the babies that you have." Id. When the vehicle arrived at the 25th Precinct, Officer
Bliss "yanked" Daghrib out of the vehicle, causing her to hit her head against the car. Id.

,1 59.

Doe then searched Daghrib and took her cell phone, which contained video footage of the
events of June 6, 2012. Id. ,i 60, The cell phone was never returned to Daghrib. Id.
After Daghrib asked to be taken to the hospital, Rodriguez escorted her to Mount Sinai
Hospital, where she was handcuffed to a bed. Id.~ 61. Daghrib was suffering from pain in her
left arm and had injuries including "a bone bruise, a shoulder joint tear, substantial pain and
suffering and mental distress." Id. She was then brought back to the 25th Precinct and placed in
a cell, still without shoes. Id.

62.

After two days, she was arraigned and charged with (I) resisting arrest in violation of
New York Penal Law § 205 .30; and (2) obstruction of governmental administration in the second
degree in violation of New York Penal Law§ 195.05. Id.~ 64. After the events of June 6, 2012,
Kroski would "from time to time . , . follow [Daghri b] in his police car when he would see [her]
in public." Id.~ 66. On September 18, 2013, the case against Daghrib was dismissed on the
merits. Id.

65.
c.

Detention of Waheedah Shaheed

At the time of the officers' entry into the apartment, Waheedah was in her bedroom. No.
15 Civ. 3480, Dkt. 56 ,r 54. Waheedah suffers from health conditions, including a terminal
cancer (end stage multiple myeloma) and a heart condition (severe mitral regurgitation). ld. ,r
49. She also requires a rollator to walk. Id.
Kroski went to Waheedah's bedroom door and twice stated, "Get up you're coming with
me." Id. ,i 54. When Waheedah asked Kroski if he had a warrant, Kroski stated, "Well no." Id.

6

A0014

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 7 of 19

Waheedah refused to go with Kroski, got out of bed, and told him to leave her home. Id. 1154,

56.
Kroski then grabbed Waheedah by both arms and threw her to the floor of her apartment.

Id. ,i 57. As Waheedah attempted to get back on her feet, Kroski punched Waheedah in the eye,
causing Waheedah to fall once more to the floor of her apartment. Id. Kroski then began to
choke Waheedah. Id. Fearing that Kroski would kill her, Waheedah squeezed Kroski's testicles
in an act of self-defense. Id. An unnamed officer in the room removed Kroski from atop
Waheedah and was forced to restrain Kroski, who again attempted to attack Waheedah. Id.

1 58.

Kroski then smashed Waheedah's rollator. Id.
Officer Aguilar, who was also in the room at this time, handcuffed Waheedah. Id. 159.
When Waheedah asked if she was wider arrest, Aguilar responded that she was not. Id. Aguilar
simply stated that "they" had instructed the officers to detain her. Id. Waheedah asked who
"they" were. Aguilar said he did not know. Id.
Bleeding from the mouth and having difficulty breathing, Wahecdah asked to be taken to
the hospital. Id. ,i 60. She made her previous health conditions known to one of the officers, Id.
Notwithstanding her request, the officers removed Wahccdah from her apartment and took her to
the precinct, where she was detained in a jail cell. Id. 161.
As the officers escorted Wahccdah out of her apartment unit, she noticed more NYPD
officers lining the hallway. Id. When she was escorted out of her apartment building, Waheedah
observed at least ten police cars parked in the vicinity. Id.
Waheedah again asked to be taken to a hospital. Id. Her request again was ignored. Id.

It was not w1til the following morning, June 7, 2012, that W aheedah was removed from her cell
and transported to a hospital. Id. 162. Wahecdah remained in the hospital until June 16, 2012.

7

A0015

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 8 of 19

Id. 163. Waheedah was handcuffed, shackled at the ankles, and watched by an NYPD officer
during the entire hospital stay. Id. At no time before or during her time at the hospital was
Shaheed brought before a judge. Id
On June 16, 2012, Waheedah was given a Desk Appearance Ticket that charged her with
Assoult in the Second Degree, a Class D felony, for her alleged attack on Kroski. The ticket
instructed her to appear in court on July 26, 2012. Id.

64. On September 18, 2013, the case

against Waheedah was dismissed on the merits. Id. 165.

2.

June 29, 2012

On June 29, 2012, at around 6;30 PM, Detective Darren McNamara knocked on the
Shaheeds' apartment door. Id.

il 66.

Before opening the door, Noah Shaheed asked McNamara

if he had a warrant. Id. McNamara responded in the affirmative, but failed to produce any
document authorizing entry. Id. When Waheedah refused to open the door, McNamara said
something to the effect of, "open the door and we can do this the easy way, or we can do this the
hard way, and it'll be wors[e] than June 6th ." ldi[ 67. After entry was refused, McNamara and
the unnamed officers who accompanied him continued banging on the door for two hours, at
which point Shaheed's apartment's electricity and air conditioning were terminated. Id

68; see

also No, 14 Civ. 7424, Dkt. 65 ~168-70.
3.

June 30, 2012

On June 3 0, 2012, an emergency services unit forced its way into the apartment, No. 15
Civ. 3480, Dkt. 56

69. Upon entry, the officers pointed assault rifles at the apartment's

occupants and demanded they get on the floor. Id. The officers damaged property inside the
residence and killed the family's pet hamster. Id.

70. One officer stated that they planned "to

tear the walls down to find your brother." Dkt. No. 7424, No. 65

8

71.

A0016

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 9 of 19

Both Waheedah and Daghrib were searched and handcuffed inside the apartment. Id.

72; No. 15 Civ. 3480, Dkt. 56 70. They were both physically removed from her building,
where again they noticed several police officers in the vicinity of the building's parking lot. Dkt.
No. 7424, No. 65 ii 72; No. 15 Civ. 3480, Dkt. 56 ,r 70.
Daghrib was placed into an ambulance and taken to Harlem Hospital, where she was later

73-74.

released from custody. 0kt. No, 7424, No. 65

Waheedah was taken first to Harlem Hospital and then to the precinct. No. 15 Civ. 3480,
Dkt. 56 ii 71. Later in the afternoon, Waheedah was taken from the hospital to the precinct,
where she was again incarcerated. Id.

,r 72.

In her jail cell, Waheedah experienced pain and

difficulty breathing, but was given neither her pain nor her heart medications. Id.
The next day, July 1, 2012, Waheedah was transported to 100 Centre Street in New York
County to be arraigned. Id.

,r 73.

Before she could be arraigned, the severity of Shaheed's pain

required her to be transferred to the Bellevue Hospital emergency room. Id. There, Troyer read
aloud her medical assessment to other NYPD officers in the precinct. Id.

74. The assessment

made clear that Waheedah was suffering from stage four cancer and congestive heart failure. Id.
Kroski arrived at Bellevue Hospital to transport Waheedah back to the precinct and said
to her, "Don't look at me cause it might set me off, and I don't know what I'll do to you." Id.

,r

73. Waheedah spent another night in the precinct. Id.
The next day, July 2, 2012, Waheedah was arraigned on a charge of obstruction of
governmental administration in the second degree in violation ofNew York Penal Law§ 195.05
for failing to provide entry to McNamara and the unnamed officers who accompanied him during
the June 29, 2012 arrest. Id.

~,r 74-75.

On April 2, 2014, this case against Waheedah was

dismissed on the merits and sealed. Id. ,i 77.

9

A0017

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 10 of 19

B,

Procedural History

On September 12, 2014, Daghrib filed her initial complaint in this action, bringing claims
against the City as well as Kroski, Bliss, Rodriguez, Officer Lydia Figueroa, and several "Doe"
officers. No. 14 Civ. 7424, Dkt. 1. On March 4, 2015, defendants filed an answer. No. 14 Civ.
7424, Dkt. 15.
Also on March 4, 2015, the case was selected for mediation. On March 15, 2015, a final
report of the mediator staled that mediation had been unsuccessful. No. 14 Civ. 7424, Dkt. 18.
On May 4, 2015, Waheedah filed her initial complaint in this action, also bringing claims
against the City as well as Kroski, Bliss, Rodriguez, Figueroa, and several "Doe" officers. No.
15 Civ. 3480, Dkt. 1.
On December 28, 2016, this Court consolidated the two cases and set a deadline for the
filing of an amended complaint. No. 14 Civ. 7424, Dkt. 57; No. 15 Civ. 3480, Dkt. 48.
On January 9, 2017, Daghrib filed her version of the amended complaint. No. 14 Civ.
7424, Dkt. 60. On January 20, 2017, Waheedah filed her version of the amended complaint, No.
15 Civ. 3480, Dkt. 56. As noted, the Court treats these two filings, collectively, as the F AC.
The FAC added claims against the Newly Added Defendants.
On January 24, 2017, defendants filed a partial motion to dismiss, No. 14 Civ. 7424, Dkt.
70; No. 15 Civ, 3480, Dkt. 61, as well as a supporting memorandum oflaw, No. 14 Civ. 7424,
Dkt. 72; No. 15 Civ. 3480, Dkt. 60, and declaration, No. 14 Civ. 7424, Dkt. 71; No. 15 Civ.
3480, Dkt. 62. On February 7, 2017, plaintiffs filed a memorandum of law in opposition to the
partial motion to dismiss. No. 14 Civ. 7424, Dkt. 75; No. 15 Civ. 3480, Dkt. 65.
II.

Applicable Legal Standards
To survive a motion to dismiss under Rule 12(b)(6), a complaint must plead "enough

facts to state a claim to relief that is plausible on its face." Bell At!. Corp. v. Twombly, 550 U.S.
10

A0018

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 11 of 19

544, 570 (2007). A claim has "facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A complaint is properly dismissed where,
as a matter of law, "the allegations ln a complaint, however true, could not raise a claim of
entitlement to relief," Twombly, 550 U.S. at 558.
In considering a motion to dismiss, a district court must "accept[ J all factual claims in
the complaint as true, and draw[] all reasonable inferences in the plaintiff,s favor." Lotes Co.,

Ltd. v. Hon Hai Precision Indus. Co., 753 F.3d 395,403 (2d Cir. 2014) (quoting Famous Horse
Inc. v. 5th Ave. Photo Inc., 624 F.Jd l 06, l 08 (2d Cir. 2010)). However, "the tenet that a court
must accept as true all of the allegations contained in a complaint is inapplicable to legal
conclusions." Iqbal, 556 U.S. at 678. "Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice." Id. "[R]ather, the complaint's/actual
allegations must be enough to raise a right to relief above the speculative level, i.e., enough to
make the claim plausible." Arista Records, LLC v. Doe 3, 604 F.3d 110, 120 (2d Cir. 2010)
(quoting Twombly, 550 U.S. at 555,570) (internal quotation marks omitted) (emphasis in Arista

Records).
III.

Discussion
Defendants seek dismissal of (1) all claims against the Newly Added Defendants, on the

ground that the F AC fails to allege the personal involvement of these defendants in the alleged
misconduct; and (2) the municipal liability claim against the City, on the ground that the f AC
fails to state a claim under Monell v. Department ofSocial Services, 436 U.S. 658 (1978). The
Court addresses these issues in turn.

A.

Claims Against the Newly Added Defendants

The FAC fails to state a claim against the Newly Added Defendants.
11

A0019

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 12 of 19

Section 1983 provides redress for a deprivation of federally protected rights by persons
acting under color of stc1te law. 42 U.S.C. § 1983. To prevail on a§ 1983 clrum, a plaintiff must
establish (1) the violation of a right, privilege, or immunity secured by the Constitution or laws
of the United States (2) by a person acting under the color of state law. West v. Atkins, 487 U.S.
42, 48 (I 988); Flagg Bros., Inc. v. Brooks, 436 U.S. 149, 155-57 (1978).
To establish personal liability under§ 1983, a plaintiff must show that the defendant was
"personally or directly involved in the violation, that is, that there was 'personal participation by
one who ha[d] knowledge of the facts that rendered the conduct illegal."' Harris v. Westchester

Cty. Dep't of Corr., No. 06 Civ. 2011 (RJS), 2008 WL 953616, at *9 (S.D.N,Y. Apr. 3, 2008)
(quoting Provost v. City of Newburgh, 262 F.3d 146, 155 (2d Cir. 2001)); accord Farrell v.

Burke, 449 F.3d 470, 484 (2d Cir. 2006) ("It is well settled in this Circuit that personal
involvement of defendants in alleged constitutional deprivations is a prerequisite to an award of
damages under§ 1983." (internal quotation marks and citation omitted)).
Personal involvement in a § 1983 violation may be shown by evidence that the defendant:
( 1) directly participated in the alleged violation; (2) failed to remedy the violation after learning

about it; (3) created a policy or custom under which the violation occurred; (4) was grossly
negligent in supervising subordinates who caused the unlawful condition or event; or (5)
exhibited deliberate indifference by failing to act on information indicating that the violation was
occurring. Colon v. Coughlin, 58 F.3d 865, 873 (2d Cir. 1995); Washington v. Kelly, No. 03 Civ.
4638 (SAS), 2004 WL 830084, at *J (S.D.N.Y. Apr. 13, 2004).
Here, plaintiffs' § 1983 clrums against the individual defendants sound in false arrest and
imprisonment, excessive force, deprivation of due process, and malicious prosecution. Yet the

12

A0020

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 13 of 19

FAC does not allege any facts indicating the personal involvement of the Newly Added
Defendants in any of the claimed constitutional violations.

In fact, of the entire aforementioned list of Newly Added Defendants, the F AC only
mentions actions of Troyer, Hickman, Mitchell, and McNamara. And there is no allegation that
any of these officers played any part in any of the alleged violations. None are alleged to have
ever entered plaintiffs' apartment, detained or had any physical contact with either plaintiff, or
had any role in their prosecutions. As to Troyer, he is alleged only to have informed other police
officers of Waheedah's heart condition and cancer on July 1, 2012 (after Wahecdah disclosed
these conditions to officers on June 6, 2012). No. 15 Civ. 3480, Dkt. 56 'il'il 60, 74. As to
McNamara, he is alleged only to have knocked on plaintiffs' door on June 29, 2012, and
demanded entry unsuccessfully. No. 14 Civ. 7424, Dkt. 651'1168-70; No. 15 Civ. 3480, Dkt. 56
1166-68. And as to Hickman and Mitchell, these officers are alleged only to have
"accompanied" Kroski to the door of plaintiffs' apartment when Kroski began "banging on the
door" and "demanding entry." No. 14 Civ. 7424, Dkt. 65

1 49.

The FAC contains no allegations

that Hickman and Mitchell took any action after the officers entered the apartment. The FAC
does not even clearly allege that Hickman and Mitchell ever entered the apartment; it describes a
general group of officers identified only as "Defendant Police Officers" entering, id., but it also
notes that, when Waheedah was removed from the apartment, she observed that "several police
officers" were still outside, "lin[ing] the hallway outside of her apartment," No. 15 Civ. 3480,
Dkt. 56 'ii 61.
These allegations are insufficient to establish personal liability under§ 1983 as to any of
the Newly Added Defendants. And with respect to the claims brought under state law-which
include false arrest, false imprisonment, intentional infliction of emotional distress, malicious

13

A0021

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 14 of 19

prosecution, assault, and battery-the F AC fails too to state these claims, which derive from acts
allegedly committed in the course of plaintiffs' arrests and prosecutions and, as discussed above,
the F AC does not allege that any of the Newly Added Defendants personally participated in
plaintiffs' arrests and prosecutions. See Hardee v. City ofNY., No. 10 Civ. 7743 (PAE), 2014
WL 4058065, at *8 n. 4 (S.D.N.Y. Aug. 14, 2014) (dismissing assault and battery claim against
an individual officer where it was "undisputed that [the officer] did not take part in [the
plaintiffs] arrest" and the plaintiffs "assault and battery claim stem[med] from acts allegedly
committed during his arrest").
Accordingly, the Court grants defendants' motion to dismiss all claims brought against
the Newly Added Defendants.
B.

Municipal Liability Claim Against the City of New York

The Court also holds that the F AC fails to state a municipal liability claim against the
City.
Municipal liability in a§ 1983 action may not be based on a theory of respondeat
superior or vicarious liability. Monell v. Dep 't ofSoc. Ser vs., 436 U.S. 658, 691 (1978). Rather,

to hold a municipality liable under § 1983 for the unconstitutional actions of its employees, the
plaintiff must prove that there was a municipal policy or custom that directly caused her to be
subjected to a constitutional violation. Wray v. City ofNew York, 490 F.3d 189, 195 (2d Cir.
2007); see Amnesty Am. v. Town of W Hartford, 361 F.3d 113, 125 (2d Cir. 2004)
("[C]onstitutional torts committed by city employees without official sanction or authority do not
typically implicate the municipality in the deprivation of constitutional rights, and therefore lhe
employer-employee relationship is in itself insufficient to establish the necessary causation."
(internal quotation marks and citation omitted)).
A plaintiff can establish the existence of a policy or custom by demonstrating:
14

A0022

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 15 of 19

( 1) a formal policy officially endorsed by the municipality; (2) actions taken by
government officials responsible for establishing the municipal policies that
caused the particular deprivation in question; (3) a practice so consistent and
widespread that, although not expressly authorized, constitutes a custom or usage
of which a supervising policy-maker must have been aware; or (4) a failure by
policymakers to provide adequate training or supervision to subordinates to such
an extent that it amounts to deliberate indifference to the rights of those who come
into contact with the municipal employees.
Brandon v. City ofNew York, 705 F. Supp. 2d 261, 276-77 (S.D.N.Y. 2010) (collecting cases)

(internal citations omitted); Calderon v. City ofNew York, 138 F. Supp. 3d 593, 611-12, No. 14
Civ. 1082 (PAE), 2015 WL 5802843, at *14 (S.D.N.Y. Oct. 5, 2015), reconsideration in part
granted on other grounds, 2015 WL 6143711 (S.D.N.Y. Oct. 19, 2015); Spears v. City of New
York, No. 10 Civ. 3461 (JG), 2012 WL 4793541, at* 11 (E.D,N.Y. Oct. 9, 2012). It is well

established that an allegation of "a single incident, especially one involving only actors below
the policy-making level," does not "'suffic[eJ to impose liability under Monell, unless proof of
the incident includes proof that it was caused by an existing, unconstitutional municipal policy,
which policy can be attributed to a municipal policymaker."' Simpson v. Town of Warwick
Police Dep 't, 159 F. Supp. 3d 419,439 (S.D.N.Y. 2016) (quoting Oklahoma City v. Tuttle, 471

U.S. 808, 823-24 (1985)); accord Brogdon v. City ofNew Rochelle, 200 F. Supp. 2d 411,427
(S.D.N.Y. 2002) ("A single incident by itself is generally insufficient to establish the affirmative
link between the municipal policy or custom and the alleged unconstitutional violation."),
Here, assuming arguendo that plaintiffs' can establish that any individual defendant
officer violated plaintiffs' rights, the Monell claim still fails because the F AC does not allege that
the alleged constitutional violations resulted from a municipal policy, custom, or practice. The
FAC does not claim, for example, that New York City had an official or de facto policy of
arresting individuals in their homes without warrants, or of using excessive force, or that
repeated incidents of similar misconduct by New York City police officers reveal such a custom.
15

A0023

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 16 of 19

The FAC also does not allege that Kroski or any officer involved in the events of June and July
2012 were municipal policymakers.
To be sure, the F AC does contain conclusory allegations that "proper training or
supervision would have enabled Defendant New York City Police Officers to understand that"
they could not enter Plaintiffs' home without a warrant and use excessive force. See, e.g., No. 15
Civ. 3480, Dkt. 56

132-33. But plaintiffs "cannot, through conclusory allegations, merely

assert the existence of a municipal policy or custom"; rather, they'" must allege facts tending to
support, at least circumstantially, an inference that such a municipal policy or custom exists."'

Masc:iotta v. Clarkstown Cent. Sch. Dist., 136 F. Supp. 3d 527,546 (S.D.N.Y, 2015) (quoting
Santos v. New York City, 847 F. Supp. 2d 573, 576 (S.D.N.Y. 2012)); see also id. ("[MJere
allegations of a municipal custom, a practice of tolerating official misconduct, or inadequate
training and/or supervision are insufficient to demonstrate the existence of such a custom."),
Moreover, inadequate supervision may serve as the basis for § 1983 liability only "where
a policymaking official exhibits deliberate indifference to constitutional deprivations caused by
subordinates, such that the official's inaction constitutes a 'deliberate choice,' that acquiescence
may 'be properly thought of as a city policy or custom that is actionable under § 1983."' Amnesty

Am., 361 F.3d at 126 (quoting City o/Canton v. Harris, 489 U.S. 378,388 (1989) (internal
quotation marks omitted)). Deliberate indifference "may be inferred where 'the need for more or
better supervision to protect against constitutional violations was obvious,' but the policymaker
'fail [ed] to make meaningful efforts to address the risk of harm to plaintiffs."' Cash v. Cty. of

Erie, 654 F.3d 324,334 (2d Cir. 2011) (quoting Vann v. City qfNew York, 72 F.3d 1040, 1049
(2d Cir. 1995); Reynolds v. Giuliani, 506 F.3d 183, 192 (2d Cir. 2007)); accord Missel v. Cty. of

16

A0024

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 17 of 19

Monroe, 351 F. App'x 543, 546 (2d Cir. 2009) (summary order). Here, the FAC makes no
concrete allegations as to the deliberate indifference of any policymaking official.
In their opposition brief, plaintiffs cite Turpin v. Mailet, in which the Second Circuit
suggested that "a single, unusually brutal or egregious beating administered by a group of
municipal employees may be sufficiently out of the ordinary to warrant an inference that it was
attributable to inadequate training or supervision amounting to deliberate indifference ... on the
part of officials in charge." 619 F.2d 196,202 (2d Cir. 1980). The FAC, however, depicts a
scenario in which an individual municipal employee-rather than the "group of municipal
employees" contemplated in Turpin, see id-administered a beating. fn fact, the FAC makes
clear that Kroski's attack on Waheedah was an individual effort, as it describes how another
officer in the room restrained Kroski from continuing his attack. 15 Civ. 3480, Dkt. 56

58.

The other alleged uses of force in the FAC are primarily incidents in which a sole officer
grabbed or dragged Plaintiffs roughly. See, e.g., 14 Civ. 7424, Dkt. 65

53 (Doc "grabbed"

Daghrib and "dragged" her into the kitchen); id.~ 57 (Bliss "grabbed [Daghrib] by the arm, and
forcefully removed [her] from [her] apartment"); id~ 59 (Bliss "yanked [Daghrib] out of the car
causing [her] to hit her head against the car while being pulled out of the vehicle"). The fact that
an individual officer "may be unsatisfactorily trained will not alone suffice to fasten liability on
the city, for the officer's shortcomings may have resulted from favors other than a faulty training
program." City ofCanton v. Harris, 489 U.S. 378, 390-91 (1989). Turpin is thus inapposite:
the allegations of force in the FAC, even if they held to be excessive force, are insufficient to
establish the City's liability.
Plaintiffs also liken this case to Burdanaro v. McLeod, in which the rirst Circuit upheld a
verdict against a municipality after its police force's night watch, without a warrant, shot down

17

A0025

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 18 of 19

the plaintiffs' motel room door and proceeded to brutally beat the plaintiffs inside the motel
room. 871 F.2d 1151, 1154 (1st Cir. 1989). Bordanaro has yet to be adopted in this Circuit and
thus is "not binding precedent on this Court." Grays v. City of New Rochelle, 354 F. Supp. 2d
323, 325 (S.D.N.Y. 2005). And Bordanaro is distinguishable. There, the ''entire night watch,"
not a single officer as alleged here, participated in the beating the plaintiffs. 871 F.2d at 1156.

In language relevant here, Bordanaro stated that "evidence of a single event alone cannot
establish a municipal custom or policy" unless "other evidence of the policy has been presented
and the 'single incident' in question involves the concerted action of a large contingent of
individual municipal employees." Id. at 1156-57; see Powell v. Murphy, 972 F. Supp. 2d 335,
345 (E.D.N.Y. 2013), aff'd, 593 F. App'x 25 (2d Cir. 2014) ("Plaintiff ... overlooks the point
that Bordanaro also held that a plaintiff cannot establish a municipal policy or custom where, as
here, he presents evidence concerning only a single event."), The plaintiffs in Bordanaro also
adduced evidence permitting a factfinder to infer that the particular police force had developed a
"widespread" and "flagrant" practice of breaking down people's doors and entering their homes
without warrants. See id. at 1157. No such allegations have been made here.
Accordingly, the Court holds that the F AC fails to state a Monell claim against the City.
CONCLUSION

For the recisons above, the Court grants defendants' motion to dismiss all claims against
the Newly Added Defendants, including Detective Darren McNamara, and to dismiss plaintiffs'
municipal liability claim against the City.
The Clerk of the Court is respectfully directed to close the motions pending at No. 14
Civ. 7424, Dkt. 70; and No. 15 Civ. 3480, Dkt. 61.

18

A0026

Case 1:14-cv-07424-PAE Document 91 Filed 07/17/17 Page 19 of 19

Pafcl~~~~

SO ORDERED.

United States District Judge

Dated: July 17, 2017
New York, New York

19

A0027

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 1 of 28

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OP NEW YORK

----------------------------------------------------------------------X

3/2/2018

DAGHRIB SHAHEED,
Plaintiff,

THE CITY OF NEW YORK, NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI, NEW YORK
CITY POLICE OFFICER PAUL BLISS, NEW YORK
CITY POLICE OFFICER JONATHAN RODRIGUEZ,
and NEW YORK CITY POLICE OFFICER LYDIA
FIGUEROA,

14 Civ. 7424 (PAE);
15 Civ. 3480 (PAE)
OPINION & ORDER

Defendants.

W AHEEDAH SHAHEED,
Plaintiff,
-v-

THE CITY OF NEW YORK, NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI, NEW YORK
CITY POLICE OFFICER PAUL BLISS, NEW YORK
CITY POLICE OFFICER JONATHAN RODRIGUEZ,
and NEW YORK CITY POLICE OFFICER LYDIA
FIGUEROA,
Defendants.•

• The Clerk of Court is respectfully directed to amend the captions for these consolidated cases
as set forth above.

Appendix D

A0028

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 2 of 28

PAUL A. ENGELMAYER, District Judge:
Plaintiffs Daghrib Shaheed ("Daghrib") and Wahcedah Shaheed ("Waheedah") bring
these consolidated actions under 42 U.S.C. § 1983 and New York state law against the City of
New York (the "City") and several New York Police Department ("NYPD") officers. As a result
of this Court's prior decision dismissing plaintiffs' federal claims for municipal liability,
plaintiffs' remaining claims are for false arrest, false imprisonment, deprivation of substantive
due process, excessive force, malicious prosecution, intentional infliction of emotional distress,
assault, and battery. These claims arise from two incidents: one on June 6, 2012 (the "June 6
incident"), and the other taking place between June 29 and June 30, 2012 (the "June 29-30
incident").
Pending now is defendants' motion for partial summary judgment. Defendants seek
summary judgment in their favor on: (1) all claims arising out of the June 29-30 incident; (2)
both plaintiffs' claims for deprivation of substantive due process and intentional infliction of
emotional distress arising out of the June 6 incident; and (3) Daghrib's claims for excessive
force, assault, and battery arising out of the June 6 incident.
For the reasons that follow, the Court grants the motion in all respects except insofar as it
seeks dismissal of Daghrib's claims for excessive force, assault, and battery arising out of the
June 6 incident. The effect of this decision is to dismiss all claims arising out of the June 29-30
incident and to preserve for trial all claims arising out of the June 6 incident save the claims for
deprivation of substantive due process and intentional infliction of emotional distress.

I.

Background
A.

Factual Background 1

explained in the Court's prior opinion, this case began as two separate cases, which were
later consolidated. As a result, each plaintiff's amended complaint appears on a separate docket.
1 As

2

A0029

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 3 of 28

1.

The Parties

In June 2012, plaintiff Waheedah Shaheed lived with her four children: plaintiffDaghrib
Shaheed, age 25; Noah Shaheed, age 20; I.O., age 15; and A.A., age 11. Pl. Counter 56.1

,rn 4-5.

At all relevant times, the family lived together in an apartment on East 129th Street in
Manhattan. Id. 16. Waheedah and Daghrib were tenants on the lease of the apartment. Id.

17.

At all relevant times, each of the four individual defendants was an NYPD police officer.

Id.

3. Each was assigned to the 25th Precinct in Harlem. Id.

2.

The ACS Investigation

On May 29, 2012, officials at I.O. 's school reported seeing marks on LO. 's arm, which
they believed resulted from self~inflicted harm. Id.

8. The school requested that Waheedah

take 1.0. to receive medical care. Id. 19; see also Arko Deel. Ex. I ("Waheedah Dep.") at 80.
Waheedah, who suffers from several health conditions, including cancer (multiple myeloma) and

See No. 14 Civ. 7424, Dkt. 65; No. 15 Civ. 3480, Dkt. 56. Apart from the complaints, which
allege the same essential facts but raise slightly different claims, the materials on each docket are
identical as relevant here. Accordingly, unless otherwise specified, all docket numbers cited in
this opinion refer to the docket in 14 Civ. 7424,
The Court draws its account of the underlying facts from the parties' respective submissions on
the motion for summary judgment, including defendants' Statement Pursuant to Local Civil Rule
56.1, see Dkt. 98 ("Def. 56. l "); plaintiffs' counter-statement, see Dkt. 108 ("PL Counter 56.1 ");
the Declaration of Christopher G. Arko in support of defendants' motion, Dkt. 99 ("Arko
Deel."), with attached exhibits; and the declaration of Lawrence P. LaBrew in opposition to
defendants' motion, 0kt. 110 ("LaBrew Deel."), with attached exhibits.
Citations to a party's 56.1 statement incorporate the evidentiary materials cited therein. When
facts stated in a party's 56.l statement are supported by testimonial, video, or documentary
evidence and not denied by the other party, or denied by a party without citation to conflicting
admissible evidence, the Court finds such facts to be true. See S.D.N.Y. Local Civil Rule 56.l(c)
("Each numbered paragraph in the statement of material facts set forth in the statement required
to be served by the moving party will be deemed to be admitted for purposes of the motion
unless specifically controverted by a correspondingly numbered paragraph in statement required
to be served by the opposing pm1y. "); id. Rule 56. l (d) ("Each statement by the movant or
opponent ... controverting any statement of material fact[] must be followed by citation to
evidence which would be admissible, set forth as required by Fed. R. Civ. P. 56(c).").

3

A0030

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 4 of 28

a heart condition (mitral regurgitation), explained that she was not feeling well enough to go and
that school officials were overreacting. Waheedah Oep. at 43, 80. After Waheedah refused to
come to the school, 1.0. was sent by ambulance to the hospital with the school nurse, See Pl.
Counter 56.1

il 9; Waheedah Dep. at 80-81.

Although the hospital released I.O, to Noah, see Waheedah Dep. at 81, the New York
City Administration for Children's Services ("ACS") opened an investigation against Waheedah
for inadequate medical care and inadequate guardianship, Pl. Counter 56. l ,i 10. Between May
29, 2012 and June 6, 2012, ACS Child Protective Specialist Shannon Aste called and visited
Waheedah several ti mes to inform her of the investigation and to discuss the allegations, Pl.
Counter 56. l ,i 11. At each visit, Waheedah refused to let Aste into her apartment. Id.
On June 5, 2012, Aste told Waheedah over the phone that Waheedah was required to
appear at a child safety conference the next day, and that her failure to appear might result in
ACS's seeking court intervention. Arko Deel. Ex. K ("Aste Deel.") at ,i IO. Waheedah did not
appear at the conference. Id. 'i] 11.
On June 6, 2012, ACS filed a neglect petition in Manhattan Family Court. Id.

'ii 12,

That

same day, Manhattan Family Court Judge Clark V, Richardson signed an Order on Application
for Temporary Removal of Child. It authorized ACS to remove 1.0. and A.A. from their
mother's home. Arko Deel. Ex. L. Judge Richardson found that ACS had made reasonable
efforts to eliminate the need for removal notwithstanding Waheedah's resistance, and that
removal was necessary due to "imminent danger to [the] child." Id. at 2.
3.

The June 6 Incident
a.

Entry into the Apartment

On June 6, 2012, at approximately 6:30 p.m., Officers Stephan Kroski and Jonathan
Rodriguez received a radio transmission advising that ACS workers needed assistance executing
4

A0031

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 5 of 28

a removal order at the Shaheed apartment. Pl. Counter 56.1

1 14.

The officers responded to the

building and met with several ACS workers outside. Id. 115. The ACS workers informed the
officers that they had an order permitting them to remove children from an apartment in the
building. Id.

ii 16.

They showed Kroski a document that he reviewed and understood to be a

removal order. Id.
The officers and ACS workers entered the building. Kroski knocked on the apartment
door. Id.

1 18.

1~ 17, 19.

At this time, only Waheedah, Daghrib, and Noah were in the apartment. Id.

Noah opened the door. Kroski informed him that he had a court order authorizing removal

of a child from the apartment. Id. 1120-21.
The parties dispute what happened next. See id. 122. Kroski testified that Noah
demanded to see a warrant, pushed Kroski in the chest, and refused to let him enter the
apartment. See Arko Deel. Ex. E ("Kroski Deel.") 1 11. Noah, however, testified that Kroski
stuck his foot inside the door and, as Noah tried to "hold [his] ground," grabbed Noah by the
wrist and started forcing his way into the apartment. See Arko Deel. Ex. J ("Noah Dep,") at 5455, 59.
Eventually, Kroski and Rodriguez managed to enter the apartment. Pl. Counter 56.1

22. Once inside, the officers tussled with Noah as they attempted (ultimately successfully) to
place him in handcuffs. Id. ~[ 23; see also Noah Dep. at 65-67, Rodriguez and Noah wound up
falling to the floor together. See Arko Deel. Ex. F ("Rodriguez Deel.") 113.
Meanwhile, Waheedah came out of her room to investigate. Pl. Counter 56.1

24.

Seeing the police, she demanded that Kroski tell her what the officers were doing in her home,

Id.

ii 25.

After demanding to see a warrant, Waheedah ordered the officers to leave her home.

Id.

5

A0032

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 6 of 28

What followed is also in dispute. All agree that a physical fight broke out involving at
least Kroski and Waheedah. Id. 26. In Kroski's telling, Waheedah yelled at him and punched
him in the mouth, leading Kroski to tackle her and attempt to place her in handcuffs. See Kroski
Deel.

,r,r 16-19.

In Waheedah's telling, Kroski initiated the confrontation by punching her in the

face. See Waheedah Dep. at 106, 118, Daghrib's testimony corroborates Waheedah's, stating
that Kroski, unprompted, punched Waheedah in the face and "slammed her to the floor." See
Arko Deel. Ex. H ("Daghrib Dep.") at 66. Kroski testified further that Daghrib jumped on his
back and wrapped her legs around his upper body. See Kroski Deel. ,r 22. Daghrib, however,
testified that she never attacked Kroski and instead was "grabbed and placed into the kitchen" by
an unknown officer. Id. at 69, 74. All agree that, at some point, Waheedah "grabbed" Kroski's
testicles and squeezed them "as hard as she possibly could." Pl. Counter 56.1

,r 27.

Following this scrum, Daghrib was placed in handcuffs. Id.. Officer Paul Bliss, who had
arrived after receiving Rodriguez's radio call for assistance, then took hold ofDaghrib's arm. Id.

,r~ 28-29.

Daghrib testified that Bliss "grabb[ed] her left arm so hard that [she felt] a lot [of]

pain." Daghrib Dep. at 75. Daghrib testified further that after she informed Bliss that he was
hurting her, he "tightened his grip," Id.
Waheedah, Daghrib, and Noah were all removed from the building and transported to the
25th Precinct. Pl. Counter 56.1

29. Daghrib was then taken to the emergency room, where she

complained of a cut and pain to her left arm, and received x-rays and a pain reliever, before she
was taken back to the 25th Precinct. Id
arraigned, and released. Id.

32. She was then taken to Manhattan Central booking,

33. Waheedah, meanwhile, was taken to Mount Sinai Hospital,

where she was admitted and issued a desk appearance ticket. Id.

6

34.

A0033

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 7 of 28

The New York County District Attorney's Office charged Waheedah and Daghrib with
assault in the second degree, resisting arrest, and obstructing governmental administration. Id.
, 36. On September 18, 2013, these charges were dismissed and sealed. See Arko Deel. Exs.
Q,R.
4.

Continued Investigation and the June 29-30 Incident

On June 13, 2012, Aste learned that 1.0. and A.A had gone to live with their father in
Yonkers, New York. Pl. Counter 56.l, 37. The next day, ACS obtained a court order
permitting this living arrangement after it was determined that the father's home did not pose a
danger to the children, Id. 138.
On June 25, 2012, however, Aste learned from the father that 1.0. and A.A. had returned
to Waheedah's home. Id., 39. That same day, Aste went to Waheedah's apartment and, after
Waheedah refused to allow her in, spoke to Waheedah through the door. Id.

40.

On June 26, 2012, Judge Richardson signed a second order permitting ACS to remove
LO. and A.A. from Waheedah's home. Id.

ir 41.

That afternoon, Aste brought the order to the

25th Precinct, where police informed her that the order was insufficient on its face to permit
forced entry should Waheedah refuse to allow entry. Id.

42. Accompanied by police, Aste

then returned to the Shaheed apartment, where, after Waheedah refused to allow her in, she once
again spoke to Waheedah through the door. Id. ,~ 43-44.
On June 27, 2012, according to Aste's testimony, Aste returned to the apartment and
slipped under the door a "Notice of Existence" of the ACS investigation, an "Order of
Protection" against Waheedah in favor ofl.O. and A.A., the June 6 and June 26 court orders, and
the neglect petitions filed on behalf of LO. and A.A. Aste Deel.~ 24.
On June 29, 2012, ACS obtained a third order from Judge Richardson. Pl. Counter 56.1
, 45. This order found "probable cause to believe lhat an abused or neglected child may be"

7

A0034

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 8 of 28

present at the Shaheed apartment. Arko Deel. Ex, N (the "June 29 order"). Accordingly, the
order authorized agents, accompanied by police, "to enter the above premises using forcible
entry to determine if the children, .. are present and proceed thereafter with a child protective
investigation pursuant to§ 1034(2)(c) of the New York Family Court Act, and ... take whatever
appropriate actions pursuant to§ 690.50(1) of the New York Criminal Procedure Law." Id.
Accordingly, on the evening of June 29, 2012, several ACS workers traveled to the 25th
Precinct to request assistance with executing the June 29 order. Pl. Counter 56.1

ir 47.

The

police agreed to assist. Several officers accompanied ACS workers to the Shaheed apartment.

Id.

,r 48.

Of the officers who assisted in executing the June 29 order, only Officer Lydia

Figueroa is a defendant here.
On the night of June 29, 2012, Waheedah, Daghrib, Noah, and 1.0. were in the
apartment. Id.

,r 49.

An officer knocked and asked the occupants to open the door. Id.

Waheedah instructed Noah not to open the door. id.

,r 52.

,r 51.

Waheedah and Daghrib heard the

police say through the door that they had a warrant, but they refused to open the door. Id.

,r,r 53-

54. Instead, according to their testimony, plaintiffs asked the police to slide the warrant under
the door, which the officers never did, See Waheedah Dep. at 175; Daghrib Dep. at 112. In
contrast, Figueroa testified that the officers "slid[] a document that [Figueroa] understood to be
the court order under the door, but the document was pushed back out into the hallway."
Figueroa Deel.

,r 13.

At an impasse, the police requested backup. Pl. Cow1ter 56.1

,r 55.

An extensive, hours-

long negotiation ensued, during which multiple officers and an imam tried unsuccessfully to
convince Waheedah and her family to open the door. Id.
these negotiations. Id.

,r 55.

Figueroa was not involved in

il 56.
8

A0035

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 9 of 28

After several hours, the police forced the door open and entered the apartment. Id. ,i 57.
Waheedah, Daghrib, Noah, and LO. were all in Waheedah's bedroom when the police entered.

See Wahecdah Dep. at 189; Daghrib Dep. at 122. According to Daghrib, six or seven officers
entered the apartment with guns drawn, aimed toward the inhabitants, and ordered the family to
get down on the floor. See Daghrib Dep. at 123. Although Waheedah suggested in her
testimony that Daghrib might have "tripped or slipped, or was pushed to the floor," see
Waheedah Dep. at 191, Daghrib testified that she complied with the order, see Daghrib Dep. at
123. Daghrib also testified that the officers pulled Waheedah off the bed by her ankle, see
Daghrib Dep. at 124, but Waheedah testified that it was 1.0. who was pulled off the bed by her
leg, see Waheedah Dep. at 191.
Ultimately, all agree that both Waheedah and Daghrib were handcuffed and removed
from the building. PL Counter 56.1 ,i 59, Although Figueroa was in the apartment building
throughout the evening and was later assigned to process Waheedah's arrest paperwork, see
Arko Deel. Ex. G ("Figueroa Deel.") ,i,i 6, 11, 25, she never entered the Shaheeds' apartment or
observed what transpired inside, never made physical contact with plaintiffs, never pointed her
gun at anyone, and did not assist in handcuffing plaintiffs, Pl. Counter 56.1

1 60.

Plaintiffs were taken directly from the apartment building to Harlem Hospital in an
ambulance. PL Counter 56. l ,i 62. At the hospital, Daghrib complained of minor back pain and
was given a pain reliever without having x-rays taken. Id.

ir 63.

Waheedah reported a headache

brought on by stress and lack of food, as well as unexplained soreness in her back. Id.

il 64.

Daghrib was released from the hospital without being arrested. Id. ,i 65, Waheedah was
taken to the 25th Precinct and from there to Central Booking in Manhattan. Id. ,i 66, Thereafter,
she was taken to Bellevue Hospital for her back pain, where she received pain medication and an

9

A0036

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 10 of 28

x-ray. Id.

67. After she was released from Bellevue, Waheedah was returned to Central

Booking, where she was arraigned and released. Id.~ 68. On June 30, 2012, the New York
County District Attorney's Office charged Waheedah with obstructing governmental
administration. Id.~ 69; Arko Deel. Ex. 0. On April 2, 2014, the charge was dismissed and
sealed. Pl. Counter 56. l
B.

70.

Procedural History

On September 12, 2014, Daghrib filed her initial complaint in this action, bringing claims
against the City of New York, Kroski, Bliss, Rodriguez, Figueroa, and several "Doe" officers.
Dkt. 1. On March 4, 2015, defendants filed an answer. Dkt. 15. On May 4, 2015, Waheedah
filed her initial complaint, bringing claims against the same defendants. No. 15 Civ. 3480, Dkt.
1. On August 11, 2015, defendants filed an answer. No. 15 Civ. 3480, Dkt. 11.
On December 28, 2016, this Court consolidated the two cases and set a deadline for the
filing of an amended complaint. See Dkt. 57.
On January 20, 2017, Daghrib filed her version of the amended complaint. Dkt. 65
("Daghrib Am. Comp!."). The same day, Waheedah filed her version of the amended complaint,
No. 15 Civ. 3480, Dkt. 56. ("Waheedah Arn. Cornpl.")
On January 24, 2017, defendants filed a partial motion to dismiss. Dkt. 70. On July 17,
2017, this Court issued an Opinion and Order granting defendants' motion to dismiss all federal
claims against the City of New York, as well as all claims against the individual defendants
added in the amended complaints. See Dkt. 91.
On August 10, 2017, defendants filed a motion for summary judgment, Dkt. 97, a Rule
56. l statement, Dkt. 98, the Arko Declaration, Dkt. 99, and a memorandum oflaw, Dkt. 100
("Def, Mem."). On September 11, 2017, after some ECF filing mishaps, plaintiffs filed their
Rule 56.1 counter statement, Dkt. 108, a memorandum of law in opposition, Dkt. 109 ("PL
10

A0037

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 11 of 28

Opp."), and the LaBrew Declaration, Dkt. 110. On September 20, 2017, defendants filed their
reply memorandum of law. Dkt. 112 ("Def. Reply").

II.

Legal Standards Governing Motions for Summary Judgment
To prevail on a motion for summary judgment, the movant must "show[] that there is no

genuine dispute as to any material fact and the movant is entitled to judgment as a matter of
law." Fed. R. Civ. P. 56(a). The movant bears the burden of demonstrating the absence of a
question of material fact. In making this determination, the Court must view all facts "in the
light most favorable" to the non-moving party. Holcomb v. Iona Coll., 521 F.3d 130, 132 (2d
Cir. 2008); see also Celotex Corp. v. Catrett, 477 U.S. 317,323 (1986).

If the movant meets its burden, "the nonmoving party must come forward with
admissible evidence sufficient to raise a genuine issue of fact for trial in order to avoid summary
judgment." Jaramillo v. Weyerhaeuser Co., 536 F.3d 140, 145 (2d Cir. 2008). "[A] party may
not rely on mere speculation or conjecture as to the true nature of the facts to overcome a motion
for summary judgment." Hicks v. Baines, 593 F.3d 159, 166 (2d Cir. 2010) (internal quotation
marks and citation omitted). Rather, the opposing party must establish a genuine issue of fact by
"citing to particular parts of materials in the record." Fed. R. Civ. P. 56(c)(1)(A); see also

Wright v. Goard, 554 F.3d 255,266 (2d Cir. 2009).
"Only disputes over facts that might affect the outcome of the suit under the governing
law" will preclude a grant of summary judgment. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). Jn determining whether there are genuine issues of material fact, the Court is
"required to resolve all ambiguities and draw all permissible factual inferences in favor of the
party against whom summary judgment is sought." Johnson v. Killian, 680 F.3d 234,236 (2d

11

A0038

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 12 of 28

Cir. 2012) (quoting Terry v. Ashcroft, 336 F.3d 128, 137 (2d Cir. 2003)) (internal quotation
marks omitted).

III.

Discussion
Defendants seek dismissal of ( 1) all claims arising out of the June 29-30 incident; (2)

both plaintiffs' claims for deprivation of substantive due process and intentional infliction of
emotional distress arising out of the June 6 incident; and (3) Daghrib's claims for excessive
force, assault, and battery arising out of the June 6 incident. The Court will address each in
turn. 2

A.

Claims Arising Out of the June 29-30 Incident

Defendants seek summary judgment on behalf of Figueroa and the City3 on all of
plaintiffs' claims arising out of the June 29-30 incident: (1) false arrest and false imprisonment
under federal and state law; (2) malicious prosecution under federal and state law; (3) excessive
force under federal law and assault and battery under state law; (4) deprivation of substantive
due process under federal law; and (5) intentional infliction of emotional distress under state
law. 4
2

The Court notes at the outset that plaintiffs' eight-page opposition brief is, on most issues,
profoundly underdeveloped. Nevertheless, "Rule 56 does not allow district courts to
automatically grant summary judgment on a claim simply because the summary judgment
motion, or relevant part, is unopposed." .Jackson v. Fed. Express, 766 f<.3d 189, 194-95 (2d Cir.
2014). Accordingly, in evaluating defendants' motion, the Court has canvassed the record and
attempted to bring plaintifTs' strongest possible arguments to bear.
3

Figueroa is the only individual defendant alleged to be personally involved in the June 29-30
incident, while the City remains amenable to suit on plaintiffs' state law claims notwithstanding
this Court's prior opinion regarding Monell liability. See L.B. v. Town ofChester, 232 f. Supp.
2d 227, 239 (S.D.N.Y. 2002) ("Unlike cases brought under§ 1983, municipalities may be liable
[under New York lawl for the common law torts, like false arrest and malicious prosecution,
committed by their employees under the doctrine of respondeat superior.").
4

Each plaintiff brings all of these claims except false arrest and malicious prosecution, which
only Waheedah claims.
12

A0039

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 13 of 28

1.

False Arrest and False Imprisonment
a.

Governing Law

"A§ 1983 claim for false arrest, resting on the Fourth Amendment right of an individual
to be free from unreasonable seizures, including arrest without probable cause, is substantially
the same as a claim for false arrest under New York law." Weyant v. Okst, 101 F.3d 845, 852
(2d Cir. 1996), cert. denied, 528 U.S. 946 (l 999) (internal citations omitted); accord Jenkins v.

City ofNew York, 478 F,3d 76, 84 (2d Cir. 2007). And "[t]he common law tort of false arrest is
a species of false imprisonment," such that the two share the same elements under New York
Jaw. See Singer v. Fulton Cty. Sherrif.f, 63 F.3d 110, 118 (2d Cir. 1995).5 Accordingly, under
New York law, a plaintiff bringing a claim for false arrest or false imprisonment must show that

"(l) the defendant intended to confine [the plaintiff], (2) the plaintiff was conscious of the
confinement, (3) the plaintiff did not consent to the confinement and (4) the confinement was not
otherwise privileged." Id. at 118 (quoting Broughton v. State ofNew York, 37 N.Y.2d 451,456
(1975)).
The dispute here centers on whether plaintiffs' confinement was privileged, A
confinement is privileged where the arresting officer has probable cause to arrest. See Jocks v.

Tavernier, 316 F .3d 128, 13 5 (2d Cir. 2003); Jenkins, 478 F.Jd at 84 ("The existence of probable
cause to anest constitutes justification and is a complete defense to an action for false arrest,
whether that action is brought under state law or under § 1983." (internal quotation marks and
citation omitted)). Probable cause exists "when the arresting officer has knowledge or
reasonably trustworthy information sufficient to warrant a person of reasonable caution in the

5

Waheedah brings false arrest and false imprisonment claims arising from the June 29-30
incident, whereas Daghrib alleges only false imprisonment.
13

A0040

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 14 of 28

belief that an offense has been committed by the person to be arrested." Singer, 63 F.3d at 119
(internal quotation marks omitted). "When determining whether probable cause exists cowts
must consider those facts available to the officer at the time of the arrest and immediately before
it." Panetta v. Crowley, 460 F.3d 388, 395 (2d Cir. 2006) (internal quotation marks and citation

omitted).
"[P]robable cause does not require an awareness of a particular crime, but only that some
crime may have been committed." Ackerson v. City of White Plains, 702 F.3d 15, 20 (2d Cir.
2012) (internal quotation marks and citation omitted); see also Zellner v. Summerlin, 494 F.3d
344, 369 (2d Cir. 2007) ("[A]n arrest is not unlawful so long as the officer ha[d] ... probable
cause to believe that the person arrested ... committed any crime."). Where an arrest is
supported by probable cause, a person may be arrested for any offense committed in an officer's
presence, no matter how minor, so long as that offense is a crime. See Atwater v. City ofLago
Vista, 532 U.S. 318, 354 (2001) ("If an officer has probable cause to believe that an individual

has committed even a very minor criminal offense in his presence, he may, without violating the
Fourth Amendment, arrest the offender,"),
Meanwhile, even absent probable cause to arrest the plaintiff, an officer will be entitled to
qualified immunity if "arguable probable cause" existed-i. e., if "a reasonable police officer in
the same circumstances and possessing the same knowledge as the officer in question could have
reasonably believed that probable cause existed in the light of well established law." Cerrone v.
Brown, 246 F.3d 194, 202-03 (2d Cir. 2001) (internal quotation marks and citation omitted),

The doctrine of qualified immunity provides a complete defense where "either (a) it was
objectively reasonable for the officer to believe that probable cause existed, or (b) officers of
reasonable competence could disagree on whether the probable cause test was met." Golino v.

14

A0041

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 15 of 28

City ofNew Haven, 950 F.2d 864, 870 (2d Cir. 1991). The purpose of the doctrine is to "give[]

government officials breathing room to make reasonable but mistaken judgments" and to protect
"all but the plainly incompetent or those who knowingly violate the law." City & Cry. ofSan

Francisco v. Sheehan, 135 S. Ct. 1765, 1774 (2015) (internal quotation marks omitted) (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 743 (2011 )).
On summary judgment, the existence of probable cause or arguable probable cause may
be determined as a matter of law where "there is no dispute as to the pertinent events and the
knowledge of the officers." Weyant, 101 F.3d at 852; see also McKelvie v. Cooper, 190 F.3d 58,
63 (2d Cir. 1999).

b.

Discussion

Plaintiffs allege that they were subjected to false arrest or imprisonment on June 29-30
because they were confined without probable cause. See Waheedah Am. Compl. ,r,r 101-16,
167-71; Daghrib Am. Compl.

,r,r 97-105, 151-55.

The officers lacked probable cause, plaintiffs

argue, because refusing to open the door to their apartment on June 29-30 amounted to "[m]cre
speech,'' and therefore could not form the basis of probable cause for obstructing governmental
administration. See Pl. Opp. at 5-7 (citing Matter ofDavan L., 91 N.Y.2d 88, 91 (1997)). For
the following reasons, the Court holds that the officers had at least arguable probable cause to
arrest plaintiffs, and that the false arrest and false imprisonment claims against Figueroa and the
City therefore must be dismissed. 6

6

Although Figueroa did not enter the apartment or physically effect either plaintiffs arrest, she
did fill out Waheedah's arrest paperwork based on her observations outside the apartment and
information provided by other officers. See Figueroa Deel. ,r,r 25-26. Accordingly, defendants
concede Figueroa's personal involvement. They argue only that the arrest was supported by
probable cause. Def. Mem. at 10-16, 18-20.
15

A0042

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 16 of 28

"A person is guilty of obstructing governmental administration when he intentionally
obstructs, impairs or perverts the administration of law or other governmental function or
prevents or attempts to prevent a public servant from performing an official function, by means
of intimidation, physical force, or interference." N.Y. Penal Law§ 195.05. Accordingly, the
elements of the crime are: (1) intent; (2) preventing or attempting to prevent the performance of
an official function; by (3) intimidation, physical force, or interference. See People v. Stumpp,
493 N.Y.S.2d 679,680 (Dist. Ct. 1985), aff'd, 505 N.Y.S.2d 758 (App. Term 1986).

It is undisputed that executing a Family Court order constitutes perfonnance of an official
function. The stated purpose of the Family Court Act is to provide a process under which "the
state, through its family court, may intervene against the wishes of a parent on behalf of a child."
N.Y. Fam. Ct. Act.§ I 011. Accordingly, an officer executing a Family Court order acts with the

authority of the state on behalf of a child and thereby performs an official function.
Moreover, plaintiffs reasonably could have been understood by an arresting officer to
have obstructed the officers' entry through interference. The officers were in possession of a
lawful order authorizing entry, see June 26 order;7 the officers announced their intention to
execute that order, see Pl. Counter 56.1 153; and plaintiffs nevertheless refused to open the door,
see Pl. Counter 56.1 1 54. This is sufficient to generate probable cause to arrest for obstruction

of governmental administration. See Esmont v. City of New York, 3 71 F. Supp. 2d 202, 210
(E.D.N.Y. 2005) ("Probable cause to arrest for a violation of§ 195.05 may be predicated on,
amongst other things, ohstructi ng a lawful search."); cf Quon v. Henry, No. 14-cv-9909 (RJS),
2017 WL 1406279, at *7 (S.D.N.Y. Mar. 27, 2016) (probable cause where plaintiff refused to

7 "A

Family Court order is equivalent to a search warrant for Fourth Amendment purposes."
Southerland v. City of New York, 680 F.3d 127, 144 (2d Cir. 2012).
16

A0043

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 17 of 28

open door for firefighters who identified themselves and explained that they needed to enter to
remedy a fire hazard). That is so, notwithstanding plaintiffs' "mere speech" argument derived
from Davan L., because a refusal to act may itself constitute interference under New York law,
regardless of any associated speech. See, e.g., Lennon v. Miller, 66 FJd 416, 424 (2d Cir. 1995)
("When [plaintiff] refused to leave the car, it was reasonable for [officers] to construe her actions
as 'interference' and to arrest her for [obstruction of governmental administration].").
Plaintiffs marshal in their defense one New York trial court opinion stating, "although not
an issue before the court, it is observed that it is no crime to refuse to open a door to police
officers." Pl. Opp. at 6 (quoting People v. Offen, 408 N.Y.S.2d 914,916 (Crim. Ct. 1978)). In

Offen, however, the police had not secured a warrant. See Offen, 408 N.Y.S.2d at 916 (adding
that officers might respond to a suspect's refusal to open a door by "obtain[ing] a warrant").
Where, as here, the officers have obtained an entry order akin to a warrant and supported by
probable cause, 8 and where the officers have ann.0W1ced their intention to execute that order,
refusal to open the door may constitute interference and therefore may generate probable cause
to arrest.
The foregoing is sufficient to put to rest plaintiffs' arguments as briefed. Yet the Court
has identified one remaining impediment to defendants' motion: Both Daghrib and Waheedah
testified that the officers refused to slide the June 29 order under the apartment door for their
inspection. See Daghrib Dep. at 112; Waheedah Dep. at 175. Defendants, for their part, claim
that they did slide the order under the door, only to have it pushed back out. See Figueroa Deel.
at 2. But because the Court must view the facts in the light most favorable to plaintiffs in

8

See N. Y. Fam, Ct. Act § 1034(c) ("[T]he procedure for granting an order pursuant to this

subdivision shall be the same as for a search warrant under ... the criminal procedure law.").
17

A0044

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 18 of 28

resolving defendants' motion, the Court must assume that defendants refused to furnish the June
29 order for inspection. This, in turn, raises two possible arguments for plaintiffs.
First, plaintiffs might argue that the officers' failure to permit visual inspection of the
warrant prior to execution was unreasonable under the Fourth Amendment, in which case
plaintiffs could not have been arrested for obstructing a lawful search, as required by § 195.05.
This argument, however, finds no support in the case law. The Second Circuit has held that a
violation of Federal Rule of Criminal Procedure 41(-f)(l)(C), which requires an executing officer
to provide a copy of a warrant after seizing property, is not per se an unconstitutional act. See

United States v. Burke, 517 F.2d 377, 386-87 (2d Cir. 2015). This holding, involving an express
requirement of the Federal Rules of Criminal Procedure, strongly suggests that a failure to
provide a warrant before entry-which is not required by any Federal Rule-likewise is not per

se unconstitutional. Nevertheless, the Court has not found any opinion so holding, and the
Supreme Court has expressly reserved judgment on the question, see Groh v. Ramirez, 540 U.S.
551,562 n.5 (2004) ("Whether it would be unreasonable lo refuse a request to furnish the
warrant at the outset of the search when, as in this case, an occupant of the premises is present
and poses no threat to the officers' safe and effective performance of their mission, is a question
that this case does not present."). This uncertain case law scuttles plaintiffs' claims, as the
doctrine of qualified immunity ensures that "[g]overnment actors performing discretionary
functions are 'shielded from liability for civil damages insofar as their conduct does not violate
clearly established statutory or constitutional rights of which a reasonable person would have
known."' Lennon, 66 F.3d at 420 (quoting Harlow v. Fitzgerald, 457 U.S. 800,818 (l982)).
Second, and relatedly, plaintiffs might argue that because they never saw the warrant,
they could not have formed the intent to obstrnct a lawful search-i.e., that they subjectively

18

A0045

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 19 of 28

believed they were obstructing only an illegal search. But the intent requirement under§ 195.05
concerns only the suspect's "intent to prevent the public servant from engaging in a specific
official function," Dowling v. City of New York, No. 11-CV-4954 (NGG) (RML), 2013 WL
5502867, at *4 (E.D.N.Y. Sept. 30, 2013) (quotation marks omitted), not the plaintiffs'
subjective estimation of the lawfulness of the official function. There is no question here that
plaintiffs intended to prevent the officers from engaging in the specific official function (entering
the apartment) with which they were tasked. See, e.g., Waheedah Dep. at 179. Furthermore, in
any event, probable cause to arrest does not require certainty as to intent on the part of an
arresting officer; rather, the officer need only have "knowledge ... sufficient to warrant a person
ofreasonable caution in the belief that an offense has been committed by the person to be
arrested." Singer, 63 F.3d at 119 (internal quotation marks omitted). Here, even if the officers
refused to furnish the order for plaintiffs' inspection, in the context of a weeks-long ACS
investigation involving repeated contact with the same individuals, the officers' clear
announcement that they had an entry order, and plaintiffs' unambiguous intent to keep the
officers out of their apartment, an officer of reasonable caution easily could have concluded that
plaintiffs intended to obstruct a lawful search, and therefore reasonably could have determined
that probable cause existed. At minimum, qualified immunity protects such a determination.
See Cerrone, 246 F.3d at 202-03.
Accordingly, on any theory of false arrest or false imprisonment, the officers are entitled
to qualified immunity. And because plaintiffs have not made out a claim against any of the
officers individually, plaintiffs' claims against the City fail in turn. See Wende C. v. United
Methodist Church, 776 N.Y.S.2d 390, 395 (4th Dep't 2004) ("In the absence of any wrongful or
actionable underlying conduct ... there can be no imposition of vicarious liability ... pursuant

19

A0046

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 20 of 28

to the doctrine of respondeat superior."); accord Trivedi v. Golub, 847 N.Y.S.2d 211, 212 (2d
Dep't 2007).9

2.

Malicious Prosecution

Just as "probable cause is a complete defense to a constitutional claim of false arrest and
false imprisonment, ... continuing probable cause is a complete defense to a constitutional claim
of malicious prosecution." Betts v. Shearman, 751 F.3d 78, 82 (2d Cir. 2014) (citation omitted).
The same is true under New York law. See Russell v. Smith, 68 F.3d 33, 36 (2d Cir. 1995).
Thus, "when a court finds there was probable cause for an arrest, and in the absence of some
indication that the authorities became aware of exculpatory evidence between the time of the
arrest and the subsequent prosecution that would undermine the probable cause which supported
the arrest, no claim for malicious prosecution may lie." Johnson v. City of Mount Vernon, No.
10 CV 7006 (VB), 2012 WL 4466618, at *5 (S.D.N,Y. Sept. 18, 2012); see also Rizzo v. Edison,
Inc., 172 F. App'x 391, 393-94 (2d Cir. 2006) ("As no exculpatory evidence became known

after Plaintiffs arrest, there was also probable cause to prosecute her."). These principles apply
with equal force in the qualified immunity context. See, e.g., Betts, 751 F.3d at 82-83 (qualified
immunity on false arrest yielded qualified immunity on malicious prosecution); Pinter v. City of

New York, 448 F. App'x 99, 105 n.6 (2d Cir. 2011) ("[O]ur finding that the officers had arguable

9

It is true that as to federal claims brought under§ 1983, qualified immunity "has no bearing on
the liability of municipalities." Askins v. Doe No. I, 727 F.3d 248,254 (2d Cir. 2013). That is
so because under federal law, municipalities are held liable "if they adopt customs or policies
that violate federal law and result in tortious violation of a plaintiffs rights, regardless of
whether it was clear at the time of the adoption of the policy or at the time of the tortious conduct
that such conduct would violate the plaintiff's rights." Id. Here, in contrast, the Court has
already dismissed any claims sounding in municipal policy, see Dkt. 91 atl4-18, and plaintiffs
have not offered any authority suggesting, contra Wende C., 776 N.Y.S.2d at 395, that the City
may be held liable for conduct as to which no particular officer may be held liable.
20

A0047

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 21 of 28

probable cause to arrest Pinter necessarily entitles the defendants to qualified immunity on his
malicious prosecution claim as well.").
Here, as explained above, there was at least arguable probable cause to an-est Waheedah.
And Waheedah does not allege that any exculpatory facts came to light between her arrest and
prosecution. See Waheedah Am. Compl.

,r,i 148-52, 186-90 (alleging only that her prosecution

arose from an arrest without probable cause). Accordingly, her claims for malicious prosecution
must be dismissed.
3.

Excessive Force, Assault, and Battery
a.

Governing Law

"[E]xcept for§ 1983's requirement that the tort be committed under color of state law,
the essential elements of [excessive force and state law assault and battery claims are]
substantially identical." Posr v. Doherty, 944 F .2d 91, 94-95 (2d Cir. 1991 ). In either case,
"[p]olice officers' application of force is excessive ... if it is objectively unreasonable 'in light
of the facts and circumstances confronting them, without regard to their underlying intent or
motivation."' Maxwell v. City of New York, 3 80 F .3d 106, 108 (2d Cir. 2004) (quoting Graham,
490 U.S. at 397; see also Nirnely v. City of New York, 414 P.3d 381, 391 (2d Cir. 2005) (plaintiff
alleging battery by police officer under New York state law must prove that the ofiicer's conduct
"was not reasonable within the meaning of the New York statute concerning justification of law
enforcement's use of force in the course of their duties"). This analysis looks to a number of
factors, "including 'the need for the application of force, the relationship between the need and
the amount of force that was used, the extent of injury inflicted, and whether force was applied in
a good faith effort to maintain or restore discipline or maliciously and sadistically for the very
purpose of causing harm."' Figueroa v. Mazza, 825 F.3d 89, 105 (2d Cir. 2016) (quoting

21

A0048

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 22 of 28

Johnson v. Newburgh Enlarged Sch. Dist., 239 F.3d 246, 251-52 (2d Cir. 2001)). The

evaluation of a police officer's use of force must be from the understanding of a reasonable
police officer at the incident, and not from hindsight. Graham, 490 U.S. at 396.
"[I]t is ... well established that '[n]ot every push or shove, even if it may later seem
unnecessary in the peace of a judge's chambers, violates a [plaintiff's] constitutional rights."'
Mesa v. City ofNew York, No. 09 Civ. 10464 (JPO), 2013 WL 31002, at *18 (S.D.N.Y. Jan. 3,

2013) (second alteration in original) (quoting Johnson v. Glick, 481 F.2d 1028, 1033 (2d Cir.
1973)). After all, "[t]he right to effectuate an arrest does include 'the right to use some degree of
physical coercion."' Id. (quoting Esmont, 371 F. Supp. 2d at 214). To that end, "[r]easonable
arrests tend to involve handcuffing the suspect, and handcuffs lose their effectiveness if they are
not attached tightly enough to prevent the arrestee's hands from slipping out." Id. (quotation
marks omitted). Further, when a plaintiff suffers only a de minimi.,; injury, it is harder for the
plaintiff to establish that the force used was excessive. See Yang Feng Zhao v. City ofNew York,
656 F. Supp. 2d 375,390 (S.D.N.Y. 2009). Nevertheless, medical treatment is not a required
element of an excessive force claim. Robison v. Via, 821 F.2d 913, 924 (2d Cir. 1987).
Meanwhile, "(e]ven if defendants' actions were unreasonable under current law, qualified
immunity protects officers from the sometimes hazy border between excessive and acceptable
force." Kerman v. City ofNew York, 261 F.3d 229,239 (2d Cir. 2001) (alteration and quotation
marks omitted). "If the officer's mistake as to what the law requires is reasonable the officer is
entitled to the immunity defense." Id. (alteration and quotation marks omitted).
In all events, "[g]iven the fact-specific nature of the inquiry, granting summary judgment
against a plaintiff on an excessive force claim is not appropriate unless no reasonable factfinder

22

A0049

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 23 of 28

could conclude that the officers' conduct was objectively unre0sonable." Amnesty Am. v. Town

ofW Hartford, 361 F.3d 113, 123 (2d Cir. 2004).
b.

Discussion

At the outset, plaintiffs' claims of excessive force, assault, and battery arising from the
June 29-30 incident fail as against Figueroa for a simple reason: Figueroa, the only individual
defendant present at the apartment that evening, never "entered plaintiffs' apartment, never made
physical contact with plaintiffs inside of 26 E. 129th Street, did not point her gun at anyone, did
not assist in handcuffing plaintiffs, and did not observe what transpired inside of plaintiffs'
apartment." Def. 56.l 160. Plaintiffs do not dispute these facts; instead, they claim only that
Figueroa "arrested" Waheedah, citing Waheedah's arrest form signed by Figueroa. See PI.
Counter 56.1160. As there is no allegation that Figueroa applied (or threatened to apply) any
force at all, she cannot be held liable for excessive force, assault, or battery.
Meanwhile, as against the City, plaintiffs' claims fail for two independent reasons. First,
plaintiffs have abandoned any claim for excessive force arising from the June 29-30 incident.

See Pl. Opp. at 7 (addressing only Daghrib's June 6 excessive force claim). Accordingly, the
June 29-30 excessive force claims are properly dismissed. See Jackson, 766 F.3d at 196
("Generally, but perhaps not always, a partial response reflects a decision by a party's attorney to
pursue some claims or defenses and to abandon others.").
Second, in any event, the only arguable application of force alleged in the complaints is
the officers' "point ling] their rifles at everyone inside the residence" at the conclusion of an
hours-long negotiation. Waheedah Arn. Comp!. 169; see also Daghrib Am. Comp!. ir 71.
Without more, such allegations are inadequate. Where, as here, the suspects have not been
restrained and the police have not uttered any threats, "[i]t is not objectively unreasonable for

23

A0050

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 24 of 28

police officers to merely point a gun when executing a search warrant at a private residence."
Askins v. City a/New York, No. 09 Civ. 10315 (NRB), 2011 WL 1334838, at •3 (S.D.N.Y. Mar.

25, 2011); see also Dunkelberger v. DunkelberKer, No. 14-CV-3877 (KMK), 2015 WL 5730605,
at • 15 (S.D.N. Y. Sept. 30, 2015) (citing the "vast majority of cases within the Second Circuit
hold[ing] that merely drawing weapons when effectuating an arrest does not constitute excessive
force as a matter of law"). Accordingly, the claims for excessive force, assault, and battery must
be dismissed. 10
4.

Substantive Due Process

The amended complaints allege that the officers' conduct in arresting plaintiffs without
probable cause and beating them in the process so "shock[ed] the conscience" as to create a
violation of plaintiffs' right to substantive due process. See Waheedah Am. Comp I. 1 123
("Plaintiff states that [defendants] denied the Plaintiff substantive due process, and that the
intentional conduct of [defendants] 'shocks the conscience' in relation to the Plaintiff's arrest.");
id

124 ("[Defendants] conducted a reckless investigation in that [they] seized/arrested the

Plaintiff without probable cause, or arguable probable cause, to believe that the Plaintiff had
committed a crime"); id.

126 ("Plaintiff states that she was beaten seized/arrested for not

consenting to open her door when [defendants] demanded entry to Plaintiff's residence.");
Daghrib Am. Compl. ~1112-15 (same).

In each of their depositions, Waheedah and Daghrib suggested that the other was subjected to
some modicum of force not referenced in the pleadings. See Waheedah Dep. at 191 ("I don't
know if [Daghrib] tripped or slipped, or was pushed to the floor."); Daghrib Dep. at 124 ("One
[officer] grabbed [Waheedah] by the ankle and pulled her off of the bed."). Neither plaintiff
mentioned such force in her own deposition. See, e.g., Waheedah Dep. at 191 (testifying it was
LO. who was pulled off the bed by her leg). In the face of this conflicting testimony (not to
mention plaintiffs' abandonment of the claims), the Court will not allow plaintiffs to insulate
each other from summary judgment "simply by testifying ... to facts not al!eged in their
pleadings." Rojas v. Roman Catholic Diocese of Rochester, 660 F.3d 98, 106 (2d Cir. 2011).
10

24

A0051

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 25 of 28

These claims sound entirely in the Fourth Amendment's prohibition on unreasonable
seizures. And where "the Fourth Amendment provides a more 'explicit textual source of
constitutional protection,' ... the Fourth Amendment, rather than substantive due process,
should serve as 'the guide for analyzing these claims."' Russo v. City of Bridgeport, 4 79 F .3d

196, 209 (2d Cir. 2007) (quoting Graham v. Connor, 490 U.S. 386, 395 (1989)). Accordingly,
the claims for substantive due process must be dismissed. See, e.g., Ambrose v. City of New

York, 623 F. Supp. 2d 454,474 n.9 (S.D.N.Y. 2009) ("Plaintiffs allegations of false arrest and
malicious prosecution state a claim only under the Fourth Amendment, and not under the Due
Process Clause of the Fourteenth Amendment."). 11
5.

Intentional Infliction of Emotional Distress

"Under New York law, a claim for intentional infliction of emotional distress must satisfy
an 'exceedingly high legal standard."' DiRuzza v. Lanza, 685 F. App'x 34, 36 (2d Cir. 2017)
(quoting Chanko v. Am. Broad. Cos. Inc., 27 N.Y.3d 46, 57 (2016)). First, the tort "may be
invoked only as a last resort, to provide relief in those circumstances where traditional theories of
recovery do not." Salmon v. Blesser, 802 F,3d 249,256 (2d Cir. 2015) (citation and quotation
marks omitted). And second, a party alleging intentional infliction must plead and prove conduct
"so outrageous in character, and so extreme in degree, as to go beyond all possible bounds of

In their opposition brief: plaintiffs also argue that they were deprived of procedural due
process. See Pl. Opp. at 4 (arguing Waheedah was denied procedural due process because her
children were removed without her having "notice and an opportunity to be heard"); id. at 8
(arguing that removal of Waheedah's children constituted a substantive due process violation
because "[t]here was never an order to enter the home and remove the children"). These claims
fall well outside the scope of the pleadings, which do not raise any allegations concerning the
removal of children, let alone the procedural aspect of the Due Process Clause. Accordingly, the
Court takes no view on the merits of such claims. See Coram Healthcare Corp. v. Cigna, No. 00
Civ. 2677 (RMB), 2002 WL 32910044, at* 11 ("It is inappropriate to raise new claims for the
first time in submissions in opposition to summary judgment.").
11

25

A0052

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 26 of 28

decency, [so as] to be regarded as atrocious, and utterly intolerable in a civilized community."

Chanko, 27 N.Y.Jd at 56.
Plaintiffs' claims fail at each step. First, although plaintiffs do not specify what conduct
underlies the intentional infliction claims, the amended complaints are directed entirely at
defendants' physical violence and plaintiffs' arrests and prosecution. Such conduct clearly "falls
well within the ambit of other traditional tort liability" (e.g., claims for assault and battery, false
arrest, and malicious prosecution). Salmon, 802 F.3d at 256 (quoting Fischer v. Maloney, 43
N.Y.2d 553, 557-58 (1978)). Plaintiffs therefore have not alleged conduct that is irremediable
through traditional tort remedies.
In any event, the Court has already held that the officers acted at all times with at least
arguable probable cause. Plaintiffs therefore have failed to provide evidence of conduct "beyond
all possible bounds of decency .. , and utterly intolerahle in a civilized society." Chanko, 27

N. Y.3d at 56.
B.

Substantive Due Process and Intentional Infliction of Emotional Distres~
Arising Out of the June 6 Incident

Plaintiffs' state-law claims for deprivation of substantive due process and intentional
infliction of emotional distress arising out of the June 6 incident fail for much the same reasons.
Like their claims arising from the June 29-30 incident, plaintiffs' claims arising from the June 6
incident sound entirely in false arrest, malicious prosecution, and assault and battery. Their
specific claims for deprivation of substantive due process and intentional infliction are no
different. See Waheedah Am. Comp1. ,i,i 117-21, 172-75; Daghrib Am. CompI. ,i,i 106-10,
156-59. Because the due process claims sound in the Fourth Amendment, that amendment must
serve as "the guide for analyzing these claims." Graham, 490 U.S. at 395. And because each of
these claims is remediable through the traditional theories of recovery listed above, no claim for
26

A0053

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 27 of 28

intentional infliction of emotional distress will lie. See Salmon, 802 F .3d at 256. Accordingly,
plaintiffs' claims for deprivation of substantive due process and intentional infliction of
emotional distress arising from the June 6 incident are dismissed.
C.

Daghrib's Claims for Excessive Force, Assault, and Battery Arising Out of
the June 6 Incident

Daghrib's excessive force, assault, and battery claims arising from the June 6 incident,
anolyzed under the same framework set forth above with respect to the analogous June 29-30
claims, currently depend on disputed facts and competing inferences. Viewing the facts in the
light most favorable to Daghrib, a reasonable juror could conclude that Bliss's conduct was
objectively unreasonable. Accordingly, the Court denies defendants' bid for summary judgment.
Daghrib testified that she witnessed Kroski punch her mother in the face without
provocation. Daghrib Dep. at 70. In response, Daghrib testified, she did not attack Kroski, but
was handcuffed by Bliss. See id. at 74. While this handcuffing alone likely would not constitute
excessive force, see Mesa, 2013 WL 31002, at *18, Daghrib claims that Bliss grabbed her left
arm "so hard that [she] remember[ed] feeling a lot of pain," Daghrib Dep. at 75. She
immediately "let him know," after which Bliss "tightened his grip." Daghrib Dep. at 75.
Defendants do not dispute this framing. Instead, they offer-without any legal citationa two-sentence conclusion that such force is "de minimis and not objectively unreasonable."
Def. Mem. at 21. The Court is unpersuaded. While a reasonable jury may well conclude that
Bliss's use of force was rectsonable under the circumstances, Daghrib's testimony might also lead
a reasonable juror to conclude that the force used was greater than reasonably necessary.
Particularly salient, in the Court's judgment, is the allegation that Daghrib informed Bliss that
she was in pain, whereupon he tightened his grip. See, e.g., Lemmo v. City ofNew York, No. 08
Civ. 2641 (RJD), 2011 WL 4592785, at *8 (E.D.N.Y. Sept. 30, 2011) (denying officers summary
27

A0054

Case 1:14-cv-07424-PAE Document 115 Filed 03/02/18 Page 28 of 28

judgment on excessive force claim where they tightened "handcuffs ... to their maximum, for
apparently gratuitous reasons," and "kneed and stepped on" suspect's lower back). Viewed in
the light must favorable to plaintifi: this arguably gratuitous and/or malicious conduct could be
held unreasonable. Accordingly, Dagbrib's testimony precludes entry of judgment in
defendants' favor as to her June 6 excessive force, assault, and battery claims. 12
CONCLUSION

For the foregoing reasons, the Court grants defendants' motion for summary judgment
insofar as it seeks dismissal of plaintiffs' claims arising out of the June 29-30 incident. Further,
lhe Court dismisses plaintiffs' claims for deprivation of substantive due process and intentional
infliction of emotional distress arising from the June 6 incident. However, the Court denies
defendants' motion for summary judgment as to Daghrib's claims for excessive force, assault,
and battery arising out of the June 6 incident.
The Clerk of the Court is respectful Ly directed to close the motions pending at No. 14
Civ. 7424, Dkt. 97; and No. 15 Civ, 3480, Dkt. 87. An order will issue shortly as to next steps in
this matter.

P~ A. rcf\rfr

SO ORDERED.

Paul A. Engelrnayer
United States District Judge
Dated: March 2, 2018
New York, New York

Likewise, these claims survive as against the City, because a reasonable juror could conclude
not only that Bliss's application of force was unreasonable, but also that he acted within the
scope of bis employment. See Campos v. City ofNew York, 821 N.Y.S.2d 19, 23 (1st Dep't
2006).
12

28

A0055

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 1 of 6
USDC SDNY
DOCL.:MENT
[I.ECTRONICALLY FILED
UNITED STA TES DISTRICT COURT
DOC#: _ _ _ _ _ _ __
SOUTHERN DISTRICT OF NEW YORK
DATE FILED: _
_ _ __
7/18/201

--------------------------------------------------------------------·X

DAGHRIB SHAHEED,
Plaintiff,
-v-

THE CITY OF NEW YORK, NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI, NEW YORK
CITY POLICE OFFICER PAUL BLISS, NEW YORK
CITY POLICE OPFICER JONA THAN RODRIGUEZ,
and NEW YORK CITY POLICE OFFICER LYDIA
FIGUEROA,

14 Civ. 7424 (PAE);
15 Civ. 3480 (PAE)
OPINION & ORDER

Defendants.

W AHEEDAH SHAHEED,
Plaintiff,
-v-

THE CITY OF NEW YORK, NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI, NEW YORK
CITY POLICE OFFICER PAUL BLISS, NEW YORK
CITY POLICE OFFICER JONATHAN RODRIGUEZ,
and NEW YORK CITY POLICE OFFICER LYDIA
FIGUEROA,
Defendants.

----------------------------------------------------------------------X
PAUL A ENGELMAYER, District Judge:
This case involves claims that in June 2012, defendants twice entered plaintiffs'
apartment to execute removal orders and thereupon met with resistance from plaintiffs. On
March 2, 2018, this Court issued an Opinion and Order granting in part and denying in part

Appendix E

A0056

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 2 of 6

defendants' motion for partial summary judgment. See Dkt. 115. 1 This decision resulted in the
dismissal of all claims arising out of Lhe second episode (the "June 29-30 incident"), with several
claims arising out of the first episode (the "June 6 incident") remaining to be tried. See id. at 28.
Plaintiffs now ask the Court to enter partial final judgment under Federal Rule of Civil Procedure
54(b), or, in the alternative, to reconsider Lhe March 2 Opinion and Order. See Dkts. 13 0-31; see

also Dkt. I 34 (defendants' opposition). For the following reasons, the motion is denied.
I.

Partial Final Judgment
"In general, there is a historic federal policy against piecemeal appeals." Novick v. AXA

Network, LLC, 642 F.3d 304, 310 (2d Cir. 2011) (quoting Curtiss-Wright Corp. v. Gen. Elec.

Co., 446 U.S. 1, 8 (1980)). "Not all final judgments on individual claims should be immediately
appealable, even if they are in some sense separable from the remaining unresolved claims."

Curtiss-Wright, 446 U.S. at 8. The entry ofa final judgment is generally appropriate "only after
all claims have been adjudicated." Harriscom Svenska AB v. Harris Corp., 947 F.2d 627,629
(2d Cir. I 991 ).
Rule 54(b) provides an exception to this general rule. It states:
When an action presents more than one claim for relief-whether as a claim,
counterclaim, crossclaim, or third-party claim-or when multiple parties are
involved, the court may direct entry of a final judgment as to one or more, but fewer
than all, claims or parties only if the court expressly determines that there is no just
reason for delay.
Fed. R. Civ. P. 54(b).
Whether to grant a Rule 54(b) motion is left to Lhe discretion of the district court, See

Curtiss-Wright, 446 U.S. at 8. In deciding a Rule 54(b) motion, a District Court "must take
account of both the policy against piecemeal appeals and the equities between or among the

1

All docket numbers cited herein refer to the docket in 14 Civ. 7424.
2

A0057

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 3 of 6

parties." Novick, 642 F.3d at 310. A decision to grant a Rule 54(b) motion is to be made "in the
interest of sound judicial administration." Info. Res., Inc. v. Dun & Bradstreet Corp., 294 F.3d
447,451 (2d Cir. 2002) (quotation marks omitted). Factors to consider are "whether the claims
under review [a]re separable from the others remaining to be adjudicated and whether the nature
of the claims already determined [i]s such that no appellate court would have to decide the same
issues more than once even if there were subsequent appeals." Curtiss-Wright, 446 U.S. at 8.
Here, plaintiffs argue primarily that separate judgments would be appropriate because the
surviving claims-i. e., those arising from the June 6 incident-are distinct from the claims that
the Court dismissed-i. e., those arising from the June 29-30 incident. See Dkt. 130 at 4. The
Court is unpersuaded, for several reasons.
First, plaintiffs appear to ignore that the March 2 Opinion and Order addressed several
claims arising out of the June 6 incident, and dismissed two of them. See Dkt. 115 at 26-28.
Accordingly, were the Court to certify the March 2 Opinion and Order as a final order, as
plaintiffs request, see Dkt. 130 at 2, plaintiffs could then appeal to the Second Circuit the
dismissal of claims arising out of the June 6 incident, as to which several claims are due to be
tried in October. See Dkt. 127.
Second, in any event, even if the Court were to limit its certification to claims arising out
of the June 29-30 incident, it does not follow, as plaintiffs suggest, that "there is no risk of
duplicative appeals." Id. at 3. On the contrary, the two incidents are closely intertwined. They
involve the successive efforts of the New York City Administration for Children's Services (and
one Child Protective Specialist in particular) to remove the same minor children from plaintiffs'
home, each time with the assistance of the New York City Police Department. As a result,
piecemeal appeals here would require "two (or more) three-judge panels to familiarize

3

A0058

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 4 of 6

themselves with [the case] in successive appeals from successive decisions on interrelated
issues." Novick, 642 FJd at 311 (quotation marks omitted).
Nor would "postponing appeal until after a final judgment has been entered ... cause
unusual hardship or work an injustice." See Hogan v. Consolidated Rail Corp., 961 F.2d 1021,
1026 (2d Cir. 1992). As to this issue, plaintiffs contend that delay would force them to "mount
two separate lawsuits against a single group of defendants." 0kt. 130 at 4. But plaintiffs'
premise that certifying an appeal of the March 2, 2018 Opinion Order would avoid the need for
two trials is incorrect. Even assuming that the Court certified an appeal as to the dismissed
claims and the Second Circuit then vacated the March 2 Opinion and Order, there is no realistic
possibility that the Circuit would act and remand the case for reinstatement of those claims
before trial on the surviving claims, which is set to begin on October 15, 2018. Accordingly,
accepting plaintiffs' premise that the dismissed claims will one day be revived by the Second
Circuit, even under the most optimistic projections, this will come after trial on the surviving
claims, making separate trials inevitable. In any event, as the Second Circuit has repeatedly
explained, "the interrelationship of the dismissed and surviving claims is generally a reason for

not granting a Rule 54(b) certification." Hogan, 961 F.2d at 1026. Here, given the nexus
between the dismissed and surviving claims, "the remaining proceedings in the district court may
illuminate appellate review of the dismissed claims." Id. (quotation marks omitted). The Court
therefore denies plaintiffs' request for separate judgments. 2

The parties are, of course, at liberty to settle the remaining claims, and the Court continues to
encourage the parties to pursue such a settlement. While the parties may choose to pursue a
global settlement, they are also free to construct a settlement that preserves plaintiffs' right to
appeal the March 2, 2018 dismissal of certain claims.
2

4

A0059

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 5 of 6

n.

Reconsideration

In the alternative, plaintiffs seek reconsideration of the March 2 Opinion and Order. See
Dkt. 130 at 2. Indeed, plaintiffs' memorandum of law is devoted almost entirely to disputing
certain premises of the Court's prior decision. See Dkt. 131. This bid is easily denied.
First, this District's Local Rules require that "a notice of motion for reconsideration ...
be served within fourteen (14) days after the entry of the court's determination of the original
motion." S.D.N.Y. Local Civil Rule 6.3. Plaintiffs' motion comes more than three months too
late. See Dkts. 115, 130.
Second, the standard governing motions for reconsideration "is strict, and reconsideration
will generally be denied unless the moving party can point to controlling decisions or data that
the court overlooked." Analytical Surveys, Inc. v. Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir.
2012) (quotation marks omitted); see also S.D.N.Y. Local Rule 6.3 (requiring the movant to
"set[ ] forth concisely the matters or controlling decisions which counsel believes the Court has
overlooked"). Such a motion "is neither an occasion for repeating old arguments previously
rejected nor an opportunity for making new argwncnts that could have been previously
advanced," Associated Press v. U.S. Dep 't of Def, 395 F. Supp. 2d 17, 19 (S.D.N.Y. 2005).
Here, plaintiffs do not claim to have discovered new evidence or an intervening change in law.
Rather, they merely flesh out arguments that, as noted in the March 2 Opinion and Order, were
"profoundly underdeveloped" the first time around. Dkt. 115 at 12 n.2. The Court will not grant
plaintiffs a "second bite at the apple." Goonan v. Fed Reserve Bank ofN. Y., No. 12 Civ. 3859
(JPO), 2013 WL 1386933, at *2 (S.D.N.Y. Apr. 5, 2013).

5

A0060

Case 1:14-cv-07424-PAE Document 135 Filed 07/18/18 Page 6 of 6

CONCLUSION
For the foregoing reasons, plaintiffs' Rule 54(b) motion is denied. The Clerk of Court is
respectfully directed to terminate the motion pending at Dkt. 130.

Patl ~l~y~,&iW

SO ORDERED.

United States District Judge
Dated: July 18, 2018
New York, New York

6

A0061

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 1 of 128
IAA5shaC

1
2
3

1

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
------------------------------x
DAGHRIB SHAHEED,
WAHEEDAH SHAHEED,

4
Plaintiffs,

New York, N.Y.

5
v.

14 Civ. 7424 (PAE)
15 Civ. 3480 (PAE)

6
7
8

STEPHAN KROSKI,
PAUL BLISS,
JONATHAN RODRIGUEZ,

9
10

Defendants.
------------------------------x

11

October 10, 2018
2:40 p.m.

12
Before:
13
HON. PAUL A. ENGELMAYER,
14
District Judge
15
16
APPEARANCES
17
18
19
20
21
22

LAW OFFICES OF LAWRENCE LaBREW
Attorneys for Plaintiffs
BY: LAWRENCE LaBREW
ZACHARY W. CARTER
Corporation Counsel for the City of New York
BY: CHRISTOPHER G. ARKO
ASHLEY R. GARMAN
Assistant Corporation Counsel

23
24
25
Appendix F

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0062

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 2 of 128
IAA5SHAC
conference

1

(Case called)

2

THE DEPUTY CLERK:

3

Counsel, state your appearance for

the record, please.

4
5

MR. LaBREW:

Good afternoon, your Honor.

Lawrence

LaBrew for the plaintiffs Daghrib Shaheed and Waheedah Shaheed.

6

THE COURT:

7

MR. ARKO:

Good afternoon, Mr. LaBrew.
For defendant City of New York, Officer

8

Stephan Kroski, Officer Paul Bliss and Officer Jonathan

9

Rodriguez; Christopher Arko, New York City Law Department.

10

Good afternoon, your Honor.

11

THE COURT:

12

MS. GARMAN:

13

2

Good afternoon.
Good afternoon, your Honor.

Also for

defendants, Assistant Corporation Counsel Ashley Garman.

14

THE COURT:

Good afternoon, Ms. Garman.

15

You may all be seated.

16

I have a formidable set of topics to take up with you

17

today.

18

subpoena for the Law Department and this is, what?

19

the certified copy of one of the June 6 orders?

20
21
22

Before I do, though, Mr. Smallman has just handed up a

MR. ARKO:

Correct.

To produce

That's what we filed for ECF, it

is docket number 21913.
THE COURT:

I am happy to sign this.

I think it has

23

got a signature for the Clerk of Court but I think they will

24

accept mine in its stead.

25

MR. ARKO:

Thank you, your Honor.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0063

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 3 of 128
IAA5SHAC
conference

1

THE COURT:

3

So, I have a long list of things to cover

2

with you today but, by far, I expect the most time-consuming

3

will be the motions in limine insofar as there are a number of

4

motions in limine from each side.

5

into the record, my ruling on all the motions in limine which

6

in turn is going to be clarifying as to a lot of the trial

7

logistics issues and other issues we have to take up.

8

with me.

9

reasonably can and after I deal with the motions in limine, I

10

will go through the rest of the batting order, if you will, in

11

terms of topics for us to take up.

12

be an opportunity for you to raise issues with me that I

13

haven't anticipated.

14

So, I'm about to read aloud,

So, bear

I'm going to motor through this as quickly as I

And, at the end, there will

A jury trial in this matter is set to begin on Monday,

15

October 15, 2018.

16

in limine, on a variety of matters.

17

submitted helpful briefs for which the Court thanks counsel.

18

In advance of trial, each party has moved,
Both parties have

I am about to put on the record the bases for the

19

Court's ruling on the motions in limine.

20

written decision.

21

bottom-line order setting out the fact of the disposition of

22

the motions.

23

that matter, the nuances of any of the rulings are important to

24

you, you will need to order today's transcript.

25

There will not be a

Instead, the Court will issue only a brief

So, if the reasons for Court's ruling or, for

The Court will begin with a brief statement of the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0064

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 4 of 128
IAA5SHAC
conference

4

1

legal standards governing motions in limine.

"The purpose of

2

an in limine notion is to aid the trial process by enabling the

3

Court to rule in advance of trial on the relevance of certain

4

forecasted evidence, as to issues that are definitely set for

5

trial, without lengthy argument at, or interruption of, the

6

trial.

7

unless such evidence is clearly inadmissible on all potential

8

grounds."

9

3d 250, 257-58 (S.D.N.Y. 2015).

Evidence should not be excluded on a motion in limine,

Hart v. RCI Hospitality Holdings, Inc., 90 F.Supp.
A Court's ruling on such a

10

motion is "subject to change when the case unfolds,

11

particularly if the actual testimony differs from what was

12

contained in a party's proffer."

13

U.S. 38, 41 (1984).

14

Luce v. United States, 469

Several issues raised by these motions in limine turn

15

on application of Federal Rule of Evidence 403.

16

provides that a District Court may exclude "relevant evidence"

17

Defined elsewhere as material evidence having "any tendency to

18

make a fact more or less probable than it would be without the

19

evidence," Federal Rule of Evidence 401, if it's probative

20

value is substantially outweighed by a danger of one or more of

21

the following:

22

misleading the jury, undue delay, wasting time, or needlessly

23

presenting cumulative evidence."

24

403.

25

That rule

"unfair prejudice, confusing the issues,

Federal Rule of Evidence,

The Court first analyzes plaintiff's motions before
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0065

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 5 of 128
IAA5SHAC
conference

1

5

turning to defendant's motions.

2

Plaintiffs first ask the Court to admit the testimony

3

of Ikhlas, Hannah Olodan, the daughter and sister of

4

plaintiffs.

5

claims in this case relate exclusively to the events of one

6

day:

7

is undisputed, Ikhlas Hannah Olodan was not present during that

8

incident.

9

The Court denies this motion.

June 6, 2012.

The surviving

As the record shows, and as I understand

Plaintiffs have not identified any relevant testimony

10

that Ms. Olodan could give as to that incident.

11

percipient witness to it and she has no personal knowledge of

12

it.

13

2012, would necessarily be inadmissible hearsay.

14

She was not a

Any account Ms. Olodan could give of the events of June 6,

Plaintiffs seek to use Ms. Olodan's testimony to

15

address other matters.

Plaintiffs appear to envision that she

16

would address the factual circumstances that underlie the

17

family court removal order that caused the police to come to

18

the house on June 6.

19

she would address interactions between herself and ACS that

20

took place after the June 6, 2012 incident.

21

both of those matters are irrelevant to the surviving claims in

22

this case.

23

rightness or wrongness of the Family Court removal order that

24

led defendants to come to the residence on June 6.

25

is facially valid and legally operative.

Plaintiffs also appear to envision that

To be quite clear,

This litigation does not concern the legal

The order

The Court will not

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0066

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 6 of 128
IAA5SHAC
conference

6

1

permit plaintiffs to litigate the facts underlying it or to

2

seek to question its legitimacy.

3

involving the family members at issue predating June 6 is

4

irrelevant, and the Court will exclude it, whether from

5

Ms. Olodan or any other witness.

6

plaintiffs' claims based on events post-dating the June 6

7

incident, that is, relating to the June 29-30 incident.

8

Court will not permit testimony on those later events, again

9

whether from Ms. Olodan or any other witness.

10

Testimony as to events

And, the Court has dismissed

The

Accordingly, the

Court precludes any testimony from Ms. Olodan as irrelevant.

11

Plaintiffs next ask the Court to take judicial notice

12

of what appears to be a large subset of New York State family

13

Court Law and New York State Criminal Procedure Law.

14

Plaintiffs do not specify more concretely what they have in

15

mind.

16

That motion is denied.
The Court will instruct the jury on the relevant law

17

underlying plaintiffs' claims in this action, that is, the

18

elements of these claims.

19

blanket motion to take judicial notice of whole areas of state

20

law whose relevance to the case at hand plaintiffs have not

21

elucidated.

22

The Court will not grant plaintiffs'

For the avoidance of doubt, the Court will explain to

23

the jury that the Family Court order authorized defendants to

24

enter plaintiffs' home and that this order was the functional

25

equivalent of a valid search warrant.

See, Southerland v. City

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0067

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 7 of 128
IAA5SHAC
conference

7

1

of New York, 680 F.3d 127, 144 (2d Cir. 2012).

That much legal

2

background is proper.

3

evidence or argument as to the underlying family Court

4

proceeding.

5

challenge or question the validity or wisdom of any decisions

6

made in that proceeding.

7

plaintiffs to challenge A C S' judgment of their fitness as

8

caretakers or the validity of the order permitting the two

9

minor children to be removed from the home on June 6, 2012.

The Court will not, however, invite

And, the Court will not permit plaintiffs to

This trial is not a forum for

10

This trial is, instead, to be tightly focused on the

11

physical altercation between plaintiffs and defendants on the

12

evening of June 6, 2012.

13

governing the ACS regime and investigation, and the Family

14

Court hearing, both of which are outside the scope of this

15

proceeding, are out of bounds.

16

whether plaintiffs were or were not, on June 6, 2012, falsely

17

arrested or falsely imprisoned, maliciously prosecuted, or

18

subjected to excessive force or assault and battery.

19

to be no references in opening statements tending to call into

20

question the legal validity of the order that authorized entry

21

on June 6.

22

It follows that references to laws

Those events do not speak to

There are

Apart from the irrelevance of the underlying Family

23

Court and ACS records and events, I note that the events before

24

these bodies would naturally bring up consideration of persons,

25

entities, facts, and concepts that are separate from the events
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0068

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 8 of 128
IAA5SHAC
conference

8

1

at issue in this case.

2

Family Court and ACS proceedings had some passing relevance,

3

and no showing has been made, their probative value would be

4

vastly outweighed by the capacity of evidence about these

5

extraneous matters to confuse and distract the jury from the

6

narrow issues before them.

7

Even if the underlying facts of the

Plaintiffs next seek to offer plaintiffs' mug shots

8

into evidence.

Plaintiffs intend to use these mug shots,

9

apparently, to prove that the defendants have malice towards

10

plaintiffs.

11

29-30th, 2012 arrest, Daghrib Shaheed's mug shot is from the

12

June 6, 2012 arrest.

13

Waheedah Shaheed's mug shot is from the June

Because the claims arising out of the June 29-30, 2012

14

incident are no longer at issue in this case, the Court denies

15

plaintiffs' motion to introduce Waheedah's mug shot into

16

evidence.

It is completely irrelevant.

17

Plaintiffs may introduce Daghrib's mug shot from the

18

June 6, 2012 incident, provided that the mug shot is properly

19

authenticated.

20

The mug shot may be offered as evidence that Daghrib was

21

arrested on that particular date.

22

photographic evidence of her physical condition following her

23

arrest, provided that plaintiffs lay the proper foundation for

24

submitting such evidence.

25

But, they may do so only for limited purposes.

And it may be offered as

Plaintiffs may not, however, argue that the taking or
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0069

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 9 of 128
IAA5SHAC
conference

9

1

the retention of the mug shot was unlawful, or that the act of

2

taking or retaining the mug shot is probative of any element of

3

any surviving cause of action.

4

mug shot is not evidence of malice in connection with the

5

underlying event.

6

in this lawsuit that the retention of the mug shot after

7

charges were dropped was unlawful causing damages.

8

parties are aware, last week, 11 days before trial, plaintiffs'

9

counsel, extremely belatedly, sought to file an amended

The taking or retention of the

And, plaintiffs have not brought any claim

As the

10

complaint adding such a claim.

11

application as, frankly, outrageously late, and as

12

necessitating, by its nature, a reopening of discovery and a

13

delay of trial.

14

in this trial as to any alleged violations of law in connection

15

with the retention of the mug shot.

16

The Court denied that

The Court will not permit evidence or argument

Next, plaintiffs seek to offer into evidence the desk

17

appearance ticket that defendant Officer Kroski issued to

18

Waheedah Shaheed.

19

Kroski issued the desk appearance ticket instead of arresting

20

Waheedah Shaheed because Kroski felt guilty for having

21

"attacked an ill, defenseless woman."

22

page 10.

23

appearance ticket was technically improper for the conduct

24

charged, and the fact that Officer Kroski thereby went lenient

25

on Waheedah must reflect consciousness of guilt for having

Plaintiffs appear to surmise that Officer

Citing docket 164 at

Plaintiffs' theory appears to be that a desk

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0070

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 10 of 128
IAA5SHAC
conference

1
2

previously mistreated her.
The Court will permit the fact that Waheedah was not

3

arrested but instead given a desk appearance ticket to be

4

received because it bears on damages.

5

treatment of her, in which she was not kept in custody

6

thereafter, is germane to the extent to which she can claim

7

injury from a purported false arrest.

8
9

10

The less restrictive

However, the Court will not permit plaintiffs to
develop whether a desk appearance ticket was unauthorized or

10

improper as a matter of police procedure.

Any deviation from

11

procedure of this nature would not tend to make any of

12

plaintiffs' claims more likely true.

13

that Officer Kroski so acted out of unexpressed guilt or

14

remorse is completely conjectural.

15

proffered any basis for this surmise.

16

this theory to be pursued as a means of establishing and

17

developing the fact of a technical misstep by the officer that

18

led him to treat a plaintiff more leniently in allowing her

19

release on a mere desk appearance ticket.

20

that circumstance irrelevant.

21

to put before the jury the fact of a separate, benign, goof-up

22

by the officer which plaintiffs apparently intend to exploit as

23

bad character evidence.

24

Federal Rule of Evidence 404.

25

misapplication of the rules had some passing relevance, the

And, plaintiffs' theory

Plaintiffs have not
The Court will not allow

The Court has found

It appears, instead, to be a way

That, of course, is improper under
And even if the officer's

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0071

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 11 of 128
IAA5SHAC
conference

11

1

probative value of this evidence would be substantially

2

outweighed by its capacity to confuse or distract the jury from

3

the elements of claims to be tried which involve, again, false

4

arrest and imprisonment, malicious prosecution, and excessive

5

force and assault and battery.

6

Finally, plaintiffs seek to introduce evidence of the

7

later incident with the police on June 29-30, 2012.

Again, the

8

Court has dismissed all claims arising out of that incident.

9

The circumstances of that incident are irrelevant to the events

10

of nearly a month earlier that are at issue.

11

there were some limited probative value as to the later

12

incident as to the claims to be tried, and no coherent

13

indication of relevance whatsoever has been made, receiving

14

evidence of a later incident involving the police and these

15

same plaintiffs would have obvious capacity to distract and

16

confuse the jury.

17

insofar as once one participant in the June 2th-30th events was

18

permitted to testify about those events, it would presumably be

19

necessary to permit the other participants to give their

20

competing versions of events.

21

therefore, this evidence is excluded.

22

advance ruling from the Court, plaintiffs are precluded from

23

offering evidence as to the June 29-30 incident or referring to

24

it in any statement to the jury.

25

Moreover, even if

It would also prolong the trial needlessly

Under both rules 402 and 403,
Absent an explicit

That completes my discussion of plaintiffs' motions in
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0072

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 12 of 128
IAA5SHAC
conference

1
2

limine.

12

The Court turns now to defendants' motions.
Defendants first ask that the Court amend the caption

3

of this action to remove the City as a defendant in this

4

matter, in any documents to be shown to the jury.

5

acknowledge that on the state law claims that survive the City

6

remains a defendant.

7

those claims is solely one of respondeat superior.

8

indeed, if any defendant is held liable on any state law claim,

9

defendants concede that the City will be held liable, too, on

Defendants

The theory of the City's liability on
And,

10

that claim, again on a respondeat theory.

11

defendants "concede that the individual police defendants were

12

acting within the scope of their employment when the alleged

13

incident occurred."

14

That is because

Docket 155 at 4.

As long as the City agrees now -- today -- that a

15

judgment on any state law claim against any individual

16

defendant will automatically result in the Court's entering

17

judgment against the City, too, on that claim, on a respondeat

18

theory, the Court will remove the City from the caption to be

19

shown to the jury.

20

fact that the City is a named defendant has the potential to

21

lead the jury to see the City as a deep pocket, which in turn

22

could lead the jury to be more likely to hold an individual

23

defendant liable for a larger judgment believing that the City,

24

and not the defendant, would ultimately have to pay.

25

That is because alerting the jury to the

So, with that, defendant, do you agree that any
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0073

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 13 of 128
IAA5SHAC
conference

13

1

verdict against any individual defendant on a state law claim

2

will necessarily require the Court's entry of a parallel

3

judgment against the City?

4

MS. GARMAN:

5

THE COURT:

Yes, your Honor.
The Court then, on that categorical

6

commitment by the defense, grants that motion.

7

shown to the jury containing the caption of the case are to

8

list the defendants solely as the three officers.

9

not, I repeat not, to be told that the City is a defendant.

10

That is irrelevant to their determination of liability and

11

damages on any claim.

12

liable on any state law claim, a parallel judgment will be

13

entered against the City to the extent of that finding of

14

liability.

15

The documents

The jury is

However, if any defendant is found

Defendants next seek to preclude plaintiffs from first

16

from suggesting that the City of New York may indemnify

17

defendants; and second from referring to defense counsel as

18

"City attorneys."

19

As to indemnification, plaintiffs are prohibited from

20

addressing the possibility of indemnification.

There is one

21

caveat.

22

be permitted tolling to the jury.

23

whether it will or will not.

24

trial evidence.

25

the jury, and if any defendant responds by referring to his own

It is possible that the issue of punitive damages will
I do not know at this stage

That will await my review of the

If the issue of punitive damages does go to

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0074

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 14 of 128
IAA5SHAC
conference

14

1

impecuniousness as an argument for limited punitive damages,

2

that would open the door to evidence of indemnification.

3

avoidance of doubt, unless the Court has affirmatively ruled

4

that that door has been opened, there is to be no reference to

5

indemnification.

6

As to how best to refer to defense counsel during the

7

course of the trial, plaintiffs may not refer to defense

8

counsel as "City attorneys."

9

counsel" are satisfactory alternatives.

10

For

"Defense counsel" or "Corporation

To avoid any potential prejudice, including to

11

defendants themselves on the theory that jurors might expect

12

police officers to be represented by their employer, the

13

Court's preliminary remarks to the jury will state that for

14

each defendant, being a member of the New York City Police

15

Department, that defendant is represented by attorneys from the

16

corporation counsel of the City of New York.

17

words, the two defense lawyers who are here will be so

18

described in terms of their organizational affiliate.

19

authority I would cite, as I have in many cases where I have

20

given exactly this identical ruling.

21

05 Civ. 10230, 2007 Westlaw 3125314 at page 7, (S.D.N.Y.

22

October 25, 2007), a decision by Judge Scheindlin.

23

So, in other

As

See Williams v. McCarthy,

Defendants next move to preclude plaintiffs from

24

requesting a specific dollar figure from the jury.

25

have not come forward with any evidence of out-of-pocket
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

Plaintiffs

A0075

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 15 of 128
IAA5SHAC
conference

15

1

expenses such as medical bills occasioned by the conduct in

2

this case.

3

how they could anchor any specific damages request in concrete

4

evidence, e.g., an out-of-pocket outlay.

5

have not articulated any reason to contravene the Second

6

Circuit's "well-established policy disfavoring suggestions of

7

specific damages figures," plaintiffs are precluded from making

8

any such reference.

9

4350572 at page 3 (S.D.N.Y., June 12, 2017), a decision by

10
11

More generally, plaintiffs have not demonstrated

Because plaintiffs

See Núñez v. Diedrick, 2017 Westlaw

Judge Sullivan.
Defendants next seek to preclude plaintiffs from

12

inquiring into mor making reference to the disciplinary

13

histories, if any, and personnel files of City employee

14

witnesses.

15

not identified any specific incidents or misconduct, or any

16

finding of misconduct by any defendant officer.

17

have plaintiffs identified any act of misconduct that could be

18

probative at this trial of any substantive claim or of a

19

witness' character for truthfulness or untruthfulness under

20

Federal Rule of Evidence 608(b).

21

precluded.

22

questioning of witnesses about disciplinary history; that was

23

to be explored in discovery and I will not permit the trial to

24

descend into an exploratory inquiry into that.

25

point here is that there has been no established incident of

The Court grants this motion too.

Plaintiffs have

Still, less

Accordingly, such evidence is

For avoidance of doubt, there is not to be

The relevant

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0076

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 16 of 128
IAA5SHAC
conference

16

1

any discipline that has been brought to my attention, let alone

2

one that would survive the rules of evidence.

3

Defendants next move to preclude plaintiffs "from

4

referring to and offering any evidence of NYPD procedure or

5

patrol guide provisions."

6

is also granted.

7

Docket 155 at page 8.

This motion

In seeking exclusion of this evidence, defendants

8

argue that the patrol guide is irrelevant because NYPD

9

procedure is distinct from the standards imposed by the federal

10

constitution or the relevant state laws under which plaintiffs

11

sue.

12

would only confuse the jury, likely leading the jury to assume

13

that NYPD procedure sets out the standard to be used in

14

evaluating defendants' allegedly unconstitutional or illegal

15

actions.

Defendants argue that references to the patrol guide

16

See docket 155 at pages 8 to 9.
I am, by no means, persuaded of the categorical

17

proposition.

I have admitted patrol guide evidence in other

18

cases.

19

deviations from standards in a patrol guide can be germane, as

20

I have ruled in other cases where that was so.

21

note that, as a colleague in the Eastern District has observed,

22

"a growing number of Courts have held that in constitutional

23

tort cases, expert testimony regarding sound professional

24

standards governing a defendant's actions can be relevant and

25

helpful."

To be sure, there can be circumstances in which

For example, I

Citing Nnodimele v. Derienzo, 2016 Westlaw 3561708
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0077

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 17 of 128
IAA5SHAC
conference

17

1

at page 14 (E.D.N.Y., June 27, 2016) internal quotations

2

omitted, and similarly, in 2013, the Seventh Circuit affirmed a

3

decision to admit testimony regarding police procedure in a

4

trial of a Section 1983 claim explaining that such evidence

5

"would have helped the jury conclude that the departures from

6

reasonable police practices were so important, severe, and

7

numerous that they supported an inference that defendant acted

8

deliberately to violate plaintiffs' rights."

9

in previous cases where there has been a violation shown of

Id. at 722.

And

10

patrol guide provisions I have permitted, in some

11

circumstances, the fact of that violation to the extent it bore

12

on the elements of the claims at issue.
In this case, however, plaintiffs have not identified

13
14

any particular relevant portion of the NYPD patrol guide that

15

was assertedly violated.

16

why the violation of any patrol guide provision, in the context

17

of this particular case, would be probative of any element at

18

issue.

19

how these principles might apply in some other case, in this

20

case the Court will preclude such evidence.

21

to be no questioning of any witness as to disciplinary

22

complaints or disciplinary history, there is to be no reference

23

to the patrol guide, whether in jury addresses or in

24

questioning of any witnesses.

25

Nor have they made any argument as to

Accordingly, without making any broader statement about

Just as there is

Defendants next request that the Court remove
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0078

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 18 of 128
IAA5SHAC
conference

18

1

dismissed defendant Officer Lydia Figueroa from the caption and

2

preclude plaintiffs from mentioning her during the trial.

3

motion is granted.

4

This

Officer Figueroa's conduct is no longer at issue in

5

this case and she was not present in the Shaheed apartment

6

during the June 6, 2012 incident.

7

with claims relating to the later incident, on June 29-30th,

8

which have since been dismissed.

9

relevance to the fact that Officer Figueroa was once a

She was sued in connection

There is no conceivable

10

defendant in this litigation, and any allusion to her would

11

tend to suggest other areas of assertedly illegal action by the

12

police department towards these plaintiffs.

13

accordingly, has removed Officer Figueroa from the caption

14

since she is no longer a party to this case.

15

similarly precludes the parties from referencing Officer

16

Figueroa before the jury.

17

defendants equally as it binds plaintiffs.

18

for example, seek to capitalize on their success prior to trial

19

in pruning the claims in this case.

20

example, suggest that because claims against Officer Figueroa

21

were dismissed as legally baseless, the surviving claims

22

against the other defendants are more likely, too, to be

23

deficient.

24
25

The Court,

The Court

To be clear, this ruling binds the
Defendants may not,

Defendants may not, for

Defendants next seek to preclude plaintiffs from
introducing evidence or argument concerning the CCRB and NYPD
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0079

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 19 of 128
IAA5SHAC
conference

19

1

investigations into the events underlying this lawsuit.

2

Plaintiffs, notably, nowhere suggest that the findings from

3

such investigations are admissible.

4

general matter, findings by a different body, whether

5

exonerating or implicating a defendant, have little fair

6

probative value.

7

conducted without the benefit of the adversary system and they

8

draw upon a pool of evidence that may be narrower than, or

9

different from, the evidence at trial.

And properly so.

As a

These investigations, by nature, are

Further, offering a

10

disciplinary body's findings runs a substantial risk of juror

11

confusion, permitting the jury to substitute for its own

12

independent judgment based on the evidence, the earlier

13

assessment of another investigative body or bodies based on a

14

different pool of evidence.

15

circumstance, the Court would preclude either party from making

16

reference to the outcomes of a CCRB or NYPD investigation.

17

Accordingly, under any

Here, of course, there is even more reason to reach

18

the same outcome, and that is because there does not appear

19

even to have been any such finding.

20

that whatever investigation was commenced was terminated at

21

plaintiffs' behest.

22

evidence of these proceedings.

23

It appears to the Court

That is all the more reason to exclude

Now, as to the fact that plaintiff initiated a

24

complaint to the CCRB for the time being, the Court precludes

25

that fact as irrelevant.

But, the Court recognizes that,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0080

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 20 of 128
IAA5SHAC
conference

20

1

depending on the direction trial takes, that fact could become

2

relevant on one of two theories.

3

that plaintiffs sat on their hands prior to filing this

4

lawsuit, plaintiffs may rebut such an inference by noting their

5

earlier initiation, long before bringing this case, of a CCRB

6

complaint.

7

argument suggesting that this action is motivated solely by the

8

prospect of financial gain, it may -- emphasis may -- become

9

relevant to rebutting that inference, the fact that plaintiffs

10

initiated a CCRB complaint, an action taken presumably at the

11

time without any expectation of compensation.

12

First, if defendants suggest

And second, if defendants introduce evidence or

For avoidance of doubt, plaintiffs are precluded, for

13

the time being, from referring, in any way, to the CCRB

14

complaint or any other investigation or introducing evidence of

15

it or its initiation.

16

concludes that the defense has opened the door to such

17

evidence, you are to first, plaintiffs counsel, seek a ruling

18

from the Court to that effect.

In the event plaintiffs counsel

19

Defendants next seek to bar plaintiffs from referring

20

to unrelated instances of police misconduct, class actions, or

21

criminal investigations.

22

regard to prior police misconduct.

23

zero -- commentary on police misconduct outside the four

24

corners of the surviving in this case.

25

officers, whether in this city or elsewhere, is completely

The Court grants this motion with
There is to be no --

The conduct of other

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0081

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 21 of 128
IAA5SHAC
conference

21

1

irrelevant to what happened on June 6, 2012, and it is

2

potentially highly prejudicial.

3

argument or questioning to allude to police misconduct

4

extraneous of the events of June 6, 2012, the Court will

5

decisively and emphatically shut it down.

6

police officer behaved badly and violated somebody's civil

7

rights simply does not speak to whether these police officers

8

behaved badly or violated somebody's civil rights on a

9

particular day, any more than a police officer's good behavior

10

or noble behavior on a particular day, speaks to whether these

11

officers behaved nobly or well or lawfully in connection with

12

this incident.

13

If there is an attempt in

Just because one

It simply is irrelevant.

Defendants similarly seek to preclude references to

14

ACS' history outside the scope of this case.

The Court will

15

permit limited facts sufficient to establish the context

16

leading to the officers coming to the house on the evening of

17

June 6, 2012, i.e., we are not to hear testimony about ACS as

18

relates to other children.

19

background as to how the officers came to come there on June 6

20

is solely to give context to this incident.

21

will not permit counsel to relitigate or reopen any ACS or

22

state court findings.

23

plaintiffs' parenting or about ACS' views of plaintiffs

24

parenting.

25

executing the functional equivalent of a valid search warrant.

I will instruct the jury that this

The Court, though,

Again, this case is not about

This case is about the conduct of the defendants in

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0082

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 22 of 128
IAA5SHAC
conference

1

22

Defendants next move to preclude any evidence or

2

argument related to plaintiffs' dismissed claims including

3

those arising out of the June 29th-30th, 2012 incident.

4

think I have already covered this in connection with an earlier

5

motion by plaintiffs, but for avoidance of doubt I will say it

6

again, the Court precludes all parties, without advance

7

authorization from the Court, from referring to any of the

8

dismissed claims or the second incident from June 29-30th, 2012

9

as to which all claims have been dismissed.

I

The fact that such

10

claims were once brought and the fact that they have since been

11

dismissed is irrelevant to the surviving claims.

12

Defendants next seek to preclude plaintiffs from

13

challenging the merits of the ACS investigation and the family

14

court removal order.

15

Court grants this motion.

16

employees are not parties to this action.

17

at all at issue.

18

For the reasons covered earlier, the
I note, too, that ACS and its
Their conduct is not

Defendants next move to preclude testimony from

19

Waheedah Shaheed's children who were not present during the

20

June 6, 2012 incident, and also testimony from two ACS

21

employees.

22

motion by plaintiffs, the testimony of Ms. Olodan.

23

same reasons, the Court holds that testimony by Waheedah

24

Shaheed's children who were not present during the June 6

25

events at issue in this lawsuit is precluded.

This Court has already precluded, in a ruling on a
For the

On this basis,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0083

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 23 of 128
IAA5SHAC
conference

23

1

the Court precludes the testimony of Abdul Malik Abdur-Rahim

2

whom the Court understands to fit into this category, and as to

3

whom no proffer of admissible testimony has been made.

4

As to the testimony by ACS employees, their testimony

5

is inadmissible as well except to prove limited facts.

These

6

witnesses may be called to establish the existence of the ACS

7

investigation, the order permitting the entry that occurred on

8

June 6, and plaintiffs' notice of the status and the results of

9

that investigation as of June 6, as of the entry into the home.

10

These limited facts are relevant context for understanding and

11

assessing the conduct of potentially both plaintiffs and

12

defendants on June 6, 2012.

13

precludes testimony attempting to impeach ACS' work.

14

not on trial here.

15

conduct within the scope of its duties, the order that resulted

16

from ACS' investigation that permitted removal of the children

17

is not challenged in this case and it was legally valid, it

18

must be taken as such for the purposes of this trial.

For avoidance of doubt, the Court
ACS is

Whatever plaintiffs feelings are about ACS'

19

Defendants next seek to move to preclude plaintiffs

20

from testifying about complaints they apparently made to the

21

U.S. Attorney's office and to state and local government

22

officials.

23

complaints are also irrelevant to any issue to be tried.

24

there is one caveat.

25

delayed in asserting their claims against defendants or brought

The Court grants this motion because such
But,

If defendants suggest that plaintiffs

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0084

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 24 of 128
IAA5SHAC
conference

24

1

these claims solely for pecuniary gain, this may open the door

2

to receipt of evidence about these complaints.

3

and until the Court has affirmatively so ruled, no party is to

4

assume that the door to such evidence has been opened.

5

Again, unless

Defendants next move to preclude plaintiffs from

6

arguing that Noah Shaheed's arrest and prosecution were

7

unlawful, that any force used against him was excessive, or

8

that he suffered any damages.

9

too.

The Court grants this motion,

Noah Shaheed is not a party to this action.

The

10

lawfulness of actions against him is not at issue.

11

the facts of his conduct at the house on June 6, and the police

12

conduct towards him that day, are properly part of the

13

narrative of this case.

14

contemporaneous conduct of the defendants and the plaintiffs.

15

These facts are permitted to be developed, including through

16

Noah Shaheed's first-hand testimony.

17

unlike some of the other people at issue that I discussed

18

earlier, was a participant and was a percipient witness to the

19

events of June 6, 2012.

20

events.

21

may have against defendants.

22

However,

They offer context as to the

I note that Noah Shaheed,

He may testify factually about these

He may not, however, testify about any legal claims he

Defendants next seek to preclude plaintiffs from

23

arguing that the Family Court removal order was insufficient to

24

authorize defendants to enter plaintiffs' apartment lawfully.

25

As the Court has previously noted, such argument would be
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0085

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 25 of 128
IAA5SHAC
conference

1

legally wrong.

2

order is equivalent to a search warrant for Fourth Amendment

3

purposes."

4

127, 144 (2d Cir. 2012).

5

stating or implying otherwise.

6

See, docket 115 at 16, note 7.

25

"A Family Court

Citing Southerland v. City of New York, 680 F.3d
Plaintiffs are prohibited from

Defendants next move to preclude references to

7

Waheedah Shaheed's terminal cancer and other pre-existing

8

medical conditions.

9

Ms. Shaheed has to contend with any medical condition like that

As an aside, I will express my regret that

10

and I am very empathetic to her for that reason.

However, I'm

11

obliged to apply the rules of evidence here and therefore to

12

grant this motion to preclude references to her terminal

13

cancer, and I do so under Rules 402 and 403.

14

Shaheed's medical condition that predates June 6, 2012 has

15

nothing to do with whether her arrest was lawful or executed

16

with excessive force.

17

about.

18

Moreover, even if her illness somehow had some fleeting

19

probative value, that value would be outweighed by the obvious

20

capacity of this highly sympathetic fact of her severe illness

21

to sway the jury.

22

medical evidence that defendants' dealings with Waheedah

23

Shaheed harmed her medically in any way relevant to her cancer.

24

Plaintiffs are precluded from referencing her cancer or

25

suggesting that the defendants' conduct, on June 6, 2012,

Waheedah

The police did not bring her cancer

Her terminal cancer is irrelevant under Rule 402.

And, there has been no proffer of any

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0086

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 26 of 128
IAA5SHAC
conference

1
2

26

caused or exacerbated this condition.
Defendants move next to preclude video footage

3

depicting property damage to the inside of the Shaheed's

4

apartment following their arrests.

5

plaintiffs, in recounting the police conduct, to refer to

6

property damage that occurred during the arrest.

7

is probative of the level of force used by one or more parties

8

involved in the incident.

9

unpersuaded that video footage focused on property damage is

10

proper here, as footage focused on such damage would tend to

11

imply, wrongly, that there is a claim here for property damage,

12

which there is not.

13

close of business tomorrow, to furnish the Court with the video

14

in question so that the Court can make this determination with

15

reference to the specific footage at issue.

16

The Court will permit

Such evidence

For the time being, the Court is

However, plaintiffs are at liberty, by the

Finally, defendants move to preclude any testimony by

17

Waheedah Shaheed's home health aide, Dianatou Chan, who

18

plaintiffs contend was kidnapped by New York City police

19

officers three years after the June 6, 2012 incident.

20

witness apparently was not present in the apartment during the

21

June 6, 2012 incident and plaintiffs have not identified any

22

relevant testimony that she would or could provide, nor have

23

plaintiffs established how this witness could possibly offer

24

non-hearsay testimony as to matters that are relevant in this

25

case that are within her personal knowledge.

This

Accordingly, the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0087

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 27 of 128
IAA5SHAC
conference

1

27

Court holds that this testimony is inadmissible.

2

That concludes the Court's rulings on motions in

3

limine.

I noted during the course of the motions some rustling

4

at the defense table, perhaps suggesting that I misapprehended

5

a fact somewhere.

6

give you the opportunity if there is something that I

7

misapprehended beginning with the defendants to say so.

I don't know if I did or didn't, but I will

8

MS. GARMAN:

Just one moment, your Honor?

9

(Counsel conferring)

10

MR. ARKO:

There was one issue.

11

Your Honor ruled that Waheedah Shaheed's two adult

12

children may not testify.

13

that -- or I should say plaintiffs intended to put forward,

14

there was Carlene Johnson and Alana Martin and Carlene Johnson.

15

They're not ACS workers, I believe they're plaintiffs --

16

THE COURT:

17

MR. ARKO:

There were two other family members

Carlene Johnson and who is the other one?
Alana Martin.

They're not ACS workers.

I

18

just thought perhaps maybe there was misunderstanding about

19

that but it wasn't clear to me that your Honor ruled as to the

20

admissibility of their testimony.

21

Court's ruling about the two children but we moved to exclude

22

their testimony as well.

23

THE COURT:

24

MR. ARKO:

25

THE COURT:

I certainly understand the

Johnson and Martin, you say?
Yes; Johnson and Martin.

Yes.

Were they in the residence on June 6?

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0088

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 28 of 128
IAA5SHAC
conference

1

MR. ARKO:

2

THE COURT:

28

No.

3

residency on June 6?

4

MR. LaBREW:

5

testify, your Honor.

Plaintiffs counsel, were they in the

No, they were not and they will not

6

THE COURT:

7

covered, precluded.

8

discussion among the two of you when I was discussing the

9

medical condition of Waheedah Shaheed.

10
11
12

Then they are, for the same reason as
I noticed, though, rustling and some

Was there some factual

inaccuracy what I said?
MS. GARMAN:

Again, just a moment, your Honor?

I

apologize.

13

(Counsel conferring)

14

MS. GARMAN:

15

voice so that is not an issue.

Your Honor, I usually have a loud enough

16

THE COURT:

This is a funhouse of bad acoustics.

17

MS. GARMAN:

18

Yes, with respect to the motion that your Honor

I just wanted to clarify.

19

granted with respect to Ms. Shaheed's unfortunate terminal

20

cancer diagnosis, we just want to clarify.

21

elicit testimony that she had a pre-existing condition for

22

which she was taking -- she was already taking morphine and

23

under the care of a home health aide for 40 hours a week.

24

relevant because she was held in the -- she was at the hospital

25

for a little bit over a week after this incident and we do seek

We do seek to

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

It's

A0089

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 29 of 128
IAA5SHAC
conference

29

1

to elicit testimony and put on evidence to the effect that she

2

was in the house, not solely related to injuries stemming from

3

her arrest, but also because she had a pre-existing --

4

previously-scheduled medical appointment related to her prior

5

conditions.

6
7

THE COURT:

Give me

the sequence of events after June 6.

8
9

I need you to unpack the facts.

MS. GARMAN:

After June 6, Waheedah Shaheed is taken

to the hospital shortly after the midnight, so in the morning

10

of June 7.

She is in the hospital.

11

emergency room for conditions she claims to have suffered

12

during the arrest -- some rib injuries, an injury to her eye.

13

After that, by her own testimony and as it played out in the

14

medical records, she happened to already have an appointment

15

scheduled with the oncology ward on June 7th later in that day,

16

already scheduled.

17

appointment for an infusion related to her cancer.

18

discharged from the emergency room and she goes to her oncology

19

appointment, again regularly scheduled, not related to this

20

incident.

21

she is admitted to Mount Sinai and she is there until June

22

19th.

I understand it was a regular monthly
So, she is

But, we anticipate that the jury -- and after that,

23

THE COURT:

24

MS. GARMAN:

25

She is seen at the

And what is she admitted for?
She is admitted for pain management

because the hospital has concerns that she will not -- if she
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0090

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 30 of 128
IAA5SHAC
conference

30

1

goes back to the precinct and to Central Booking, she will not

2

have access to morphine and other pain medication which she was

3

already taking before the events of June 6 unfolded.

4

testified she took morphine that morning before the police ever

5

even came to her house.

6

THE COURT:

She

So in other words, after she goes to the

7

oncology appointment, which from your point of view has nothing

8

to do with this case --

9

MS. GARMAN:

10

THE COURT:

Correct.
-- she then goes to Mount Sinai, a

11

different medical facility, and the reason is that the

12

alternative to Mount Sinai was or might have been Central

13

Booking?

14

MS. GARMAN:

She goes to Mount Sinai emergency room

15

and she is discharged from the emergency part and goes to the

16

oncology ward where she was regularly receiving treatment.

17

is always at Mount Sinai, just different locations.

18
19

THE COURT:

She

But you are saying that after going to the

oncology appointment she doesn't come home?

20

MS. GARMAN:

21

THE COURT:

22

MS. GARMAN:

Correct.
Was she in police custody at the time?
She was in police custody.

And so, the

23

medical records make it very clear that they are concerned

24

about releasing her back to the precinct because she can't have

25

her pain medication that she was already on.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0091

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 31 of 128
IAA5SHAC
conference

1

THE COURT:

2

She is, on June 7th, before she is taken to the

3

Let me see if I get this right.

emergency room, she is placed under arrest.

4

MS. GARMAN:

5

precinct for a period of time.

6
7
8
9

31

THE COURT:

She is, yes.

She is taken to the

And what is the charge that is brought

against her at the time?
MS. GARMAN:

Assault in the second degree, obstructing

governmental administration, and resisting arrest.

10

THE COURT:

11

And she has not been presented as of this point for

12

the purposes of setting bail or any bail application?

13

MS. GARMAN:

14

THE COURT:

15
16

I see.

That's correct.
And so, who decides that she will stay in

the hospital for what amounts to the next 12 days?
MS. GARMAN:

So, from the medical records it's clear

17

that they are trying to get her a bedside arraignment out of

18

this concern that she won't have access to her medical records.

19

I'm not entirely sure -- I know a social worker was involved at

20

some point in the decisions.

21

decision-makers were but it was hospital personnel or medical

22

or social worker personnel, who had the concerns because of her

23

pre-existing conditions, and they were unable to -- they were

24

going to try to get her to go to Bellevue, a different

25

hospital, and then they were advised that they couldn't send a

I'm not sure who the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0092

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 32 of 128
IAA5SHAC
conference

32

1

female to Bellevue for a bedside arraignment.

2

exactly know who the decision makers were.

3

police, it was just that she is continuing to be in police

4

custody until they ultimately decide it is in her best interest

5

I guess to give her the DAT so she doesn't have the continuing

6

issue.

7
8

THE COURT:

MS. GARMAN:

10

THE COURT:

12
13
14

It wasn't the

Whether did she get the Desk Appearance

Ticket?

9

11

So, I don't

16th.

June 16th.
So she is in the hospital through June

When is she arraigned?
MS. GARMAN:

Well, she was given the DAT on June 16th.

She is arraigned sometime in July, I believe.
THE COURT:

Sorry.

Ordinarily within 24 to 48 hours a

15

person is supposed to be arraigned so that, among other things,

16

a bail determination gets made.

17

different, of course, from being in a jail cell.

18

presumably somebody was supposed to arraign her.

19

MS. GARMAN:

Now, being in the hospital is
Nevertheless,

Well, the issue was that the hospital

20

wasn't releasing her because of the concerns about her not

21

getting her pain medication so it wasn't -- it was not the

22

police officers who were holding her there.

23

THE COURT:

Was there a police officer in the hospital

24

while she was in the hospital?

25

MS. GARMAN:

Yes.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0093

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 33 of 128
IAA5SHAC
conference

1

THE COURT:

2

MS. GARMAN:

3

THE COURT:

4

free to leave the hospital.

5

MS. GARMAN:

33

For the entirety of the time?
Up until June 16th.
In other words, for nine days she is not

That's correct but it wasn't -- the

6

police officers weren't prohibiting her from getting arraigned

7

in a timely fashion, it was the medical personnel, out of

8

concern.

9

THE COURT:

No, that doesn't follow.

They could have

10

sent somebody for -- it is not clear this is within the scope

11

of the claims in the case but I am puzzled, somebody could have

12

gone to the hospital during that nine-day period to arraign

13

her.

14

MS. GARMAN:

Well, they were trying to do that.

15

Apparently -- I'm not sure of why but they can't do bedside

16

arraignments at Mount Sinai and they were trying -- they

17

were -- again, this is all from the medical records but it is

18

very clear that they were trying to figure out where they could

19

send her to arrange for a bedside arraignment.

20

THE COURT:

I don't understand.

If there is a bed in

21

the hospital in Manhattan why didn't somebody just come to

22

Mount Sinai and arraign them?

23

bedside arraignments for people shot all over the city.

24
25

MS. GARMAN:

My colleagues here have done

Your Honor, I do not know.

I know Mount

Sinai is not a City hospital, I don't know if that has anything
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0094

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 34 of 128
IAA5SHAC
conference

1

to do with it.

34

That, I do not know.

2

Our concern is that there is going to be testimony

3

that she was in the hospital for some time and that she was

4

admitted to the hospital, and without being able to elicit

5

evidence that she -- that it was related to pre-existing

6

conditions in some fashion, the jury will be mistaken in

7

believing that she was there -- she was injured so badly by the

8

defendants that she needed to be there for 12 days.

9
10

THE COURT:

May I ask you another question?

Maybe the whole ruling is wrong because maybe, from

11

the plaintiff's perspective, it's less likely that she

12

initiated an altercation if she's on morphine or being treated

13

for cancer.

14

briefing on the point left something to be desired, maybe the

15

answer is it is just interwoven too much into the narrative

16

here and while I need to instruct the jury that if they find

17

liability, they need to sort out the damages attributable to

18

the unlawful conduct, not to her pre-existing condition and let

19

them sort it out as a matter of fact.

20

impossible to separate that thread.

21

In other words, maybe the answer is although the

MS. GARMAN:

Maybe it is just

I think that's right, your Honor.

I do

22

apologize if the briefing left something to be desired or

23

wasn't clear.

24

THE COURT:

The whole sequence of events is only

25

getting unspooled right now.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0095

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 35 of 128
IAA5SHAC
conference

1

MS. GARMAN:

35

Our concern, really, and the reason why

2

you have that motion in limine, was to preclude the terminal

3

nature of the cancer.

4

THE COURT:

5

MS. GARMAN:

I don't think we have an issue with --

I see.
-- with the jury with the proper

6

instruction.

7

had some testimony in her deposition that at one point in time

8

she was given 10 days to live or something to that effect, we

9

don't believe that those facts have any relevance.

10

Of course, the fact that it was terminal and she

THE COURT:

Well, I mean, not to be crass, but it's

11

not terminal yet.

It has been six and a half years so the jury

12

will know that any such projection was pretty wrong.

13

MS. GARMAN:

Certainly, your Honor.

14

And then the other point of the motion in limine,

15

which I do believe your Honor has also ruled on, is that we

16

don't want any suggestion that the cancer -- she was in

17

remission at the time.

18

defendants' actions caused her cancer to come back.

We don't want any suggestion that the

19

THE COURT:

So, let me be more precise.

20

What you are seeking is really a much more narrow set

21

of relief than your papers made clear.

22

terminal diagnosis to come in and you don't want any argument

23

that the cancer got worse because of the events of June 6.

24

MS. GARMAN:

25

THE COURT:

You don't want the

Yes, your Honor.
All right.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0096

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 36 of 128
IAA5SHAC
conference

1

36

Mr. LaBrew, I think the scope of my ruling, even if I

2

were to follow that, has been significantly narrowed.

3

you want to speak, I would be happy to get your perspective.

4
5

MR. LaBREW:

I see

Yes, I would like to clarify a few

things --

6

THE COURT:

7

MR. LaBREW:

Go ahead.

Microphone, please.

Yes, I would like to clarify a few things

8

and give the Court a brief offer of proof insofar as some facts

9

might have been not brought forth in the papers to give the

10

Court a clearer factual basis to flesh this out.

11

THE COURT:

12

MR. LaBREW:

Be my guest.
Shortly, just briefly, when the police

13

came in the house and they encounter Ms. Shaheed she had a

14

rollator.

15

THE COURT:

16

MR. LaBREW:

17

THE COURT:

One of those walkers?

18

MR. LaBREW:

Yes, sir, a walker.

19
20

She had a?
A rollator.

I guess that's what

they call it.
I'm not going to get into the facts, but basically

21

when the police encountered Ms. Shaheed, she was holding on to

22

a walker.

23

to put the picture in with the black eye.

24

ground, he got on top of her and was strangling her, she

25

grabbed his testicles.

Officer Kroski socked her in the eye -- we are going

Okay.

She fell on the

After all this fighting in the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0097

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 37 of 128
IAA5SHAC
conference

37

1

apartment, she was taken to the hospital, Mount Sinai Hospital

2

by the police.

3

Now, in the State of New York, under the Criminal

4

Procedure Law in New York City, a person's got to be arraigned

5

in 24 hours.

6

world doesn't come to an end if you are not arraigned in 24

7

hours but the general rule is 24 hours, and if it is not 24

8

hours if you suffered some type of damage or something like

9

that, you can make a claim for false imprisonment or whatever.

10

When she was taken to Mount Sinai Hospital she was in

It can be more, it can be less.

Okay?

And the

11

police custody.

12

I can state this as a matter of fact, in New York City they do

13

hospital arraignments which means a judge, a DA, and a defense

14

attorney get in a vehicle and go into a hospital and arraign a

15

defendant if they can't be brought to Court.

16

a defendant is in the hospital doesn't change the rule.

17

might be a little bit more than 24 hours but the rule still

18

applies.

19

In New York City, as an Officer of the Court,

So, the fact that
It

Now, as far as the argument that, or what was stated

20

that Mount Sinai Hospital didn't want to release her because

21

they were concerned would she get the proper treatment, that

22

argument is misplaced and totally incorrect on the laws.

23

a person is arrested in New York State, especially for a

24

felony, if they're in the hospital, the criminal justice system

25

takes over.

When

They're arraigned within 24 hours on the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0098

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 38 of 128
IAA5SHAC
conference

38

1

accusatory instrument.

If they're in police custody, the

2

Eighth Amendment case law specifically says -- I can't cite the

3

cases right off my head but you know all the cases, your

4

Honor -- that once a person is in police custody, the police

5

have an obligation to take care of their needs and whatever

6

they know about.

7

set up if someone needs extra care, meaning that they're taken

8

to Bellevue.

9

correctional facility, Rikers has medical services to take care

The City of New York has a specific hospital

Also, if a person is detained at a New York City

10

of a patient.

11

whatsoever to tell the criminal justice system with a criminal

12

defendant we are not going to let them go or we don't want to

13

release them.

14

person is in custody, they will appear before a judge in a

15

certain amount of time.

16

either be set on them or they will be released on their own

17

recognizance or they will be remanded and if they're in

18

custody, we have an obligation to take care of them.

19

In effect, a civilian hospital has no authority

The state steps in and takes over and says this

THE COURT:

They will either be -- bail would

Mr. LaBrew, let me cut you off.

This is

20

helpful and what you have proffered aligns with my

21

understanding.

22

a matter of what the proper procedure is.

23

coherent the explanation of why it wasn't on the police to make

24

sure that Ms. Shaheed was timely arraigned.

25

is in the hospital, if there is some cop there watching her, it

I am not disputing any of what you have said as
I did not find

The fact that she

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0099

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 39 of 128
IAA5SHAC
conference

1

39

is clear she is still in custody.

2

MR. LaBREW:

Correct.

3

THE COURT:

4

I think the issue is the lawsuit here has not been

Completely buying that.

5

about the failure to arraign her as a separate wrong.

The

6

lawsuit here is that she was falsely arrested.

7

falsely arrested then I think it follows that she was in

8

custody until whatever the day is, the 16th, the 17th,

9

something like that.

If she is

It's not, I think, that somebody else who

10

may well not have been these defendants, may have been a

11

prosecutor, failed to get her arraigned.

12

That's also not what this lawsuit is about.

13

That's a bad thing.

The point here is that if you prevail in demonstrating

14

to the jury that she was falsely arrested, you are on

15

absolutely fair ground to argue that she was confined, she was

16

imprisoned through and until whatever time, apparently the

17

date, the 16th that she is released.

18

that.

I have completely got

19

I think that gives you what you need.

20

MR. LaBREW:

21

Right.

And I'm not trying to go in --

you know, they brought up terminal cancer.

22

THE COURT:

23

MR. LaBREW:

Right.
I really see no -- the fact that she has

24

cancer, I think that is relevant.

I don't necessarily have to

25

go in that she has terminal cancer.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0100

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 40 of 128
IAA5SHAC
conference

1

THE COURT:

Look.

40

I think we are all in agreement

2

here, now that the facts have been unspooled for me, that the

3

fact that she has cancer and that she is receiving certain

4

forms of treatment including the morphine or the fact that she

5

uses the walker, this is all part of the scene setting, it is

6

part of the context, the jury needs to understand this.

7

fact that some doctor turned out, by the way wrongly, to

8

project that she was terminal or at least terminal any time in

9

the six years since June 12, that's irrelevant.

10

has nothing to do with the damages in this case.

11

MR. LaBREW:

12

THE COURT:

The

I mean, that
Agreed?

I'm not bringing that out.
And you are not going to argue that

13

whatever emotional damage she suffered, whether from the

14

alleged false arrest or imprisonment or the physical

15

mistreatment that is the basis of the excessive force assault

16

and battery claims, you are not arguing that the terminal

17

nature of her then diagnosis is germane to that, right?

18

MR. LaBREW:

No, your Honor.

19

Basically what I'm arguing is this, and I'm going to

20

be perfectly honest with you and I'm going to let the

21

defendants know exactly what I'm going to say and I'm just

22

going to put it right out here.

23

the police came into this apartment, they beat up everybody in

24

the apartment, that a woman came up to them with a roller, they

25

socked her in the eye and knocked her on the ground and

Basically, I'm arguing that

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0101

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 41 of 128
IAA5SHAC
conference

1

41

strangled her.

2

THE COURT:

3

MR. LaBREW:

Yes.
She was on morphine, she has cancer.

4

Okay?

5

she grabbed the officer's testicles to get him off of her.

6

After that they took her to the hospital, they didn't bring her

7

in front of a judge, she sat in the hospital for whatever

8

reason, whoever said what, she sat in the hospital for about

9

15, 16, whatever the days was, she sat there with a cop right

10

next to her so she couldn't go anywhere, okay, and she was the

11

one that was beat up by the cops.

12

She's got a black eye from getting socked in the eye and

THE COURT:

Right.

I got that and that's all fair

13

game.

The only question in that narrative, questions are, you

14

are committing, are you not, to not bringing out the fact that

15

she had a terminal diagnosis, correct?

16

MR. LaBREW:

No.

17

THE COURT:

Sorry.

18

MR. LaBREW:

19

No.

No.

Are you committing that you won't?

I am committing to that because I don't

need that.

20

THE COURT:

21

MR. LaBREW:

You don't need that.
What I am going with is cops came in

22

there and beat up a black woman with a roller, knocked her

23

down, blacked her eye, and she went to the hospital.

24

THE COURT:

All right.

A couple of things in there.

25

That's all, the fact that they beat her up and that
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0102

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 42 of 128
IAA5SHAC
conference

42

1

she was in this medical condition is obviously fair game and

2

frankly, you know, the jury is more likely to make certain

3

judgments about who the aggressor was if they're aware of the

4

conditions of the people at issue.

5

question that somebody on morphine and with a walker would have

6

attacked a cop.

7

impunity because no cop would hit back.

8

why we have juries.

It is not out of the

Maybe that person felt they could do so with
I don't know.

That's

9

MR. LaBREW:

Right.

10

THE COURT:

11

What are we going to do about the fact that she wasn't

The jury sorts that out.

12

arraigned, though?

In other words, the defense is not going to

13

dispute that she was in custody up until the time that I guess

14

the Desk Appearance Ticket issued; correct, defendant?

15

MS. GARMAN:

16

THE COURT:

That's correct.
The question is, it's not part of the

17

cause of action here that the defendants didn't give her an

18

arraignment in between.

19

there but (A) that's not what is pled here, and more to the

20

point, there is no evidence that's been proffered to me that

21

these defendants, who are the folks who were on the scene on

22

June 6, were the decision makers in failing to get her an

23

arraignment while she is in the hospital.

24

somebody fell down on the job and that lapse gives you the

25

ability to argue basically undisputedly that she remained in

Somebody violated proper procedure

In other words,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0103

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 43 of 128
IAA5SHAC
conference

43

1

custody through the Desk Appearance Ticket but I don't think it

2

is proper to say that the separate wrong of failing to arraign

3

her is germane here.

4

that she remained in custody through the Desk Appearance Ticket

5

which, I take it, is the 19th or the 16th.

6

MR. LaBREW:

7

THE COURT:

The bottom line is it is just undisputed

Yes.

I think it is the 16th or the 19th.

So whichever it is, it is either 10 days

8

or 13 days, whatever, you have got that window of time if you

9

establish the falsity of the arrest to show the confinement

10

that followed it extends until the Desk Appearance Ticket.

11

don't think it is fair game to, unless you are proffering that

12

there is evidence that these officers were the ones who decided

13

to deny her an arraignment during that window, to fault them

14

for that.

15

MR. LaBREW:

I'm not going to say that they denied her

16

arraignment because a police officer doesn't determine an

17

arraignment.

18

THE COURT:

19

MR. LaBREW:

Right.
The police officer just brings that

20

individual forth to the system and the system takes care of

21

arraigning them once an accusatory instrument is drafted.

22

THE COURT:

I

To be clear, I just want to make sure that

23

I am setting clear ground rules.

Terminal is out.

Length of

24

custody is in.

25

house are all in, but the fact that she was denied an

Facts and circumstances of what happened in the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0104

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 44 of 128
IAA5SHAC
conference

44

1

arraignment is not in.

2

was in custody up until the point of the Desk Appearance Ticket

3

procuring her release?

4

MR. LaBREW:

I expect it will be undisputed that she

Right, but there is a few nuances there.

5

I don't want to -- and I would come and ask for a side bar with

6

the Court before I would even say anything about this.

7

my issue:

8
9

Here is

We are going to bring up that when a person arrests
somebody, they're supposed to process them.

Okay?

And they're

10

supposed to process them and take them to court so that the

11

institutional part, as far as the court is concerned with the

12

prosecution, can begin.

13

a person forward in point in time where a criminal action

14

commenced, then the criminal justice system takes over.

15

I'm not going to argue that this individual Kroski prevented

16

her from getting an arraignment because he didn't have any

17

power to determine when she was going to be arraigned.

So, in effect, once the officer moves

18

THE COURT:

Right.

19

MR. LaBREW:

Okay.

20

THE COURT:

21
22

Now,

I mean, was the prosecutor at some point

made aware of the existence of this arrestee?
MR. LaBREW:

Yes.

As soon as the arrest was made then

23

that arrest would have been sent over to the Manhattan District

24

Attorney's office to the complaint room and then the complaint

25

room and the Court would have been notified that they have a
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0105

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 45 of 128
IAA5SHAC
conference

1

body in the hospital that needs to be taken care of.

2
3

45

THE COURT:

And that's the point.

That's why all of

this is out.

4

MR. LaBREW:

5

THE COURT:

Right.
In other words, because you didn't sue the

6

prosecutor, you didn't sue the people in the complaint room.

7

This lawsuit is, for better or worse, against three police

8

officers.

9

have been notified or after the prosecutor has been notified.

10

They are not accountable for what happens after they

MR. LaBREW:

Right.

So I'm not saying he stopped her

11

from getting arraigned.

12

hospital and she didn't get -- just the straight fact.

13

THE COURT:

I am just saying that she was in the

Look.

You are welcome to say that she was

14

in the hospital that whole period of time and that she was in

15

custody.

16

arraigned?

17

undisputedly in police custody for 10 or 13 days.

18

difference does it make that she was not arraigned?

19

defense lawyers are not going to argue that some Judge forced

20

her to be there and the bottom line is if the arrest was false,

21

it's undisputed that the period of confinement extends up until

22

the Desk Appearance Ticket.

23

of the failure to give her an arraignment is germane here.

24

is the length of custody that you care about and you have got a

25

great fact there.

What difference does it make that she was or wasn't
In other words, the relevant point is that she is
What
The

I don't understand why the detail
It

You have got 10 or more days.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0106

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 46 of 128
IAA5SHAC
conference

1

MR. LaBREW:

46

Well, I think it is germane for the

2

simple fact that the woman said in the hospital, for whatever

3

reason, and I'm not even pointing fingers at who is at fault,

4

but this is the United States of America, as y'all know, and

5

she was not brought in front of a judge.

6

THE COURT:

7

MR. LaBREW:

8

I got that.
So, that's all I want to bring out, that

she was not brought in front of the Judge.

9

THE COURT:

Sorry.

Forgive me, but I'm not going to

10

permit it and the reason is what you just said.

You don't care

11

who is at fault but this trial is about who is at fault.

12

not that these people work in the United States of America and

13

therefore they are responsible for the lapses of somebody else

14

in the system.

15

office.

16

if there is a timely suit that can be brought against them for

17

the failure to arraign, that could have been done and can be

18

done, if still timely.

19

matter of damages, the fact that the custody period extends as

20

long as it did is fair game in this suit.

21

arraignment was not initiated was, under no version of the

22

facts, the fault of these officers.

23

been proffered that the officer who is sitting watch at the

24

hospital is any of the defendants in this case.

25

no reason to even think that they are aware of the failure of

It is

You have told me that they alerted the DA's

If somebody in the DA's office dropped the ball here,

And it is certainly the case that, as a

The fact that an

In fact, it hasn't even

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

So, there is

A0107

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 47 of 128
IAA5SHAC
conference

1
2

47

an arraignment let alone the length of confinement.
So, the length of confinement is fair game but we have

3

to move on here.

I am precluding fact that she was denied an

4

arraignment.

5

that she was kept in custody.

6

you need for damages.

What is important is that she was denied release,

7

MR. LaBREW:

8

THE COURT:

9

MR. LaBREW:

10

THE COURT:

11

MR. LaBREW:

You have got that, that's what

Can I add one point, your Honor?
Go ahead.
Thank you for your patience.
Yes.
That police officer, an arresting

12

officer, his obligation doesn't stop when he makes the arrest,

13

he has got to process the arrest, and part of that duty is to

14

take steps to bring that person to a Court.

15

because in New York City, right down the street, when somebody

16

gets arrested and comes into the court, they are still in the

17

custody of the New York City Police Department until the New

18

York City Police Department meets its duty and that person

19

appears in front of a judge.

20

THE COURT:

The police do that

Okay, but you have told me that they

21

alerted the DA's office that there is somebody in a hospital.

22

That's discharging the duty.

23

then drops the ball, so be it.

24

MR. LaBREW:

25

If somebody at the DA's office

No, that's not -- they alert the DA's

office but even though the DA's office has been alerted, they
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0108

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 48 of 128
IAA5SHAC
conference

48

1

still have a duty to bring that personal to the Court to

2

process the arrest because the DA's office is alerted that an

3

arrest is coming in.

4

effectuate that arrest so that there can be a criminal

5

prosecution.

6

police officer comes to the DA's office and says this person

7

has been arrested.

The DA's office cannot even go forward until the

8

THE COURT:

9

MR. LaBREW:

10

THE COURT:

12

MR. LaBREW:

I believe she's committed -- it is the

Did your complaint get into this at all?
My complaint says she was falsely

arrested and falsely imprisoned.

14
15

Right.

same state and federal, she has committed X, Y, and Z charges.

11

13

The police officer still has to

THE COURT:

I understand that.

Did the fact of the

non-arraignment play in at all?

16

MR. LaBREW:

17

THE COURT:

No.
This is the final pretrial conference.

18

There is a new theory of wrong involving the failure to arraign

19

that is not being clearly pegged to these officers and I'm --

20

MR. LaBREW:

I'm not bringing this as a theory, your

21

Honor.

22

bringing it as a factual predicate.

23
24
25

I am not bringing this as a cause of action.

THE COURT:

I am

I understand it, but you are holding them

responsible for the failure to arraign and -MR. LaBREW:

No, not all, just -- I'm sorry for

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0109

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 49 of 128
IAA5SHAC
conference

1

49

interrupting.

2

The arresting officer, he doesn't control the

3

arraignment, he controls bringing the person to the

4

arraignment.

5

THE COURT:

6

Let me ask the defense counsel here, was a prosecutor

7

notified of the fact of the arrest and when did it happen?

8
9

One moment.

MS. GARMAN:
after the arrest.

Yes, your Honor.

It happened immediately

The officer did go to the hospital himself

10

for treatment but he went to ECAB, I believe, early that

11

morning.

12

THE COURT:

13

MS. GARMAN:

14
15
16

I'm sorry.

To what?

I'm sorry, I don't even know what ECAB

stands for.
THE COURT:

I need some real help from you guys.

You

have to explain this to me without code language.

17

What happened here?

18

MR. ARKO:

So, after the arrest was made, Officer

19

Kroski went back to the precinct and he started doing the

20

arrest processing and then he, himself, had to go to the

21

hospital for the injury he suffered to his testicles.

22

back to the precinct and he did not leave until he spoke to the

23

district attorney's office at the early case assessment bureau,

24

which is also known as ECAB.

25

arrest; I don't know when he first made contact but suffice to

He got

So, he did notify them about the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0110

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 50 of 128
IAA5SHAC
conference

50

1

say I believe the complaint was signed at 1:00 in the afternoon

2

on June 7th.

3

THE COURT:

4

MR. ARKO:

Complaint was filed by whom?
Signed by Officer Kroski and sent to the

5

district attorney's office, and then from there I don't know

6

exactly when it was filed with the Court.

7

Officer Kroski, essentially his involvement is finished, it is

8

up to the DAs at that point.

9

THE COURT:

10

Did any of the defendants here, were they

the ones watching the plaintiff while she was in the hospital?

11

MR. ARKO:

12

THE COURT:

13

But, at that point,

Not that we are aware of, no.
Is it correct that she was not arraigned

until the Desk Appearance Ticket on or about the 16th?

14

MR. ARKO:

She was released from custody and because

15

it is a Desk Appearance Ticket, she had to come back to court

16

at a later date which I think was July 19th.

17
18

THE COURT:
the 16th?

19

MR. ARKO:

20

THE COURT:

21

She was not released from custody until

Correct.
She was not arraigned at any time in

between?

22

MR. ARKO:

23

THE COURT:

That's correct.
Is it clear that that was a violation for

24

her to sit in the hospital for 10 days with a cop preventing

25

her from leaving?
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0111

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 51 of 128
IAA5SHAC
conference

1

MR. ARKO:

I can't speak to that.

51

I don't know if it

2

is the New York State Office of Court Administration's policy

3

about where arraignments can be done.

4

into the weeds there but I don't believe we have enough

5

information to say who specifically would make that call.

6

THE COURT:

I don't want to wade

Let's forget the who.

Put aside what I'm

7

going to do about it in the context of the trial.

Is there any

8

possible justification, under the law, for holding her in

9

custody for nine or 10 days before she is either released or

10

arraigned?

11

are in becomes relevant here even if it may not bear on the

12

trial evidence; that's clearly unconstitutional.

13

I mean, Mr. LaBrew's point about what country we

MR. ARKO:

I think that the -- in fact, I know from

14

review of the medical records there was a conversation between

15

hospital staff at Mount Sinai and I don't know what authority

16

it was, but I think someone either from the DA's office or the

17

Court, trying to arrange an arraignment, but it is my

18

understanding from a review of the records that Mount Sinai

19

Hospital was informed you cannot do a bedside arraignment at

20

that hospital, she had to be transported to Bellevue for that,

21

and they weren't able to -- the hospital was not able to

22

arrange the transport.

23
24
25

THE COURT:

Look.

I have heard enough to know the

following:
We are not going to get into a trial within a trial
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0112

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 52 of 128
IAA5SHAC
conference

52

1

about who is responsible for the lapse in arraignment.

2

seems to me rather clear, unless the defense wants to submit a

3

letter, that she was entitled to something better in terms of

4

somehow being arraigned or having a judgment made as to the

5

legitimacy of her being held.

6

magistrate on June 8th would have said, are you kidding me?

7

She is not risk of flight, she is not danger to anybody.

8

usual standards do not justify holding her in custody.

9

was a one-off situation prevented by the circumstance of her

10
11

It

It may well be that a neutral

The

This

children being taken.
I will tell you that if I were the Magistrate Judge or

12

District Judge hearing an appeal on bail condition I would not

13

regard her as a risk of flight or danger to the community.

14

is not a risk of flight because she is hooked up to morphine

15

and she is ill, and she is not danger to the community because

16

the only danger she presents is in the one-off situation when

17

somebody comes to the house even if they're legally there.

18

She

So, it seems to me pretty apparent that had some Judge

19

had occasion to pass judgment on this at an earlier time there

20

is everybody possibility she would have been released from

21

custody, at which point her being in the hospital would have

22

purely been a medically-driven event.

23

That said, there is indication that I am seeing that

24

these officers dropped the ball here and it would be a classic

25

trial within a trial inadmissible under Rule 403, to start
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0113

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 53 of 128
IAA5SHAC
conference

53

1

litigating who is responsible for it.

2

right outcome here is to state that it is undisputed that she

3

was in custody as a result of the arrest until her release on

4

or about June 16th.

5

plaintiff that that is so because I'm not going to let you,

6

defendants, try to break the causal chain as to damages by

7

claiming that she should have been released earlier but the

8

prosecutor messed up.

9

It seems to me that the

And, frankly, it is a gift to the

Frankly, this allows Mr. LaBrew to argue a longer

10

period of damages and you have made no contrary argument,

11

defendant, so you have waived any opportunity to go there.

12

But, it seems to me Mr. LaBrew gets everything he wants here

13

because he gets the entire period of custody as cognizable

14

damages.

15

wanted to litigate the issue that it was somebody else's fault

16

that elongated the period of custody -- not traceable to these

17

officers you could have -- but it is way too late for that.

18

Perhaps at some earlier time defendants, if you had

So, I'm going to preclude Mr. LaBrew from bringing out

19

the fact of no arraignment because it's not clear that that is

20

the custody of the officers, and I'm going to preclude the

21

defendants from -- sorry, I'm going to preclude Mr. LaBrew from

22

bringing out the fact that there is no arraignment because

23

there is no evidence that that is a lapse of the officers.

24

appears to have been somewhere in the confluence of prosecutors

25

or the hospital.

It

But, in any event, to explore that in front

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0114

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 54 of 128
IAA5SHAC
conference

54

1

of the jury would create a trial within a trial with all the

2

distractions and delays inherent.

3

I'm also not going to permit the defense to argue that

4

some portion of the period of time when she is at the hospital

5

is not properly left at the officer's doorstep because you have

6

waived the living day lights ought of that claim.

You didn't

7

even make that argument in your motion in limine.

All you

8

tried to do was get rid of the fact that the cancer has been

9

diagnosed as terminal.

The only reason the subject came up is

10

because I ruled an your terminal motion.

11

absolutely in fair game to argue that if there was a false

12

arrest here, the custody that flowed from it extended until

13

June 16th.

14

Okay.

15

MR. LaBREW:

16

THE COURT:

17

MS. GARMAN:

18

THE COURT:

Mr. LaBrew is

Am I clear?
Yes, your Honor.
Defense?
Yes, your Honor.
In a moment we are going to take a comfort

19

break but let me see if there is any other sequels from my

20

rulings on the motions in limine.

21

concerned about?

22
23
24
25

MS. GARMAN:

Anything else that you were

Yes, your Honor, and I do apologize.

I

am mindful that there is a lot to cover today.
With respect to your Honor's rulings about ACS, we did
have a couple points of clarification.

I don't know if you

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0115

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 55 of 128
IAA5SHAC
conference

1

want to take a break first.

2

THE COURT:

3

MS. GARMAN:

55

Let's finish that and then we will break.
So, as your Honor I believe is aware, the

4

underlying ACS -- the underlying allegation against Waheedah

5

Shaheed was that her minor daughter was cutting herself and

6

that Waheedah Shaheed was not getting her medical treatment.

7

We certainly do not seek to prove that that is true or litigate

8

the truth of that but in the context of providing background

9

that I believe is critical to this case, we do seek to elicit

10

the fact that those allegations were made and that Waheedah

11

Shaheed was informed of those allegations.

12

THE COURT:

Yes.

I thought that was clear.

In other

13

words, the background of what the nature of the allegation was

14

is fair game, it informs the mindset of both parties going into

15

the incident.

16

MR. LaBREW:

And similarly conversations, because we

17

do have an ACS worker that we intend to call as a witness and

18

her testimony would be regarding conversations she had with

19

Waheedah Shaheed regarding that investigation, and specifically

20

comments that Waheedah Shaheed made to the ACS worker.

21

THE COURT:

What comments?

22

Well, with respect to the ACS worker's -- the comments

23

that Waheedah Shaheed said to the ACS worker include such

24

things as:

25

agency.

I do not believe that ACS should exist as an

I do not care if you get a court order to come into my
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0116

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 56 of 128
IAA5SHAC
conference

56

1

home, you will have to find cops who are willing to taze me and

2

make me have a heart attack in front of my children.

3

going to face a lawsuit of mammoth proportions.

4

nature that I think speak very clearly to her intent on the

5

date of the arrest.

6

THE COURT:

Look.

You are

Things of that

This is why I think I clearly ruled

7

that the context of the ACS visit is fair game but we are not

8

going to litigate the validity of whether the kid was or wasn't

9

cutting the kid's self.

That is out of bound, it is not a

10

family suit.

11

officers as well as the arrestees, is clearly fair game as to

12

what the investigation was about and what the purposes were of

13

the visit, as well as if these statements really happened you

14

are at liberty to elicit that she said she was going to disobey

15

valid process.

16

that but if I wasn't, I hope I am being clear now.

17
18

But, the understanding of each party, the

That's fair game.

MS. GARMAN:

I hope I was clear about

You were, your Honor.

I wanted to,

before we went into something before the injury --

19

THE COURT:

My point is I'm not going to allow, to be

20

litigated, the validity of the order that permitted the

21

officers to enter.

22

but one of them is not resisting execution of a lawful court

23

order.

24

valid court order, that bears on whether or not they may find

25

any or all of the causes of action here.

Ms. Shaheed has forums to challenge that

She may, if the jury finds that she interfered with a

I don't know what the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0117

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 57 of 128
IAA5SHAC
conference

57

1

facts will be, but she can't take the law into her own hands

2

and seek to disobey the order.

3

Now, it may be that the officers came in and punched

4

her in the face.

That is a different story.

That obviously,

5

if that is correct, as Mr. LaBrew proffers, that's a different

6

story.

7

she is entitled to disobey it.

8

MS. GARMAN:

9

Somewhat relatedly, we want to clarify, we do seek to

But what can't be argued is this is an invalid order,

Understood, your Honor.

10

elicit testimony and evidence regarding Waheedah Shaheed's

11

prior involvement with ACS in the past.

12

THE COURT:

Was this in one of the motions in limine?

13

MS. GARMAN:

It was not, your Honor, and we -- it was

14

certainly contained in documents we produced during discovery

15

so we were surprised that Mr. LaBrew did not move to preclude

16

it, but we just want to make sure, again, so that there are no

17

surprises at trial.

18

THE COURT:

Right.

I will be glad to hear you now but

19

for future reference, this is sort of the reason we have

20

motions in limine.

21

should refer to you at trial, how do I not, and what I should

22

do with the caption of the case, how is it that prior dealings

23

with ACS wouldn't have been a much more relevant subject to get

24

an advance Court ruling on?

25

With all the motions I got about how we

MS. GARMAN:

Apologies, your Honor.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0118

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 58 of 128
IAA5SHAC
conference

58

1

Given that your Honor is very clear that you want to

2

keep this trial contained, in an abundance of caution we want

3

to make sure if we are eliciting evidence as impeachment your

4

Honor --

5

THE COURT:

I'm sorry.

Is this impeachment?

I don't

6

understand.

Why don't you proffer the evidence that you have

7

in mind is and then explain to me what it is relevant to.

8

MS. GARMAN:

Certainly, your Honor.

9

At her deposition Waheedah Shaheed denied ever having

10

had her children removed by ACS before.

11

her children removed by ACS on two prior occasions so it is

12

relevant in the first instance because it goes directly to her

13

credibility contradicting a statement she made under oath in

14

this case.

15

her personal beliefs about ACS, speak to her state of mind at

16

the time when she was resisting the lawful order from the

17

Family Court.

18
19
20
21

Also relevant given that her, again her intentions,

THE COURT:

MS. GARMAN:

Simply that she previously had her

children removed from her on two prior occasions.
THE COURT:

23

MS. GARMAN:

25

How much information, how much are you

going to seek to bring out about her prior dealings with ACS?

22

24

She, in fact, has had

Same children?
She has four children.

I think one time

two of them were removed and then the second time all four.
THE COURT:

Will you be bringing out what the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0119

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 59 of 128
IAA5SHAC
conference

59

1

condition was of the children the prior times or just the fact

2

that they were removed?

3

MS. GARMAN:

4

THE COURT:

Just the fact that they were removed.
And you are offering that because it bears

5

on the likelihood that she would resist the third time?

6

show that her denial of same in the deposition speaks to her

7

truthfulness?

8

Or to

Or both?

MS. GARMAN:

The latter, the denial of it speaks to

9

her truthfulness but also not that she's more likely to act in

10

conformity with prior bad acts but that she has an axe to grind

11

with ACS; she did not like them, consistent with statements

12

that she made she doesn't respect their authority.

13

THE COURT:

Let me see if I have this right.

14

years were the prior removals?

15

MS. GARMAN:

16

THE COURT:

What

1999 and 2003.
And what you say happened is in those two

17

years ACS removed her children.

I take it there is no claim or

18

evidence that there was any incident at the threshold then,

19

they simply removed the children?

20

MS. GARMAN:

Not entirely true, your Honor.

21

During the second incident, the second removal in

22

2003, Ms. Shaheed and Daghrib Shaheed, the other plaintiff in

23

this case, were both arrested because Ms. Waheedah Shaheed had

24

Daghrib take her siblings out of foster care and return them to

25

Ms. Shaheed's home.

They were both arrested for that and we

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0120

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 60 of 128
IAA5SHAC
conference

1
2

certainly seek to elicit that fact as well.
THE COURT:

Wait a minute.

Are you kidding me?

3

you kidding me?

4

arrest without giving me notice in a motion in limine?

5

Are

That you are going to try to elicit a prior

MS. GARMAN:

Your Honor, we do apologize.

6

gotten this information since the filing.

7

resubmitted --

8

60

THE COURT:

Sorry.

We have

We should have

We are going to take a break right

9

now so I don't say anything untoward but I expect a lot better.

10

You have spent all this time with motions about how you should

11

be referred to in court and you don't have the dignity to share

12

with me in advance of this hearing and this ruling that you are

13

going to try to a bring out a prior arrest?

14

MS. GARMAN:

15

THE COURT:

16

unprofessional.

Your Honor.
This is federal court.

It is out.

17

MS. GARMAN:

18

THE COURT:

19

(recess)

20

THE COURT:

It is out.

It is

It is not going to be allowed.

Yes, your Honor.
I will be back in five minutes.

Look.

When we broke I had been just

21

alerted by Ms. Garman that the City's hope is to elicit the

22

fact that Ms. Shaheed had obstructed a prior Court order by

23

essentially getting her kids improperly removed from some form

24

of custody.

25

intended to offer that in evidence at this trial?

When did you first tell plaintiffs counsel you

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0121

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 61 of 128
IAA5SHAC
conference

1
2
3
4

MS. GARMAN:

Your Honor, we did not specifically do

so.
THE COURT:

Did you generally do so?

MS. GARMAN:

6

THE COURT:

7

When did you first learn about this?

9

Is the answer

you didn't do so?

5

8

61

We did not do so.
Thank you.
Did it come up

in the deposition?
MS. GARMAN:

Your Honor, it was contained in ACS

10

records that were produced, I believe, before both Mr. Arko and

11

myself got on the case so I don't specifically --

12
13
14

THE COURT:

How many months ago did the City's legal

team on this case have those records?
MR. ARKO:

I'm not sure the exact date.

I know it was

15

sometime -- my understanding is sometime in the year, either

16

late 2016 or early 2017.

17

THE COURT:

Look.

I appreciate that you have the

18

unfortunate lot of being the people who come late to a case in

19

which a woman with terminal cancer gets a black eye at the

20

hands of the police and it is a challenging case to defend in

21

some respects, but all the more reason to avoid unfair

22

surprise.

23

a year and three quarters with the knowledge that there has

24

been prior incidents with ACS.

25

children were previously taken by ACS.

I mean, you know.

The City has been chargeable for

It's one thing to say that her
That is one thing and I

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0122

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 62 of 128
IAA5SHAC
conference

62

1

am subject to hearing from Mr. LaBrew, very much open to that

2

as relevant context.

3

at some prior time is why we have motions in limine, and you

4

can understand the extreme unfairness to Mr. LaBrew and his

5

client to spring this on him and me, let alone through the back

6

door.

7

you if anyone had any follow-up to my rulings in limine and we

8

started talking about terminal cancer.

9

that you didn't even come here with a game plan now to raise

The idea that she engaged in misconduct

The only reason this came out now was because I asked

10

this issue but it is way too late.

11

so unfair to the plaintiff.

12

But, it appears to me

Way too late.

It is just

If you were in his shoes you would say, your Honor, I

13

need to develop context.

14

it is a bad act.

15

offered for character as opposed to motive, intent, knowledge,

16

preparation, absence of mistake, plan.

17

The 404(b) is almost the quintessential motion in limine.

18

This is a classic 404(b) situation,

I would like to litigate whether it is being

Something like that.

What was the thought process of deciding not to

19

include this fact that was known to the legal team since the

20

Obama administration?

21

MS. GARMAN:

Your Honor, and again we do very much

22

apologize for bringing this to your Honor's attention.

I do

23

note I certainly was absolutely going to mention this today, it

24

was on my list of things to mention.

25

not going to surprise anyone with this at trial.

So, in any event, we were

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0123

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 63 of 128
IAA5SHAC
conference

63

1

We only just received confirmation that these arrests

2

were not sealed I believe earlier this week, if not yesterday.

3

So, we do have new information that was not available even at

4

the time of the making of the motions in limine.

5

said, we certainly respect and understand your Honor's ruling.

6

Just --

7

THE COURT:

That being

But, in fairness, you are not telling me

8

there wasn't a way that -- you are not telling me that the fact

9

of whatever you have just learned about the sealing prevented

10

you from sharing with me or opposing counsel the possible bid

11

to offer this evidence.

12

alert a Court to doing so without putting something on the

13

docket of the case.

14

to brief something that was, for the time being, redacted

15

because it included information confidential about the children

16

or something there is every ability to do that, everyone does

17

it.

18

I mean, there are many ways you can

If you needed to ask for the opportunity

Let me try it a little differently.

When did you

19

first begin to consider offering or trying to offer this

20

evidence in trial?

21

it?

22

When is the first time you gave thought to

MS. GARMAN:

In connection with preparing for the

23

trial.

24

within the past few weeks of getting acquainted with the file.

25

I don't know that I know the specific date but it is

THE COURT:

When were you assigned to the case?

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0124

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 64 of 128
IAA5SHAC
conference

1

MS. GARMAN:

2

THE COURT:

3

A month ago?
When, Mr. Arko, when were you assigned to

the case?

4
5

64

MR. ARKO:

I put in a notice of appearance in June of

2017.

6

THE COURT:

So you have been with the case -- maybe my

7

fire needs to be trained a little with respect on you but the

8

trial team has apparently had this ACS file that reflects the

9

theory of misconducted by Ms. Shaheed for a better part of two

10

years.

11

are a collective, you are a unity.

12

at this and say, This is blockbuster evidence, this is what she

13

does, Ms. Shaheed is a disobeyer of child services.

14

incredibly probative.

15

the facts showed, it would have been great evidence.

16

problem is that, back to Mr. LaBrew, this is America, that

17

means the Rules of Evidence apply, there is a sense of fairness

18

and notice.

19

if you were proposing to offer that because Mr. LaBrew would be

20

entitled to brief this very explosive issue.

21

Fully respecting Ms. Garman's lot as the newcomer you
Somebody didn't take a look

It is

With proper notice, depending on what
The

There is no chance we could hold a trial next week

I expect a lot better.

I'm a City resident.

You are

22

going to lose this case more likely than you would have had

23

there been -- and maybe for a lot of money given who gets beat

24

up here, you know, and you had this wonderful piece of evidence

25

which is that the plaintiff claimant in the case has apparently
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0125

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 65 of 128
IAA5SHAC
conference

65

1

disobeyed or circumvented Child Services orders before and it

2

comes out through the back door today.

3

MR. ARKO:

Your Honor, just to clarify.

The existence

4

of the arrest and the prior ACS history were in the ACS records

5

that were produced to Mr. LaBrew over a year ago.

6

THE COURT:

Be that as it may, you know, it is on you

7

to try to offer bad acts.

8

Mr. LaBrew?

Yes or no.

9

MS. GARMAN:

10

THE COURT:

No, your Honor.
Was that a deliberate decision?

11

aware of Rule 404(b)?

12

with the case longer.

13
14
15

Did you give 404(b) notice to

Were you

I am asking Mr. Arko because he has been

I mean, I really don't like blaming Mr. LaBrew for
this.
MR. ARKO:

Yes, your Honor.

I'm not trying to blame

16

Mr. LaBrew.

17

and didn't seek to exclude it so it is not something we

18

necessarily thought to make a motion in limine about because

19

there was no effort by Mr. LaBrew to keep it out.

20

something he didn't know about or was unaware of.

21

It is that we felt he was on adequate notice of it

THE COURT:

So, it's not

But I've got a gate keeper rule and 404(b)

22

is about as big as it gets in terms of a Court's independent

23

obligation to police stuff.

24

Mr. LaBrew didn't think to preclude it you were going to

25

blithely offer it at trial and then we would have a side bar to

Is it really the case because

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0126

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 66 of 128
IAA5SHAC
conference

1

66

end all side bars working through what happened?

2

MS. GARMAN:

Your Honor, we were not intending to

3

blithely -- we were intending to raise it with your Honor

4

today.

5

understand the Court's frustration.

6

We will not belabor this point.

We certainly

Just for the record, both of the plaintiffs in this

7

case denied ever previously being arrested and in addition to

8

the other reasons, we believe this is relevant.

9

Honor agrees, it is incredibly probative it is also incredibly

10

probative of their credibility and their understanding of the

11

oath that they've taken to tell the truth.

12

THE COURT:

All right.

And, as your

Let me be precise about this.

13

I don't know what the facts would ultimately be about these

14

episodes but apparently your proffering that these two

15

defendants, Waheedah in 1999 was arrested in connection with

16

resisting, I guess, a child removal order and then in 2003 that

17

Daghrib circumvented an order by removing the kids?

18

MS. GARMAN:

19

In 2003 they were both arrested for circumventing the

20
21

No, your Honor.

order.
THE COURT:

Okay.

Look.

There would be a very

22

interesting discussion about whether or not this comes in

23

because we need to understand the facts and circumstances.

24

is nine years later, that's longer than one usually admits for

25

similar act, and on the other hand it may be very similar in
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

It

A0127

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 67 of 128
IAA5SHAC
conference

67

1

the sense that it's probably the same kids and ACS.

2

would be an interesting discussion about whether or not the

3

balance of probative value versus unfair prejudice and

4

confusion favors admission.

5

This would be complicated.

There

I need a real portrait of

6

who is testifying about what, in detail.

But, I was denied

7

that and, as a result I, as a citizen of this City, are going

8

to be paying more money if you lose this case because you

9

didn't give a Federal Court notice of your desire to put in

10

evidence what might be among your most powerful evidence.

11

need to tell your supervisors about this because this is not --

12

this is Federal Court, it is not kangaroo court, and it just

13

grossly unfair to Mr. LaBrew and his clients, it is grossly

14

unfair to the Court because I, if it isn't already obvious with

15

all the trials that your colleagues have had in front of me, I

16

appreciate advance notice and come up with thoughtful rulings

17

based on briefing and, most of all, it is unfair to the

18

citizens of New York who are going to have their

19

representatives litigating with one hand tied behind their back

20

because of a lapse of basic notice.

21

You

So, the answer is, unfortunately, the fact of prior

22

arrests in connection with child removal activity is out.

It

23

has to be out because basic fairness to Mr. LaBrew's clients

24

demands that.

25

prior removals because that certainly goes to -- that's not a

I will entertain the idea that there had been

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0128

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 68 of 128
IAA5SHAC
conference

68

1

bad act primarily on behalf of the Shaheeds, it goes to their

2

motives and intentions as to why they might tend to resist ACS,

3

they had been down this road before.

4

act of a prior crime, because there is no question, what you

5

are claiming that the Shaheeds did in the past was not merely

6

get arrested, you are claiming they committed a crime which is

7

what led them to get arrested, is as powerful 404(b) evidence

8

as it gets.

9

a close review as to whether it's character, whether it is for

10

some permitted element and the balance of factors and you have

11

prevented a thoughtful decision on that so I have to exclude

12

it.

Prior criminality.

But, the very pungent bad

And I would have to really do

13

MS. GARMAN:

Yes, your Honor.

14

THE COURT:

I mean, I'm sorry.

And, Ms. Garman, I am

15

particularly sorry because you are the newcomer here.

16

fault, if I may, lies earlier in the process because the

17

motions in limine were filed more than a month ago and this

18

was, for all of the ticky-tack motions in limine which I was

19

happy to rule on, there is the 800-pound gorilla of we would

20

like to prove up the prior crimes of the two difficulties

21

acting in concert in connection with ACS and their children,

22

somehow went unbriefed.

23
24
25

MS. GARMAN:

Your Honor, I appreciate that.

The real

We share

responsibility and do apologize.
THE COURT:

All right.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0129

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 69 of 128
IAA5SHAC
conference

1

69

Mr. LaBrew, the open question for you and then we need

2

to move on, is the fact of the prior removals by ACS, not the

3

arrests but the fact of the prior removals.

4

for excluding that?

5

MR. LaBREW:

Is there a basis

I have to look and get more information

6

about that, your Honor.

7

any prior removals.

8

actually looking at their rap sheets when they were in criminal

9

court they have no -- nobody's been convicted of a crime.

10

THE COURT:

I had no in depth information about

My information about both plaintiffs from

Sorry.

Mr. LaBrew.

If you want to reopen

11

the ruling that I just made in your favor you are welcome to do

12

so.

13

MR. LaBREW:

14

THE COURT:

No.

No.

I asked you a different question and the

15

different question was because I will not permit to be elicited

16

the fact of the prior arrests of your clients but the fact that

17

the children had previously been removed from them by ACS is a

18

different thing.

19

breakers, it has a much different probative value of showing

20

that they had prior experience with ACS.

21

motive, it is also potentially germane as to their awareness of

22

the lawful process that is ACS.

23

level of perhaps confusion, maybe, maybe not they have a claim,

24

but it doesn't have the pungent risk of unfair prejudice of a

25

claim of prior criminality.

That does not tend to tar them as law

That's germane as to

They can't claim the same

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0130

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 70 of 128
IAA5SHAC
conference

1

70

Is there a basis for excluding the fact that, putting

2

aside an arrest, that children had previously been removed by

3

ACS from these parents?

4

MR. LaBREW:

Yes, your Honor.

The probative value of

5

403 is outweighed by substantial prejudice.

6

factual basis on what allegedly happened with these alleged

7

prior removals, what was the basis of these alleged prior

8

removals, what actually even happened with regard to any of

9

these incidents.

10

There is no

The next question is what are they trying to show with

11

this information.

12

character, that's highly prejudicial.

13

to show some type of propensity for wrongdoing.

14

that what that would demonstrate or what that would inject into

15

this trial with the jury would be highly prejudicial.

16

Okay?

THE COURT:

If they're just trying to show bad
And then it also tends
And I think

Let me get a distinct depiction from the

17

plaintiff, now that I have ruled out the arrest, through whom

18

would you be eliciting what information about the prior

19

removals of the children?

20

MS. GARMAN:

I would seek to question Ms. Shaheed

21

herself about it and only about the fact that there were these

22

prior removals.

23
24
25

THE COURT:

You would just be saying, Isn't it a fact

that in 2003 ACS removed children from your house?
MS. GARMAN:

Correct.

Maybe identify the children,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0131

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 71 of 128
IAA5SHAC
conference

1

but yes.

2

THE COURT:

3

MS. GARMAN:

4

THE COURT:

5

MS. GARMAN:

7

THE COURT:

9
10

Correct.
Not for whatever reason, nothing else.
You are not going to be getting into their

being arrested or circumventing because that's out.

6

8

71

Correct.
But you would be establishing that the

children were removed and that she did not like it.
MS. GARMAN:

Yes, your Honor.

And we also potentially would elicit the similar

11

information from the ACS worker who is assigned to the current

12

case, based on her review of --

13
14

THE COURT:

say based on her review of the file?

15

MS. GARMAN:

16

THE COURT:

17

Does she have -- I think are you about to

Yes.
How is she competent to -- I mean that's

hearsay, right?

18

MS. GARMAN:

She will testify --

19

THE COURT:

As something she read?

20

MS. GARMAN:

Yes, your Honor, but I think in that

21

sense we would be eliciting it for not for the truth but for

22

her -- what she --

23

THE COURT:

You care about it only for the truth.

24

What you care about is once it is accepted that twice before

25

these children had been removed from ACS, once one accepts that
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0132

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 72 of 128
IAA5SHAC
conference

72

1

as a truthful fact, it is significant motive evidence for you.

2

It explains the mindset that the Shaheeds bring to this

3

incident.

4

it is for the truth that if it is not taken as true, who cares

5

about what the mindset is of the ACS person.

6

relevant if one accepts it, that this historical event

7

occurred, right?

8

I completely understand that, but it is only because

MS. GARMAN:

Yes, your Honor.

It is only

The ACS worker will

9

testify that when she's assigned a case as part of her work on

10

the case she needs to get a background, to have knowledge about

11

the family's prior involvement with ACS.

12

which informs her, what she does and how she approaches

13

investigating this case.

14

anticipate that Ms. Shaheed is going to again, as she did

15

previously under oath, is deny these prior removals.

We would simply --

The issue, your Honor, is that we

16

THE COURT:

Then prove them up in response.

17

In other words -- look.

If you can get competent

18

evidence of the prior removals for the truth of the matter

19

asserted be my guest, but I'm not persuaded -- it would have

20

been useful to have the point briefed -- that somebody who has

21

read a file can offer that for the truth of the matter asserted

22

and to offer it through the back door by saying it's not for

23

the truth of the matter asserted but it is how I got prepared,

24

doesn't really respond to what you are trying to use this for.

25

You care about this because it explains Ms. Shaheed's state of
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0133

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 73 of 128
IAA5SHAC
conference

1

mind.

2

going second, you can put it in anyway but you just need a

3

competence witness.

73

Ms. Shaheed may deny it in which case, you know, you are

4

MS. GARMAN:

Yes, your Honor.

5

Well, the ACS worker would be able to lay a foundation

6

for the actual underlying records which would be admissible

7

under the business records.

8

THE COURT:

9

I hope you are right but I'm not going to

take a side bar for that.

10

time.

11

joint pretrial order?

Were those part of the evidence that you offered in your

12
13

You need to get this right the first

MS. GARMAN:

No, your Honor.

It would simply be

impeachment if Ms. Shaheed denies having this happen.

14

THE COURT:

During her deposition was she asked the

15

question whether her children had previously been removed by

16

ACS?

Is.

17

MS. GARMAN:

Yes.

18

THE COURT:

19

MS. GARMAN:

No.

20

THE COURT:

Okay.

21

MS. GARMAN:

Correct.

22

THE COURT:

So, look.

What did she say?

And that's untrue you say?

Ms. Shaheed is, under the joint

23

pretrial order, the Shaheeds are testifying first.

Mr. LaBrew

24

is not offering to call your clients, you are calling your

25

clients.

So, Mr. Shaheed calls his clients, you cross, they
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0134

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 74 of 128
IAA5SHAC
conference

We now move to your case.

74

1

deny.

Apart from what the plaintiff

2

clients will testify about as to the defense and the events of

3

June 6, you are at liberty to establish not merely to impeach

4

but as substantive evidence the fact of the prior arrest,

5

subject to my completing the colloquy that I'm in the middle of

6

with Mr. LaBrew in my 403 ruling but, as you can tell, my

7

instinct is to believe that the prior arrests, if

8

competently -- excuse me not the prior arrests, the prior

9

removals of children, if competently established, are fair game

10

under Rule 403.

I'm trying to understand how you are going to

11

do that, though.

Why don't you call somebody who removed the

12

kids?

13

I mean, let's get the eye witness.
MS. GARMAN:

My hesitation is that someone who removed

14

children in 1999 or 2003 is not someone we will be able to get

15

but that's our problem.

16

THE COURT:

17

MS. GARMAN:

18

THE COURT:

Have you tried?
No.

We have not, your Honor.

Let me ask you a question.

If you haven't

19

tried, how were you going to get the arrests in?

20

having somebody talk about the review of some records?

21
22
23

MS. GARMAN:

Just by

Your Honor, we were going to

cross-examine Ms. Shaheed about them.
THE COURT:

And apparently she was going to deny it

24

because if she denied the arrest, the removals, was she also

25

going to a deny the arrests?

The problem is you are hoping

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0135

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 75 of 128
IAA5SHAC
conference

75

1

that Ms. Shaheed is going to say a bunch of stuff that you have

2

no confidence she is going to stay, particularly as it relates

3

to the removals where she denies that ever happened.

4

denies that that happened, why is she going to acknowledge

5

interfering with the removals or being arrested for interfering

6

with those removals?

7

MS. GARMAN:

If she

With respect to the ACS removals and the

8

information about her interference with those removals, that is

9

contained in records that we believe we can lay a business

10

record foundation for, that we would admit as impeachment

11

evidence.

12

THE COURT:

All right.

If you are offering it as

13

impeachment evidence then all you are saying is that the fact

14

of the prior removals is not relevant for the fact that there

15

were prior removals just to show that she is a liar.

16

puzzled here because a lot more thought needs to go into this.

17

I mean if, from the City's perspective, the fact that there

18

were prior removals is substantive important evidence, the fact

19

that there were prior removals you presumably mean to argue

20

affects the state of mind and the knowledge base and the

21

intentions of somebody resisting a subsequent removal.

22

been there before, it was unfun, they resisted this time.

23

That's not because of impeachment, it explains how they are

24

oriented or helps explain their state of mind.

25

gentlemen, she's had her children removed twice before, this

I'm

They've

Ladies and

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0136

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 76 of 128
IAA5SHAC
conference

1

time she decided to resist.

2

impeachment.

3

going to get the fact before the jury?

4

76

But that's not because it is

And the issue is really ultimately how are you

Let me try it this way.

I'm going to make a ruling

5

today based on the premise that you have competent evidence of

6

the fact of the prior removals.

7

point that you have lined that up.

8

of getting the competent evidence, a percipient witness to the

9

removals would be an obvious way.

It is not clear to me at this
One can hypothesize means

An appropriately certified

10

business record would be another obvious way.

11

caseworker read some notes, barring more, is not, by any means,

12

clearly a competent way any more than if I read to you some

13

note before me that would be admitted for the truth of the

14

matter asserted.

15

Having some

And so, I'm going to give you until the close of

16

business Thursday to write me a letter explaining the means by

17

which you intend to put this in evidence because I want to rule

18

on this before we have a jury here.

19

MS. GARMAN:

20

THE COURT:

Yes, your Honor.
That's the best way to do this, that way

21

you focus on it.

But, assuming for argument's sake that you

22

can get into evidence the fact that twice before her children

23

were removed, explain to me the arguments you would make to the

24

jury from that fact.

25

MS. GARMAN:

That Ms. Shaheed has very strong feelings

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0137

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 77 of 128
IAA5SHAC
conference

77

1

about ACS; she does, based in part on the fact that they have

2

removed her children on two prior occasions, she lied about

3

that at her deposition, and she had every motive and intention,

4

including with based on the statements that she made to the ACS

5

worker about her intentions, of not complying with the Court

6

order, that she had every motive and every intention on June 6,

7

2012, to resist any efforts to remove her children on that day.

8
9

THE COURT:

Will the records or other evidence that

you anticipate bringing to bear about the prior removals unpack

10

the duration of the prior removals?

11

acted to circumvent them, is the duration something that you

12

are going able to get into evidence?

13
14
15

MS. GARMAN:

Putting aside whether she

We don't actually have that information

at this moment.
THE COURT:

So as the jury in our case will be left,

16

it will unclear whether it was a day, a week, a month.

17

don't know.

18

MS. GARMAN:

19

THE COURT:

20
21
22
23

We just

That's correct.
Do you think you are going to be able to

fill that gap or that is something you still don't know?
MS. GARMAN:

We don't know.

We will certainly try to

get as much information as we can.
THE COURT:

Mr. LaBrew, briefly, I am inclined to

24

admit the fact of prior removals if it can be established by

25

competent evidence.

Accept the "if for now" because I haven't

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0138

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 78 of 128
IAA5SHAC
conference

78

1

received a letter from the City yet -- sorry to call you guys

2

the City but it is just among friends without the jury.

3

don't know the means by which they're going to get that in but

4

I'm assuming, for argument's sake, they will be able to solve

5

that evidentiary problem.

6

competent evidence, establish the fact of prior removals but

7

that any misconduct or any response by the Shaheeds is out,

8

what's the basis for excluding that?

We

Assuming that they can, through

9

MR. LaBREW:

10

coming up at the last minute.

11

that the City wants to proffer regarding these alleged prior

12

removals, if they in fact occurred.

13

what circumstances they occurred.

14

that the Court made in the case because they haven't really

15

specified what children this is related to, okay, so

16

theoretically speaking, if you are talking 10 or 15 years ago,

17

you must be talking about the children that are actually going

18

to testify on the stand that were in the apartment when the

19

June 6 incident happened because Waheedah Shaheed said --

20

THE COURT:

It is prejudicial, your Honor.

Sorry.

This is

I don't know all of the facts

I don't know what, under

That implicates other orders

What difference does it make

21

whether it is the same children, some of the same children, or

22

earlier children?

23

removing her children, why doesn't that directly bear on her

24

motives and state of mind when the next ACS visit looms?

25

I mean, if she's had an experience of ACS

MR. LaBREW:

Well, first, it is collateral.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

We

A0139

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 79 of 128
IAA5SHAC
conference

1

believe it is collateral.

2

Second --

3

THE COURT:

4

79

Collateral doesn't mean it is admissible

or inadmissible, it just means it is a separate incident.

5

MR. LaBREW:

6

THE COURT:

Right.
But, prior history is routinely admitted.

7

The issue is explain to me what the unfair probative value is

8

of the prior removals.

9

not to form a judgment in this case based on it is not about

10

their child care and so the fact that there may have been an

11

earlier basis to believe that the Shaheeds had been lousy

12

parents -- my words now -- doesn't bear on whether or not they

13

were falsely arrested.

14

to the earlier times.

15

instruction that clearly focuses them on the fact that they are

16

not here being punished for child endangerment.

17

MR. LaBREW:

I will instruct the jury that they're

And that is equally true as to 2012, as
They will already be getting an

Yes, but that instruction, if this

18

evidence comes out, that instruction will be totally

19

meaningless.

20

put forth on the stand then what we will have is a mini trial

21

concerning child care and ACS and what happened in the past

22

because, automatically, when they start talking about some type

23

of alleged removals in the past that are unrelated to this

24

case, automatically I'm going to have to address issues as to

25

what was this all about, what happened here, who did this

We submit that if what they are trying to do is

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0140

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 80 of 128
IAA5SHAC
conference

1

80

involve, what removals are you even talking about.

2

THE COURT:

Well, look.

I assume that the defense

3

will be able to put dates on the removals and it sounds like it

4

is a very brief -- we will see the means by which it comes in

5

but it ought to be a very brief portion of the testimony

6

establishing simply the fact of two prior removals.

7

I have heard enough to rule and we need to move on.

8

will, subject to a sound evidentiary basis for admitting the

9

fact of prior removals, I will permit the defense to establish,

10

as substantive evidence, the fact that children of Waheedah

11

Shaheed, which I take it would mean therefore a sibling of

12

Daghrib Shaheed, were removed from the house.

13

permit the year in which the removal took place and the fact

14

that it was at the hand of ACS.

15

the period of time covered by the removal, all that comes in.

16

However, any misconduct by either of plaintiffs in connection

17

with the removal is categorically out for the reasons I have

18

covered at length and the reason I am making this rule is,

19

under Rule 403, the following:

20

I

I will further

If the City is able to capture

The fact of prior removals of children from these very

21

people, a memorable and significant event, clearly is germane

22

to the motives and state of mind of them as an ensuing removal

23

looms.

24

are being attributed to the Shaheeds that Ms. Garman proffered

25

earlier.

It also tends to corroborate the oral statements that

The fact that there had been this prior experience
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0141

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 81 of 128
IAA5SHAC
conference

81

1

clearly makes it more likely that the Shaheeds would come to

2

this later removal with a resistant frame of mind and that

3

frame of mind is directly relevant to who the aggressor was

4

when the officers get to the apartment.

5

permit that.

6

So, I'm going to

I am mindful that there is some degree of

7

countervailing prejudice, I don't think it is great and I think

8

it can be modulated by an instruction to the jury.

9

countervailing prejudice is that it would logically appear to

10

the jury that whatever the issues were in 2003, if that's the

11

relevant date, that the Shaheeds had been -- Waheedah Shaheed

12

had not been a fully compliant parent back then.

13

that I don't think ultimately that is unfair prejudice that

14

matches let alone substantially outweighs the fair probative

15

value of this is that we have much the same thing occurring in

16

2012 and I will instruct the jury as to both that ultimately

17

the trial is not about the quality of the care, it has to do

18

with what happened on June 6 and the jury is not to hold

19

against them any conclusions they make about the quality or

20

lack thereof of the parenting and I'm confident the jury will

21

be able to heed that instruction.

22

The

The reason

With that, let me, because we need to move on, are

23

there any other 404(b) issues that are out there that I need to

24

be aware of?

25

MS. GARMAN:

No, your Honor.

Not for defense.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0142

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 82 of 128
IAA5SHAC
conference

82

1

THE COURT:

All right.

2

As to the separate offer of proofs that you made which

3

is that she denied that, that's not necessary to my ruling.

4

it turns out that she, in her testimony, denies the prior

5

removals and you are otherwise able to offer that up, you are

6

at liberty to pursue that as impeachment evidence.

7

clear, the ruling that I am making here is premised on its

8

relevance as substantive evidence going to her state of mind

9

approaching it on June 6.

10

Understood?

11

MS. GARMAN:

12

THE COURT:

13

MR. LaBREW:

14

THE COURT:

But, to be

Yes, your Honor.
All right.
Briefly, your Honor?
New?

I mean, I have ruled.

You are going

15

to have to get used to that when I rule, you move on.

16

some argument you have not yet made?

17

MR. LaBREW:

18

THE COURT:

19

MR. LaBREW:

If

Is there

Yes.
Go ahead.
Basically, your Honor, the defendants

20

were doing all the talking.

21

get up here and have the jury look at Ms. Shaheed as a woman

22

that has historically neglected her children.

23

THE COURT:

24

MR. LaBREW:

25

Basically what they want to do is

Well -And then the next issue that comes up,

your Honor, the children are not allowed to testify based on
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0143

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 83 of 128
IAA5SHAC
conference

1

the Court's prior ruling about any of this alleged misconduct.

2
3

THE COURT:

Sorry, Mr. LaBrew.

To be quite clear, we

are not litigating the validity of the warrant on June the 6th.

4

MR. LaBREW:

5

THE COURT:

No, I'm talking about the prior.
And the prior one simply is going to be

6

that she's had prior experience with ACS removing her kids

7

before.

8

have done or not done at the time.

We are not going to get into what she was alleged to

9

MR. LaBREW:

10

THE COURT:

11
12
13
14

83

Can I ask the Court just two questions?
You may make an argument.

I am in the

question business, but go ahead.
MR. LaBREW:

Yes, yes, yes.

You are right.

No

disrespect and I take that back.
Your Honor, first, I would like to know all the

15

information about these alleged incidents that the defense is

16

talking about that allegedly happen --

17

THE COURT:

They say that this was produced in

18

discovery.

19

notice to the Court lapse.

20

The lapse here was not a discovery one, it is a

MR. LaBREW:

Well, if it was produced in discovery I

21

would like to know where it was at because the discovery I got,

22

most of the stuff was blacked out without a protective order

23

and I didn't see any of that.

24

THE COURT:

25

City, defense, I assume you have Bates stamped

Let me ask.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0144

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 84 of 128
IAA5SHAC
conference

84

1

whatever you produced to the plaintiff?

2

you can just put in a letter what the numbers were of what you

3

produced to him?

4

MR. ARKO:

You have got some way

I can refer to the records -- we were

5

unable to find a complete Bates stamped copy in the file.

6

Again, it was transferred to me and I apologize to plaintiff

7

for that but we did have -- the records were produced, I just

8

don't know exact Bates Number that were assigned to them.

9

There was some overlap in the Bates Numbering and we couldn't

10
11

find a complete Bates Numbered set.
THE COURT:

What is your basis for believing that the

12

records that reflect the prior removals were produced to

13

Mr. LaBrew?

14

MR. ARKO:

I spoke about it with the attorney who had

15

it before and it was transferred to me and that attorney's

16

supervisor.

17

Bates stamps on them in the file that they were in draft form,

18

and also it is my understanding that there is a reference to

19

those in response to discovery demands that were made by

20

Mr. LaBrew and that's based on the totality of the Bates

21

Numbering that was produced as it corresponds to what we now --

22
23

Also, we did find part of the ACS records with

THE COURT:

Look.

I want all that stuff reproduced to

Mr. LaBrew by 10:00 tomorrow morning.

24

MR. ARKO:

25

THE COURT:

Understood.
There is enough here to suggest to me that

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0145

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 85 of 128
IAA5SHAC
conference

85

1

it was produced to him.

It was also the subject of questioning

2

in the deposition which implies mutual awareness of it.

3

just so that there is no doubt that Mr. LaBrew has everything

4

you are referring to, that's fine.

5

looking at about a 60-second, two-minute snippet here which

6

simply establishes the historical fact.

7

City to unpack the details of what happened, only the fact of

8

the prior removals with the specifications that I authorized

9

earlier.

Keep in mind that we are

10

Mr. LaBrew, we need to move on.

11

MR. LaBREW:

Okay.

I am not allowing the

I have a question about the

12

Court's order that I didn't get a chance to even proffer

13

because the defense went into --

14

THE COURT:

15

MR. LaBREW:

16

But,

Go ahead.
With regard to the ACS workers, the

defense started it off but I wrote down two points.

17

THE COURT:

18

MR. LaBREW:

Microphone, please.
I wrote down two points with regard to

19

the ACS workers.

You said that they could, with the defense,

20

they could talk about the existence of the investigation and

21

notice of the status.

22

didn't get down.

23

existence of the investigation encompassed within that ruling,

24

I'm assuming somebody is going to come in here and talk about

25

something that they have first-hand knowledge about and that

Then there was another point made that I

Okay?

Also, my question with regarding the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0146

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 86 of 128
IAA5SHAC
conference

86

1

this is not to go into some type of hearsay situation where I

2

heard from this person and I heard from that person and this

3

person told me that this person told them that.

4

hoping that they have a witness with some first-hand knowledge

5

to talk about the existence of the investigation.

6

THE COURT:

You know, I'm

Defense, I take it the police officers

7

will simply describe the fact that they had a valid warrant or

8

more.

Who is going to describe what about the background here?

9

MS. GARMAN:

10

THE COURT:

11

MS. GARMAN:

12

The ACS worker who was assigned the case.
What will that person say?
With respect to the background of the

investigation?

13

THE COURT:

14

MS. GARMAN:

With respect to 2012.
Yes.

She will say that she was assigned

15

the case based on an allegation that the minor daughter was

16

cutting herself.

17

and an in-person conversation that she had with Ms. Shaheed and

18

things that Ms. Shaheed told her directly.

She will describe several phone conversations

19

THE COURT:

20

MR. LaBREW:

Mr. LaBrew, that sounds fine to me.
That sounds fine to me.

I guess with the

21

phone conversations we will reach that, I guess you could say

22

it is part just as part of the event.

23
24
25

THE COURT:

It is a statement of a party opponent.

Come on.
MR. LaBREW:

Okay.

Okay.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0147

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 87 of 128
IAA5SHAC
conference

1

THE COURT:

That's blatantly admissible, it goes to

2

the defendant's knowledge, intent and it is a statement of

3

party opponent, your client who brought the lawsuit.

4

MR. LaBREW:

87

My concern is this.

I don't want

5

somebody coming in here, getting on the stand, swearing to tell

6

the truth, talking about what they heard that somebody told

7

them and all of it is hearsay.

8
9

THE COURT:

There has been no such proffer.

reiterate that inadmissible hearsay is inadmissible.

10

don't know what more to say.

11

you on the concept but there is no application here.

12

MR. LaBREW:

13

THE COURT:

14

MR. LaBREW:

15

Right.

I will
Okay?

I

That's very -- I'm not fighting

We haven't heard anything.

All right.
I didn't get the other two points with

regard to the ACS workers.

I'm sorry.

16

THE COURT:

Get the transcript.

17

MR. LaBREW:

18

THE COURT:

19

The next topic I want to take up involves the short

Okay.

Good enough.

All right.

20

description of the case for voir dire.

21

going to get into mechanics of voir dire.

22

MR. LaBREW:

Okay.

A little later I'm

I apologize, your Honor.

One more minor

23

point because it deals with this whole ACS issue and I

24

appreciate the Court's patience.

25

I asked for a charge to the effect that based on the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0148

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 88 of 128
IAA5SHAC
conference

88

1

New York State case law that the plaintiffs had no obligation

2

to assist in this investigation.

3

THE COURT:

We will deal with the charging conference

4

at the time of the charge.

5

conference and I will be happy to take up a charge at the time

6

of the charging conference.

7

MR. LaBREW:

Okay.

Right now this is a pretrial

Because I might open on that.

8

That's on account I might want to open on something that will

9

cause problems.

10

THE COURT:

Well, the plaintiffs are not being accused

11

of failing to do something affirmative, it is that they

12

resisted the officers trying to take the kids; correct,

13

defendants?

14

MR. ARKO:

Yes, your Honor.

15

THE COURT:

16

MR. LaBREW:

17

THE COURT:

18

What I want to do is read to you the description that

I think it is a red herring.
Okay.
We are going to move on now.

19

I propose to give to the venire which is intending to be

20

neutral, but I want to give it to you so that if there is

21

anything factually wrong here or out of perspective you can

22

comment, but for avoidance of doubt what I am about to read to

23

you is not a forum in which to litigate the case.

24

purely for the purposes of jury selection the jury has some

25

idea what's coming.

This is

Here we go:

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0149

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 89 of 128
IAA5SHAC
conference

89

1

As I have explained, this is a civil case.

2

entitled Daghrib Shaheed and Waheedah Shaheed versus Stephan

3

Kroski, Paul Bliss, and Jonathan Rodriguez.

4

plaintiffs:

5

three defendants:

6

Rodriguez.

7

York City Police Department.

8
9

It is

There are two

Daghrib Shaheed and Waheedah Shaheed.

There are

Stephan Kroski, Paul Bliss, and Jonathan

Each of the defendants is a detective with the New

This case involves claims by the plaintiffs against
the defendants.

The claims arise out of an incident on June 6,

10

2012.

11

authorizing them to remove two children from an apartment based

12

on a finding of imminent danger to the children.

13

plaintiffs, who are mother and sister and older sister of the

14

children, were in the apartment.

15

their civil rights were violated in connection with this

16

incident.

17

There are three sets of claims.

18

That evening, the defendants executed a Court Order

The

The plaintiffs claim that

They bring claims under federal and state law.

First.

Plaintiffs claim that they were subject to

19

what is called a false arrest, that is, that they were

20

unlawfully arrested that evening.

21
22
23

Second.

Plaintiffs claim that after their arrest they

were subjected to what is called a malicious prosecution.
Third.

Plaintiffs claim the defendants used excessive

24

force towards them.

The defendants deny these claims.

25

assert that plaintiffs' arrests and prosecutions were both
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

They

A0150

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 90 of 128
IAA5SHAC
conference

90

1

justified and that the force used by defendants in making these

2

arrests is appropriate and not excessive.

3

That's what this case is about.

This is a civil case

4

and not a criminal case and no one will go to prison as a

5

result of the verdict in this case.

6

seeking money that they claim the defendants owe them in

7

compensation for their alleged misconduct.

8
9

Rather, the plaintiffs are

I have left out any reference to punishment because
pending the outcome of the evidence, I do not know whether

10

punitive damages will be submitted to the jury.

11

Mr. LaBrew, I am leaving out any reference to punishment and

12

you should, too, in your opening statement, until it becomes

13

clear that punitive damages are within the scope of the case.

14

I will rule on that at the close of evidence.

15

to sum up on that.

16

notify the jury or state to the jury that there is a

17

possibility of punishment here because that may or may not be,

18

depending on what the evidence shows.

19

be one where there is a factual basis for a punitive damages

20

charge going to the jury.

21

Therefore,

You will be able

But, for the time being, I don't want to

This case may or may not

So, that's not precluding any ruling later on, it is

22

simply playing it cautious now because it is not clear to me

23

one way or the other whether that will be a concept that

24

ultimately goes to the jury.

25

With that, anybody have any objections or
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0151

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 91 of 128
IAA5SHAC
conference

1

modifications, factual or otherwise, to the proposed

2

description for the venire?

3
4

MS. GARMAN:

91

Two very minor, semantical things, your

Honor.

5

THE COURT:

6

MS. GARMAN:

Yes.
All three are not detectives with the

7

NYPD.

8

is a detective now but we are fine with using police officers.

9
10
11

I believe at the time they were all police officers; one

THE COURT:

So, officer instead of detective.

Thank

you.
MS. GARMAN:

And then the other thing, your Honor says

12

the officers executed the order.

13

attempted to execute because the children weren't there, they

14

didn't actually, in fact, successfully execute it.

15

THE COURT:

16

MS. GARMAN:

17

THE COURT:

18

I would suggest maybe

Attempted to execute it; is that correct?
Yes.

Something to that effect.

That evening the defendants attempted to

execute a Court order...

19

Is that accurate?

20

MS. GARMAN:

21

THE COURT:

22

May I ask you, I want to make sure that my

Yes.
Thank you.

That's very helpful.

23

characterization of the order is correct.

I wrote here:

24

Court order authorizing them to remove two children from the

25

apartment based on a finding of imminent danger to the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A

A0152

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 92 of 128
IAA5SHAC
conference

1

children.

2

Is that factually accurate?

3

MS. GARMAN:

4

92

Yes, with a very minor, again, semantical

issue that there were two separate court orders, one per child.

5

THE COURT:

Based on executing two court orders

6

authorizing them to remove two children from an apartment, each

7

based on the finding of imminent danger to the child?

8

MS. GARMAN:

9

THE COURT:

10

MR. LaBREW:

I don't dispute it.

I would like a

little different choice in wording.

13

THE COURT:

14

MR. LaBREW:

15

Mr. LaBrew, just first of all, factually,

do you dispute what was just proffered factually?

11
12

Yes.

What would you like?
The order, I would like it called what it

is, a Family Court Order for Removal.

16

THE COURT:

Two family Court orders.

17

MR. LaBREW:

Two family Court removal orders.

18

THE COURT:

I think that's well worth a defense

19

because one of the issues that may be germane in voir dire is

20

the experience that members of the venire have had with the

21

Family Court and I think Mr. LaBrew's point is well taken that

22

that addition may stir up any exposure that a member of the

23

venire has had to the Family Court, which is all to the good.

24

Good.

25

MR. LaBREW:

And when they went with those orders they

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0153

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 93 of 128
IAA5SHAC
conference

1

went to execute those orders whether they got executed or not.

2
3

93

THE COURT:

They attempted to execute is the language.

Is that accurate?

4

MR. LaBREW:

5

THE COURT:

6

MR. LaBREW:

Yes, that's accurate.
Okay.

Anything else?

Also, where you said money that the

7

plaintiffs owed them, I mean, that's not incorrect because we

8

are here about money.

9
10

THE COURT:

their alleged misconduct.

11
12

Money they owe them in compensation for

MR. LaBREW:

Yes.

I would prefer that the plaintiffs

seek compensation regarding the alleged acts of the defendants.

13

THE COURT:

I think the way I have put it explains the

14

purpose of it so I will overrule that.

15

captured it which is the way I do it in each case has

16

heretofore not been objected to.

17

MR. LaBREW:

18

THE COURT:

19

I think the way I have

Well, your Honor, you are the judge.
Okay.

Anything else with that

description?

20

MR. LaBREW:

Yes, Judge, with that description, I'm

21

going to be stressing facts, I'm not going to be stressing

22

money.

23

money in there, what I am trying to do is I want the jury to

24

look at the facts and make a decision and whatever they make a

25

decision on as far as the plaintiffs' are concerned, that's

So, you know, on behalf of the plaintiffs when you put

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0154

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 94 of 128
IAA5SHAC
conference

1

good.

2

am --

94

I am not saying give them this and give them that and I

3

THE COURT:

And my ruling specifically prohibits you

4

from seeking a dollar amount.

5

MR. LaBREW:

6

THE COURT:

Right, right, right.
My point is I need to explain what the

7

relief sought is.

8

civil case I always clarify for the members of the venire that

9

this is about compensation, not jail.

10
11

It is not somebody going to jail.

MR. LaBREW:

Can we say monetary compensation?

I just

don't like money because I just -- my --

12

THE COURT:

13

school.

14

use the one word.

15

Come on.

16

MR. LaBREW:

17

And in a

No.

I mean, I read Strunk & White in high

Monetary compensation means money.

We are going to

Come on.
Strunk & White is good.

The elegance and

style --

18

THE COURT:

Money.

19

Next.

20

order -- off the record.

All right.

I want to quickly go through the joint pretrial

21

(Discussion off record)

22

THE COURT:

Can you go to the plaintiff's witness

23

list?

Because I think a number of the people are out and I

24

want to see.

25

Shaheed and Daghrib Shaheed are clearly testifying.

On the witness list, the first two, Waheedah

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

I have

A0155

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 95 of 128
IAA5SHAC
conference

1

included Olodan and Abdur Rahim.

2

Will you be calling, Mr. LaBrew, Noah Shaheed?

3

MR. LaBREW:

4

THE COURT:

Yes, your Honor.
So, 1, 2, and 5 and five are testifying.

5

Carlene Johnson and Alana Martin are out.

6

actually, I don't know if I have been given any information

7

about Deana Cucham.

I have excluded --

8

Was that person on the scene on June 6?

9

MR. LaBREW:

10

THE COURT:

11

Winston Butler did he -- I assume it is a he --

12

17
18
19

That person is out.

MR. LaBREW:

He didn't witness actual activities, he

just witnessed the aftermath in the apartment.

15
16

I think you excluded her, your Honor.

witness any of the activities at issue?

13
14

THE COURT:

I don't think -- are you proposing to call

him?
MR. LaBREW:

I am proposing we might not.

If we did,

it would be like two or three sentences.
THE COURT:

I mean I think, look, if you want to get

20

me the video let me see the video, as I offered the

21

opportunity.

22

me take a look at it.

23

gave I will make a judgment whether that's in or out.

24
25

95

That's the better evidence of the damage and let

MR. LaBREW:

If you get it to me by the time table I

And just regarding the video, the video

that I provided to the defendant, that video is not coming in.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0156

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 96 of 128
IAA5SHAC
conference

1

It was a video they took of the second incident showing damage.

2

THE COURT:

3

MR. LaBREW:

4
5
6
7
8

THE COURT:

MR. LaBREW:

MR. LaBREW:

THE COURT:

15

THE COURT:

18

MR. LaBREW:

The video is coming in but it doesn't
You can't really see anything on it.

Sorry.

You are offering a video.

I guess

Yes, your Honor.
But, just as to witnesses -- and who is

Daghrib Shaheed can authenticate it.

The

whole family can authenticate the video.
THE COURT:

20

MR. LaBREW:

21

THE COURT:

23

But it is not coming in is the point.

going to authenticate that video?

19

22

Just a video where Ms. Daghrib

we will get to the evidence as to the first episode.
MR. LaBREW:

17

No, no.

really show any damage.

14

16

So Mr. Butler, there is no video then

Shaheed is hollering get off of my mother.

10

13

There is a video of the first incident

coming in for the first episode, correct?

THE COURT:

12

Oh.

that doesn't show any damage, just people hollering.

9

11

96

One of the plaintiffs will.
Yes, yes.
So you are not calling Mr. Butler I take

it at this point?
MR. LaBREW:

No, no.

I don't think we need him.

24

Nobody is disputing that the police came in there and something

25

happened.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0157

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 97 of 128
IAA5SHAC
conference

1

THE COURT:

So you are calling Waheedah Shaheed,

2

Daghrib Shaheed, and Noah Shaheed.

3

case, correct?

4

MR. LaBREW:

That's your affirmative

Well, I mean, within the parameters that

5

the Court has kindly set for me.

6

other people.

I would like to call a lot of

7

THE COURT:

8

Within the rulings I have made --

9

MR. LaBREW:

10

THE COURT:

11

Sorry, sorry, sorry.

Right.
-- I just want to be clear that the three

witnesses you are calling are the three Shaheeds.

12

MR. LaBREW:

13

THE COURT:

14

97

three defendants.

Correct.
Defense, you are proposing to call the

Are you going to call both ACS employees?

15

MS. GARMAN:

16

THE COURT:

Yes, your Honor.
All right.

And are those along the lines

17

of what you proffered earlier or is there something more I need

18

to know about?

19

MS. GARMAN:

No.

The one ACS worker is the one we

20

were speaking about before.

21

and witnessed the events of June 6, 2012.

22

THE COURT:

23

MS. GARMAN:

24

THE COURT:

25

The other one was actually there

Who was there on June 6?
Januarie Joubert.
So that person is actually a witness to

incident in question?
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0158

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 98 of 128
IAA5SHAC
conference

1
2

MS. GARMAN:

Correct, in addition to witnessing a

prior conversation with Mr. Shaheed himself.

3
4

98

THE COURT:

And Shanon Aste is a context witness about

the dealings with Ms. Shaheed leading up to June 6?

5

MS. GARMAN:

6

THE COURT:

Correct.
So, we are down to eight witnesses.

Let

7

me take a look at the physical evidence and under the

8

plaintiffs exhibits I am going to exclude Exhibits 3 through

9

29, which are statutes.

10

MR. LaBREW:

11

THE COURT:

Right.

You already ruled on that.

The two Family Court Orders, no. 2 is

12

clearly out because it relates it a different date.

13

undisputed, its admissibility.

14

and 31 are out because they are statutes, not evidence.

15

32 through 34 are out because they are subsequent orders

16

relating to different people but, in any event, having to do

17

with other events on other days.

18

and 38 are out because they are laws, not evidence.

19

Appearance Ticket 37, it relates to June 6th, correct?

20

MR. LaBREW:

21

THE COURT:

22

25

Continuing on, on page 2, 30
And,

35 and 36 are out because -The Desk

Correct, your Honor.
Is there any objection to that coming in,

defense?

23
24

No. 1 is

MS. GARMAN:

No, as long as a proper foundation is

laid.
THE COURT:

Right.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0159

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 99 of 128
IAA5SHAC
conference

1

And then I don't understand what the police complaint

2

report and arrest reports are.

3

Mr. LaBrew, what is that about?

4
5

MR. LaBREW:

39 through 42.

The arrest report.

Briefly,

I'm not admitting the

arrest report.

6

THE COURT:

So, 41 and 42 are out.

What about the

7

police complaint report, I mean as offered by you.

8

41 and 42?

9

MR. LaBREW:

I'm not going to admit that.

What about

I don't

10

think it is going to be any dispute about what they were

11

arrested for.

12

THE COURT:

13

MR. LaBREW:

14

THE COURT:

MR. LaBREW:

THE COURT:

Sorry.

Are you looking at your own joint

I don't have it in front of me, your

Did you bring it today since the

conference is discussing joint pretrial order?

21
22

I may admit the actual complaint

Honor.

19
20

Right.

pretrial order?

17
18

So 39 through 42 are out.

that commenced the criminal proceeding.

15
16

99

MR. LaBREW:

I know exactly what you are talking

about.

23

THE COURT:

So are 39 and 40 in or out?

24

MR. LaBREW:

39 and 40 for police arrest paperwork.

25

THE COURT:

No, they're police complaint reports; are

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0160

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 100 of 128
IAA5SHAC
conference

1

those in or out?

2

MR. LaBREW:

3

THE COURT:

4

Those are out.
And 41 and 42 the arrests are out,

correct?

5

MR. LaBREW:

6

THE COURT:

Yes.
43 and 44 are the complaints for Waheedah

7

and Daghrib Shaheed respectively for June 6.

8

out?

9

MR. LaBREW:

10

THE COURT:

11

MR. LaBREW:

13

THE COURT:

15
16

Those are in.
And 45, which is Noah Shaheed, that is

Correct.
Defense, what about 43 and 44?

MS. GARMAN:

Again, provided that a proper foundation

is laid, no.
THE COURT:

18

have other objection to it?

19

MS. GARMAN:

20

THE COURT:

21

MR. LaBREW:

Assuming it is authenticated you don't

Correct.
Okay.
Your Honor, this came up in motion in

22

limine on foundation.

23

document.

25

Do you

object to those?

17

24

Are those in or

out?

12

14

100

THE COURT:

The witnesses can lay foundation for the

Look.

I am assuming that you are all

competent and will lay a proper foundation.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0161

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 101 of 128
IAA5SHAC
conference

1

MR. LaBREW:

2

THE COURT:

101

Okay.
46 is out, it relates to a subsequent

3

incident.

47 which deals with Noah Shaheed is out.

4

I assume are in.

5

plaintiffs as to June 6 incident?

48 and 49

These are the dispositions for the two

6

MR. LaBREW:

7

THE COURT:

8

MS. GARMAN:

9

THE COURT:

Yes, your Honor.
Defense, any objection to that?
No.
You put down two stars so I am left to

10

assume you objected for some reason but I don't know what it

11

would be.

12

MS. GARMAN:

Your Honor, we didn't put two stars

13

because these were not identified by Bates numbers or otherwise

14

provided to us so we just --

15

THE COURT:

16

MS. GARMAN:

17
18

Do you have them now?
We can surmise that these were the ones

that were produced in discovery so we don't object.
THE COURT:

Look.

I'm going to ask each of you once I

19

am done with this list to get to each other and to me a binder

20

of your exhibits that you are proposing to offer consistent

21

with what I have excluded.

22

Mr. LaBrew, to renumber it since the vast majority of your

23

exhibits are out or if you have already labeled your exhibits.

24

MR. LaBREW:

25

THE COURT:

I don't know if you are planning,

I have not.
What I would like you to do is, by

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0162

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 102 of 128
IAA5SHAC
conference

102

1

Thursday, get me a binder of your exhibits relabeled with two

2

copies for my chambers, two for the defense, but with an

3

exhibit list so that we can all follow along.

4

MR. LaBREW:

5

THE COURT:

Okay.
In other words, consistent with -- don't

6

be repopulating it with new stuff but just make the excisions

7

from the current list of the things I have excluded.

8
9

MR. LaBREW:

Okay.

Because I wanted to wait and see

what was happening here before I knew what was coming in.

10

THE COURT:

Very good.

11

So, 50 and 51 are out because they relate to the other

12

incident.

52 is a property invoice, that's not part of this

13

case, we are not talking about property damage.

14

MR. LaBREW:

15

THE COURT:

16
17
18
19
20
21

are 53 and 54.

No.
Medical records of Waheedah and Daghrib

What's the story with that?

MR. LaBREW:

This is just medical records related to

the injuries for the first incident.
THE COURT:
hospital?

Okay.

I can't tell who the -- is it a

A doctor?

MR. LaBREW:

Hospital records and from a doctor, and

22

we are in the process of -- I spoke with the defendants, we are

23

in the process of preparing that so that they can get a copy of

24

that without --

25

THE COURT:

Get it to them right away because I expect

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0163

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 103 of 128
IAA5SHAC
conference

103

1

that if it's proper medical records, the defendants will

2

stipulate to it so that we don't have to bring in somebody who

3

has got much better things to do than to authenticate medical

4

records.

5

records that are sight unseen.

6

MR. LaBREW:

7

THE COURT:

But, they can't be expected to stipulate to medical

Okay.
You don't have a medical records custodian

8

here so either they're coming in because they're certified or

9

because they're stipulated to.

10

MR. LaBREW:

11

THE COURT:

Certified.
But the defendants need to see it because

12

there is every possibility, particularly given the excesses on

13

both sides of what you have each tried to put in, that the

14

defense will say some but not all is acceptable to us and, you

15

know, I don't want inadmissible stuff coming in.

16

get it to them right away.

So, please,

17

MR. LaBREW:

18

THE COURT:

19

56, plaintiff you are offering the medical records of

20

MR. LaBREW:

22

THE COURT:

24
25

55 is out, that's Olodan's records.

Kroski without objection?

21

23

Okay, your Honor.

Unless there is some objection from -They've got two stars so they're not

objecting, right?
MS. GARMAN:

Subject to appropriate redactions.

If

they're the ones we produced we produced them with redactions
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0164

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 104 of 128
IAA5SHAC
conference

1

that we are happy with, so.

2

THE COURT:

3

MR. LaBREW:

All right.
I might not even offer that, your Honor.

4

I can ask them that on the stand.

5

that.

6

I don't need records for

He is not going to say he didn't go to the hospital.
THE COURT:

57, pictures of plaintiff's apartment.

7

Defendants say this wasn't produced in discovery.

8

produced in discovery?

9

104

MR. LaBREW:

Was it

I gave them pictures of the apartment

10

from the first incident right after mediation and I sent them

11

another copy of those pictures when they asked me for them and

12

they said they couldn't find the disk.

13

THE COURT:

Defendants, do you have any objection to

14

these being received if it can be shown that they were produced

15

in discovery?

16

MS. GARMAN:

Our objection -- yes, your Honor, just

17

based on relevance grounds.

18

negligence or property damage.

19
20
21

THE COURT:

Okay.

There is no claim related to

I need to know what the pictures

show.
MR. LaBREW:

The pictures show the apartment on the

22

first incident, and one of the pictures show the police

23

officers entering the apartment.

24

pictures show the apartment.

25

told them, and we haven't taken these pictures yet, we might,

A couple of the other

As I spoke with the defendants I

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0165

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 105 of 128
IAA5SHAC
conference

1

105

just to give --

2

THE COURT:

Sorry.

Wait.

Whoa, whoa, whoa, whoa,

3

whoa.

4

are not to show the condition of the apartment, they are just

5

to show the layout?

6

It says -- oh, these are after the incident.

MR. LaBREW:

Yes.

So these

Some pictures show, were taken

7

right immediately after the incident, but we are going to just

8

have some pictures just to show the layout of the apartment.

9

THE COURT:

Well, if it is just the layout that's one

10

thing.

If there is personalty there that would tend to evoke

11

sympathy, you shouldn't do that.

12

MR. LaBREW:

13

THE COURT:

No.
In other words, if what you are looking

14

for is a floor plan or something that is tantamount to that, I

15

would be favorably disposed if there is nothing that is tugging

16

at the heart strings in there.

17
18
19
20

Defendant, on that premise, do you have any objection
to pictures like that?
MS. GARMAN:

It's difficult -- not having seen them

it's difficult to make a determination either way, your Honor.

21

THE COURT:

22

MR. LaBREW:

Get it to them by Thursday, please.
Okay.

And as an officer of the court, it

23

is going to be just like the court said; pictures after the

24

fact, it is show and tell.

25

THE COURT:

Get it to them by Thursday, please,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0166

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 106 of 128
IAA5SHAC
conference

1

because I can already see there are way too many unresolved

2

issues here.

3

be in position to form a judgment.

At least that way we will know the defense will

4

MR. LaBREW:

5

THE COURT:

6

Mr. LaBrew you

still intend to offer that, right?
MR. LaBREW:

Yes, and that's the video we are talking

about.

11
12

Partial video footage of a portion of the

Defendants, are you objecting to that?

9
10

Okay.

incident.

7
8

106

THE COURT:

Defendants, you don't indicate any, that

you are agreeing to its admission.

13

MS. GARMAN:

Why not?

Again, your Honor, as we noted, this is

14

not identified by Bates Number or any type of other identifying

15

feature and we have made efforts to clarify what Mr. LaBrew is

16

talking about.

17

that was exchanged in discovery, that limited portion, subject

18

to assuming a foundation is laid we don't have an objection

19

but, again, we aren't able to tell from what --

20

If he is talking about the portion of the video

THE COURT:

Mr. LaBrew began to briefly describe it to

21

me.

It sounds as if in one portion one of the plaintiffs is

22

yelling to get one of the police officers off.

23

Mr. LaBrew, is that the video you are talking about?

24

MR. LaBREW:

25

That is correct, your Honor, and I gave

that video to the People in 2015.

I gave that same video to

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0167

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 107 of 128
IAA5SHAC
conference

107

1

them again two days ago.

2

that we are going to introduce into evidence and everybody in

3

the apartment can authenticate the video.

4

THE COURT:

I specifically said this is the video

Okay.

Look, Ms. Garman, do you know now

5

what video he is referring to?

6

MS. GARMAN:

I believe I do.

Assuming it is the video

7

that has been produced in discovery we do not have an objection

8

if a foundation is laid.

9
10

THE COURT:

Okay.

Video footage of the damage to the

apartment.

11

MR. LaBREW:

That video is not coming in.

12

THE COURT:

13

Pictures of the apartment, floor plan of the

Not coming in.

14

apartment.

15

and 61, that you appear to be trying to capture the layout.

16

Subject to foundation, I will permit that in but I also expect

17

that it will be denuded of any, you know, emotive aspects.

18

just really want something that can help the jury understand

19

the flow of rooms and the like.

20
21

Again, we have now got three different ways, 57, 60

I

62, pictures of plaintiff's injuries after the
incident.

Who took those pictures?

22

MR. LaBREW:

Ms. Shaheed took those pictures in her

23

apartment and at the hospital.

24

Shaheed with a black eye.

25

with the injuries to her arm.

One of them shows Waheedah

The other one shows Daghrib Shaheed

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0168

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 108 of 128
IAA5SHAC
conference

1

THE COURT:

108

And the two plaintiffs will be able to

2

authenticate those as reflecting their condition on or about

3

those dates.

4
5

MR. LaBREW:

Yes, and they were provided to defense in

2015 and a couple of weeks ago.

6

THE COURT:

7

MS. GARMAN:

Any objection, defense?
Again, we would just like to -- I guess

8

your Honor has already told plaintiffs counsel to get us a copy

9

of the proposed photos.

10
11

We want to make sure they are in fact

the photos we received and not other photos.
THE COURT:

Mr. LaBrew, just because it sounds like

12

there is a chaotic quality about a lot of things going on

13

between the parties here, get them a full set of your evidence,

14

get us each a binder by Thursday with labels on it.

15

MR. LaBREW:

16

THE COURT:

Okay.
But I'm taking Ms. Garman to be saying if

17

this is what she thinks it is she's not going to object as long

18

as somebody is able to authenticate these photos as capturing

19

the appearance of the people depicted on or about a given date

20

after June 6, correct?

21

MR. LaBREW:

Correct.

22

THE COURT:

All right.

23

The chart of the New York State Court System is out.

24
25

I don't think I need any more commentary on that.
The mug shot I have already ruled.

On the mug shots,

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0169

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 109 of 128
IAA5SHAC
conference

109

1

the one from June 6 can come in if authenticated, the other is

2

night.

3
4

Finally, Exhibit 66, which is another section of
Criminal Procedure Law, is out.

5

All right.

6

letters.

7

any objection?

Defendants you have got just seven

No. 1, Family Court Order dated June 6.

8

MR. LaBREW:

9

THE COURT:

10

Shaheed.

Mr. LaBrew,

No.
Mount Sinai medical records of Waheedah

Any objection, Mr. LaBrew?

11

MR. LaBREW:

12

THE COURT:

13

Mount Sinai medical records of Daghrib Shaheed -- and

14

No.

here we have got Bates numbers.

15

MR. LaBREW:

16

THE COURT:

17

Daghrib, number D.

19

THE COURT:

Any objection?

MR. LaBREW:

22

THE COURT:

23

MR. LaBREW:

25

None, your Honor.
E and F, records of Kroski -- medical

21

24

No.

Any objection?

MR. LaBREW:

records of Kroski.

Any objection to those?

Orthopedic records and rehab records of

18

20

No.

E and F?
E and F.
I am assuming that's his medical records

that I received.
THE COURT:

It says here Presbyterian Hospital records

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0170

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 110 of 128
IAA5SHAC
conference

1
2
3

for Stephan Kroski with a Bates Number.
MR. LaBREW:

THE COURT:

5

for Kroski as well.

7

Oh, that's no problem, your Honor.

We

are going to open on that.

4

6

110

MR. LaBREW:

And then G is medical records from the PD

Oh, yes.

We are going to open on that as

well, too.

8

THE COURT:

9

MR. LaBREW:

10

THE COURT:

So, that's all in as well.
Yes.
Plaintiff, now that we have significantly

11

pruned the topics to be covered and the number of witnesses, I

12

would like to think that I can tell the jury that we expect

13

this trial to be over within three to four days.

14

reason why that would be inaccurate?

15

end there is a lot of intensity but it is about a very

16

temporally narrow event followed by some medical stuff, medical

17

evidence.

18

Is there any

I mean this is, in the

Look, I'm not going to -- I don't want to tell them

19

something that is not true but I mean if you can't try this

20

case efficiently and the defendants with it being one incident,

21

one entry to an apartment followed by medical sequelae, three

22

or four days, I expect you will be able to move this.

23

MR. LaBREW:

I mean, your Honor, based on your

24

rulings, it might be take about a week.

I mean I'm not -- I

25

tend to, at trial, I like to have my say, subject to the
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0171

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 111 of 128
IAA5SHAC
conference

1

111

discretion of the Court telling me that my say is about done.

2

THE COURT:

Your clients are entitled to their day in

3

court but they're entitled to their day in court with your

4

being respectful of the time of the jury and your being mindful

5

of the rules of evidence and that I work a very full day.

6

In my courtroom, counsel are to be in their seats

7

ready to go by 9:00.

We spend a half our before 9:00 and 9:30

8

dealing with evidentiary issues and stuff for the day because I

9

do not like side bars unless utterly necessary.

In case it

10

isn't obvious by now, I try to rule on things before trial so

11

that we can make maximum use of our greatest resource which is

12

the jury's time.

13

lunch; 10-minute midmorning and midafternoon break.

14

Is sit from 9:30 to 5:00, there is an hour

It means we have, in practice, on-the-clock testimony

15

of at least about six hours a day and there is only but so much

16

here.

17

relatively quickly and you will be trying your case very

18

promptly.

19

parties are confident this case will be done within a week, and

20

likely within three to four days.

My expectation is we will get jury selection done

I would like to be able to tell the jury that the

21

MR. LaBREW:

22

THE COURT:

Well, your Honor -I have had enough experience with this

23

that unless there is something really out of the ordinary here

24

there is only but so much content.

25

You tell me.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0172

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 112 of 128
IAA5SHAC
conference

1
2

MR. LaBREW:

112

It will probably be a week but I'm going

to take some time with these police officers now.

3

THE COURT:

Well, you can take some time on only

4

events at issue, not disciplinary issues, we are not getting

5

into race.

6

MR. LaBREW:

7

THE COURT:

8

on trial.

9

place.

10

No.
We are not putting the police department

This is about conduct at a particular time and

MR. LaBREW:

Right.

We are talking about conduct at a

11

particular time and place with these particular police

12

officers.

13

THE COURT:

14

MR. LaBREW:

15
16
17
18

Good.
So I'm going to go in -- I'm not going to

bite my tongue with these police officers.
THE COURT:

It is not a matter of biting your tongue.

The metaphors don't help me here.
MR. LaBREW:

I am trying to figure out --

I will say about a week.

I just don't

19

want the Court to tell the jury it is going to definitely be

20

this and something is happening here because I have been doing

21

this stuff a while myself, and you get in here and you think it

22

is going to be this and then when you get in here it takes on a

23

life of its own.

24

THE COURT:

25

MR. LaBREW:

You deposed all three of the officers.
I didn't need to depose the officers so

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0173

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 113 of 128
IAA5SHAC
conference

1

it is not deposition testimony, it is going to be just the

2

facts.

3
4

THE COURT:

Look.

113

This is not investigative

testimony.

5

MR. LaBREW:

No.

No.

6

THE COURT:

You chose not to depose any witnesses?

7

MR. LaBREW:

This is going to be just the facts.

8

should be quick, but depending on what they say, that will

9

determine what happens here.

10

THE COURT:

11

MS. GARMAN:

MR. LaBREW:

15

THE COURT:

16

MR. LaBREW:

THE COURT:

22

Yes.
Just so we know, okay, these police

When did they come in here using racial

language?

20
21

Your Honor?

officers came in here using racial language.

18
19

Certainly three to four days seems

reasonable.

14

17

Defendants, what is your estimate of the

length of the trial, given the rulings I have made?

12
13

It

MR. LaBREW:

Into Ms. Shaheed's house when they

came -THE COURT:

You are at liberty to develop everything

23

that happened.

If they used racial language, that's part of

24

the narrative, that's fine.

25

not expurgating what happened there and if they used racial

I don't have any problem -- we are

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0174

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 114 of 128
IAA5SHAC
conference

114

1

language, profanity, whatever was said was said.

2

the incident.

3

parable about the police department.

4

particular incident and just like the police department can't

5

pull out 9/11 to save them, nor can you pull out a bad incident

6

by somebody else to bury them.

7

that particular incident.

8
9

My point is we are not going to turn this into a

MR. LaBREW:

This is about a

It is about what happened at

I'm not going to pull out something

from -- we are talking about the incident.

10

THE COURT:

11

Courtroom technology.

12

It is part of

Okay.
Who is the one who is playing

the video?

13

MR. LaBREW:

14

THE COURT:

I'm going to play the video I guess.
You need to get with Mr. Smallman sometime

15

this week for a tutorial on how to use the technology here.

16

I'm not going to have people fumbling in court.

17

MR. LaBREW:

18

THE COURT:

I don't want to do that.
Right.

So, you need to contact

19

Mr. Smallman and arrange a time to come in so that you are

20

ready for prime time with that video.

21

occasions where lawyers don't do that and the jury is sitting

22

there twiddling its thumbs.

23

ready for prime time to use your exhibits whether putting them

24

on the ELMO if it is something still, or putting it on the

25

video but you need to be ready to do that.

I have had too many

Fair warning, I expect you to be

The video may well

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0175

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 115 of 128
IAA5SHAC
conference

115

1

be very interesting, powerful evidence, I don't know, but

2

videos tend to be --

3

MR. LaBREW:

I spoke with the deputy beforehand.

4

THE COURT:

And he has given you a show and tell?

5

MR. LaBREW:

He gave me a quick show and tell.

He

6

told me, he was stalking about arranging it today but it

7

doesn't look like it, but I'm going to get in touch with him.

8

He said after we got finished but it doesn't look like that is

9

going to happen.

10

But, I will take care of that so I understand

what is going on here.

11

THE COURT:

12

Jury selection.

13

are going to impanel eight jurors.

14

between alternates and regular jurors.

15

of them will sit.

16

minimum.

17

improperly during the course of what is a very short trial, we

18

will have the constitutional minimum.

19

don't lose a juror, all eight of them will deliberate.

20

Very good.
I use the struck panel method.

We

We are not differentiating
All are jurors and all

In other words, six is the constitutional

I will impanel eight, that way if we lose one or two

But, if we don't, if we

We will therefore, during jury selection, I will

21

examine for cause 14 jurors and clear 14 jurors as against

22

for-cause challenges.

23

peremptory strikes going in this order:

24

plaintiff, defendant, plaintiff, defendant.

25

strikes in my robing room and then I will come out and I will

Each of you will then have three
Plaintiff, defendant,
We will do the

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0176

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 116 of 128
IAA5SHAC
conference

1

announce which eight of the 14 are our jurors.

2
3

116

As is the case in federal court the Court, not
counsel, does jury selection.

4

Any questions about the mechanics of jury selection?

5

MR. LaBREW:

6

THE COURT:

Who will be at the plaintiff's table.

1 through 8

Will you be

there with both of your clients, Mr. LaBrew?

11

MR. LaBREW:

12

THE COURT:

13

MR. LaBREW:

14

THE COURT:

15

MS. GARMAN:

16

THE COURT:

17

Right over here next to me.

in the front row, and the balance in the second row.

9
10

Juror no. 1 will be

where?

7
8

Yes, your Honor.

Yes, your Honor.
Will anyone else be there?
No, your Honor.
At defense table, who will be there.
Ms. Garman, myself and our three clients.
No one else, no paralegal or something

like that?

18

MS. GARMAN:

19

THE COURT:

Correct.
When I go through jury selection, I do not

20

expect any of you to speak to the jury.

No good mornings, none

21

of that.

22

introduce the personnel.

23

please rise and face the jury, and I will have her face the

24

jury box and the back of the room, she will set down; next

25

plaintiff the same; Mr. LaBrew; then you the same one by one,

I will simply ask you at a particular point when I
When I say, Ms. Shaheed, would you

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0177

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 117 of 128
IAA5SHAC
conference

117

1

and we will do the same thing for the defense table.

2

opportunity to talk with the jury, just to make sure that

3

jurors are not acquainted with the various eight people across

4

the two tables.

5

Not an

Mr. LaBrew, you asked in general whether we can take a

6

break during the week for a medical adjournment.

I think the

7

answer is no.

8

morning so that you would have as prompt a heads up as I could

9

give you.

I would urge you, and I issued an order this

The jury time is valuable and we have a very good

10

possibility of getting this case accomplished within a week.

11

It makes a big difference to juries whether trials slip over

12

into a second week.

13

trial.

14

entirety of the trial.

15

doctor this week, if possible.

16

I would rather we use the time for the

I fully respect your client's interest at being at the
Your client should try to see the

With respect, if there is something that needs

17

attention, your client should see the doctor then or the week

18

after trial or on the weekend, but we have had this trial

19

scheduled for a while.

20

something magic about next week as opposed to this week or the

21

week after.

22

MR. LaBREW:

There isn't a suggestion that there is

Right.

I have no problem with that.

It

23

is just she just informed me that a couple weeks ago a metal

24

door hit her in the head on the job.

25

THE COURT:

Right.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0178

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 118 of 128
IAA5SHAC
conference

1

MR. LaBREW:

118

So a situation may develop here where she

2

gets dizzy and feels that she's getting ready to fall out.

3

Because she went back to work and they sent her back home and

4

that happened.

5

of that, I spoke with the deputy.

So, that has been happening and she apprised me

6

THE COURT:

7

MR. LaBREW:

8
9

Will she be able to testify?
She should be able to testify but

periodically this pops up; the headaches, the dizziness.
THE COURT:

Look.

If this came up a few weeks ago I

10

would hope that she would be on it and be getting whatever

11

treatment she needs and I wish her the very best but there has

12

not been a showing made to me that suggests we ought to be

13

hypothetically carving up an afternoon or a morning for an as

14

yet unscheduled medical appointment.

15

schedule the appointment some other time.

16

MR. LaBREW:

She should try to

I told her that, your Honor, but I let

17

the deputy know because she was very insistent with me about

18

her condition and he told me not to worry about it.

19

something happens here, and you can call 911 --

20

THE COURT:

If

If sometimes happens we have a court house

21

nurse and we can call 911, but let's do our best, if something

22

happens, to give a note to Mr. Smallman so that I can call a

23

break because what I don't want --

24

MR. LaBREW:

25

THE COURT:

Is her to fall out in front of the jury?
What I don't want is to be having a

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0179

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 119 of 128
IAA5SHAC
conference

119

1

medical moment in front of the jury if we can avoid it.

2

pass a note to Mr. Smallman if your client needs medical help

3

and we will excuse the jury and we will get medical help and

4

then we will continue on with the trial.

5
6

MR. LaBREW:

Okay.

So,

That would be kind of prejudicial

to the defense if she fell out in front of the jury.

7

THE COURT:

It would be distracting to everybody.

In

8

the end, we are trying to focus, if it isn't obvious by now, on

9

events in June of 2012 and I am really trying to get rid of

10

extraneous stuff in all directions.

And there is no suggestion

11

of causation here of her condition now which appears to have

12

been from some recent incident so the answer is it is just

13

distracting, it lets them wonder and puts thoughts in people's

14

head.

So, let's keep it out of the view of the jury.

15

I would like you to, with the two binders you are

16

going to give me by the end of the day Thursday, give me a

17

numbered exhibit list and please label each exhibit.

18

need an exhibit list for myself and one for my law clerk

19

Mr. Stone.

20

Prior testimony.

The defense did not -- Plaintiff did

21

not call any of the defendants.

22

plaintiffs?

23

MS. GARMAN:

24

THE COURT:

25

MS. GARMAN:

I will

Defense, did you call both

For deposition, your Honor?
Yes.
Yes, we did; and they also both had 50(h)

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0180

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 120 of 128
IAA5SHAC
conference

1

hearing testimony.

2

THE COURT:

3

Here is the important thing.

4

set of prior testimony, number one.

5

120

All right.

I'm glad I did not know that.

I want copies, two copies of each

Number two, focusing first on the depo testimony, if

6

it is your intention to use prior testimony to examine you have

7

already indicated you don't intend to offer, on its own terms,

8

deposition testimony.

9

of examination and I appreciate that, that's the better way to

You would be offering it in the course

10

do it and I am glad you are taking the same approach.

So that

11

we don't have any missteps, when you are using prior testimony

12

I expect you to use the old conventional formulation, which is

13

to say the first time out establish the fact of the prior

14

testimony and that it was given under oath and that she

15

testified truthfully.

16

And when you were questioned, were you asked the following

17

questions and did you give the following answers?

18

point I want you to call out to me the page and line number so

19

that you would say, Your Honor, page 32, lines 1 through 10.

20

And then you need to pause.

21

determine whether or not the prior testimony is, indeed,

22

inconsistent with the current testimony.

23

get that wrong or are just putting something out there that

24

isn't inconsistent and if I say no, I won't allow it, it is

25

because I'm making a judgment not for some other reason, but at

And then, having done that, just say,

At that

You need to pause for me to

Very often counsel

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0181

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 121 of 128
IAA5SHAC
conference

121

1

that point simply that an inconsistency hasn't been shown.

2

you want to go there, just formulate a question that more

3

naturally captures the earlier question so that if the witness

4

then denies it, then you have got the prior testimony as being

5

clearly inconsistent.

6

under those circumstances comes in not just for impeachment but

7

for the truth of the matter asserted.

8
9
10

If

And, as you know, the prior testimony

Okay?

But, I have had people garble this and I don't want to
be in a teaching moment during the trial so please do it that
way.

11

MS. GARMAN:

12

THE COURT:

Certainly, your Honor.
Here is the next step which is,

13

Mr. LaBrew, you will have copies of your client's prior depo

14

testimony.

15

client denies giving the testimony that counsel has accurately

16

read to them.

17

reporter from the deposition.

18

faithfully read aloud an excerpt of the deposition and so the

19

question is:

20
21

Once in a blue moon you have a situation where the

We are not going to call, I hope, the court
I expect you, if counsel have

Were you asked the following questions and did you
give the following answers?

22

What is the name of the two area local baseball teams?

23

Answer:

24

No, I didn't give that testimony -- and it is sitting

25

Yankees and the Mets.

there, right there, in black and white, I expect you to say,
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0182

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 122 of 128
IAA5SHAC
conference

122

1

your Honor, we will stipulate that that testimony was given.

2

Otherwise, we will wind up in this ridiculous situation of my

3

having to take judicial notice of it, which nobody wants, or

4

our having to get the court reporter for the deposition which

5

is a waste of everybody's time.

6
7

MR. LaBREW:

I am assuming I had everybody review

their testimony so what she said is what she said.

8

THE COURT:

Right.

9

MR. LaBREW:

So we won't even reach the issue where I

10

will have to say -- I understand what you are saying.

11

think we are going to get there.

12

THE COURT:

I don't

I don't think we will either and I will

13

urge your client, because your client looks terrible if your

14

client denies something that in black and white happened.

15

MR. LaBREW:

16

THE COURT:

Right.
But the problem is as a formal matter

17

because the testimony isn't certified, unless I am to sort of

18

generally take judicial notice of a photocopy, as a formal

19

matter you would wind up in this ridiculous place where she

20

won't acknowledge that that's her prior testimony, you would

21

have to get the court reporter -- that's crazy.

22

let her know that.

23

don't recall if I gave that testimony and defense counsel then

24

puts it in front of her and says, look, I'm going to ask you to

25

look at page 32, lines 1 through 10, and I ask you, again, did

So, please,

If it comes to the point where she says I

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0183

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 123 of 128
IAA5SHAC
conference

123

1

you give the testimony I just read, I expect that she will say

2

yes, because otherwise we are in this never-world where you

3

then have to undermine her by saying we will stipulate the

4

testimony is given, or I need to undermine her by stating that

5

that was in fact the testimony, or we get the court reporter.

6

That's not a good look for anybody.

7

MR. LaBREW:

8

I'm not trying to get to the last three

options.

9

THE COURT:

Look.

10

MR. LaBREW:

Yes.

11

THE COURT:

Please, work with your client.

The prior testimony is what it is.

There

12

is always a moment in which somebody looks silly for giving

13

prior testimony that is inconsistent their current testimony.

14

If you prep with your client she will at least remember what it

15

was and hopefully not run from it today in court or whatever,

16

but I'm just offering you that I have seen play before.

17

better for your client that she not be in that situation of

18

being undermined.

19
20
21

It's

So, work with her on that.

MR. LaBREW:

I will, your Honor.

We are not going to

have you take judicial notice of something.
THE COURT:

Right.

It is a bad look and I want you

22

to, if it is going to come out as prior testimony because it is

23

otherwise properly used by the defendant, let's do it in a

24

clean way where your client owns that.

25

MR. LaBREW:

And I will probably, since it has been

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0184

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 124 of 128
IAA5SHAC
conference

1

brought up, bring it up with her and let her explain.

2
3

THE COURT:

Well, you can -- what do you mean let her

explain?

4
5

124

MR. LaBREW:

You know, if this issue about these prior

removals, you know if --

6

THE COURT:

I'm not talking about the substance.

7

don't know what the prior testimony is going to be.

8

is plaintiffs --

9

MR. LaBREW:

10

THE COURT:

11

client runs from it.

12

MR. LaBREW:

13

THE COURT:

I

The issue

The seizure.
Defendants will only get to it if your

Right.
So, if your client testifies consistent

14

with the prior testimony, there is no need to get to the prior

15

testimony.

16

runs from it.

17
18

The prior testimony comes in only if your client
Right?

MR. LaBREW:

THE COURT:

20

MR. LaBREW:

21

THE COURT:

23

She said what she said under

oath.

19

22

Right.

Good.
And I gave her the transcripts to review.
So, on Thursday, kindly get me copies of

the prior testimony.
Now, as to the prior statements she gave was it to

24

the -- what was the other statement, Ms. Garman, that you said

25

that defendant gave?
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0185

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 125 of 128
IAA5SHAC
conference

1

MS. GARMAN:

125

Both plaintiffs, and also the non-party

2

Noah Shaheed gave 50(h) hearing testimony as well and we will

3

provide your Honor with copies.

4

THE COURT:

I need copies of that.

5

But here is the thing, 50(h) can't be referred to as

6

such.

It can't be referred to as a disciplinary proceeding

7

that she asked to be under way or whatever.

8

that as a prior proceeding.

9

MS. GARMAN:

Okay.

10

prior proceeding by the date.

11

THE COURT:

Right.

12

under oath?

13

on whatever that date is.

14

disciplinary, is out.

15

prior testimony under oath.

16

formulation for that.

Please refer to

We will just identify it as a

It is testimony, right?

So, did you give prior testimony in a proceeding
But, for both of you, 50(h),

The relevant point is that she gave
Okay?

So prior proceeding is the

17

Understood?

18

MR. LaBREW:

Understood, your Honor.

19

MS. GARMAN:

Yes, your Honor.

20

THE COURT:

21

my list.

22

have to raise?

23

It is

I think I have now exhausted everything on

Beginning with plaintiff, is there anything else you

MR. LaBREW:

Yes, your Honor.

It is just that issue I

24

brought up before as far as the jury instruction because I'm

25

going to open on that.
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0186

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 126 of 128
IAA5SHAC
conference

1

THE COURT:

2

MR. LaBREW:

126

What's the instruction that you are -I ask that, for an instruction that in a

3

Family Court proceeding in New York State Court that a parent,

4

(A) has a constitutional right to raise their child; and (B) a

5

parent does not have to assist or work with ACS in any

6

investigation of their children.

7

THE COURT:

Look.

I'm not going to give an

8

instruction on the law.

I think the way for you to do this is

9

simply to say -- in other words, I may or may not have an

10

occasion to give an instruction on the law at the end of the

11

case.

12

at the outset because otherwise it assigns way too much

13

importance to one point.

14

she was not obliged to hand over the child.

I'm not going to cherry pick bits and pieces of the law

15

MR. LaBREW:

16

THE COURT:

Your point here is under the warrant

Correct.
But, she's not accused of failing to hand

17

over the child.

She is accused of -- I think she was not

18

charged with that either.

19

ask Ms. Garman.

She was charged with what -- let me

20

What was she charged with?

21

MS. GARMAN:

22
23
24
25

Resisting arrest?

Resisting arrest, obstruction of

governmental administration, and assault on a police officer.
THE COURT:

In other words, were the kids even in the

house at the time?
MS. GARMAN:

No.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0187

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 127 of 128
IAA5SHAC
conference

1
2

MR. LaBREW:

127

But the obstruction of governmental

administration, that goes to the whole --

3

THE COURT:

But the theory of the obstruction of

4

governmental investigation, and your officers will explain what

5

that's about, presumably is not failing to turn over the child.

6

It is affirmatively interfering or obstructing.

7

MS. GARMAN:

8

THE COURT:

9

Correct.
The problem is it is a bit of a red

herring to, you know -- they're not accused of failing to

10

affirmatively hand over the child like I would hand you this

11

pen.

12

charging them on the law, you know.

13

articulate way of capturing the idea that --

14
15

That's not the accusation and so I don't want you to be

MR. LaBREW:

I am sure you can find an

You don't have to just hand over your

child to Family Services, you have no obligation to do that.

16

THE COURT:

You are walking right into their opening

17

statement if you go there, but that's fine.

18

going to say, and that's not what she is accused of doing, she

19

is accused of hitting him in the face or whatever it is that

20

they say that the --

21

MR. LaBREW:

22

THE COURT:

23

I mean, they're

I will handle that, your Honor.
Look.

I don't want representations of the

law.

24

MR. LaBREW:

25

THE COURT:

Okay.
Let me ask you one final question.

SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0188

Case 1:14-cv-07424-PAE Document 231 Filed 02/08/19 Page 128 of 128
IAA5SHAC
conference

1

Off the record.

2

(Discussion off record)

3

128

o0o

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
SOUTHERN DISTRICT REPORTERS, P.C.
(212) 805-0300

A0189

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 1 of 36

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DAGHRIB SHAHEED
Plaintiff
V.

THE CITY OF NEW YORK

AMENDED COMPLAINT
Civil Case No. 14 cv 7424

NEW YORK CITY POLICE OFFICER
STEPHAN KROSKI (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
PAUL BLISS (In an Individual Capacity and
In an Official Capacity)
NEW YORK CITY POLICE OFFICER
JONA THAN RODRIGUEZ (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE OFFICER
LYDIA FIGUEROA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE LIEUTENANT
KISHON HICKMAN (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
CHRISTOPHER MITCHELL (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE OFFICER
ALEX PEREZ (In an Individual Capacity
and In an Official Capacity)
Defendants
(Additional Defendants continued)

Appendix G

Page I of 36

A0190

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 2 of 36

NEW YORK CITY POLICE CHIEF
WILLIAM MORRIS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE
COMMISSIONER JAMES P. O'NEIL (In
an Individual Capacity and In an Official
Capacity)
NEW YORK CITY DEPUTY POLICE
CHIEF JOHN ESSIG (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY ASSISTANT CHIEF
RODNEY HARRISON (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY DEPUTY CHIEF
ANDREW CAPUL (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE INSPECTOR
ROBERT LUKACH (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DEPUTY
INSPECTOR WILSON ARAMBOLES (In
an Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE INSPECTOR
FAUSTO PICHARDO (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE CAPTAIN
TIMOTHY WILSON (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY DEPUTY INSPECTOR
MARLON LARIN (In an Individual
Capacity and In an Official Capacity)
Defendants (cont.)

Page 2 of 36

A0191

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 3 of 36

NEW YORK CITY POLICE CAPTAIN
BRIAN FRANKLIN (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE INSPECTOR
ERIC PAGAN (In an Individual Capacity
and In an Official Capacity)
NEW YORK CITY POLICE LIEUTENANT
HUGH MACKENZIE (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE SERGEANT
CHARLES EWINGS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE SERGEANT
MEDINA (In an Individual Capacity and In
an Official Capacity)
NEW YORK CITY POLICE OFFICER
EDWARD SALTMAN (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
DANIEL TROYER (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE AWILDA
MELHADO (]n an Individual Capacity and
In an Official Capacity)
NEW YORK CITY POLICE DETECTl\lE
DARREN MCNAMARA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
ANTHONY SELVAGGI (In an Individual
Capacity and In an Official Capacity)
Defendants (cont.)

Page 3 of 36

A0192

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 4 of 36

NEW YORK CITY POLICE DETECTIVE
ETHAN ERLICH (In an Individual Capacity
and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
HENRY MEDINA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
EDWARD BIRMINGHAM (In an
Individual Capacity and In an Official
Capacity)
NEW YORK CITY POLICE DETECTIVE
CLIFFORD PARKS (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE DETECTIVE
ANTONIO RIVERA (In an Individual
Capacity and In an Official Capacity)
NEW YORK CITY POLICE OFFICER
JOHN DOE (fictitious (name) (In an
Individual Capacity and In an Official
Capacity)
Defendants
I. Now comes the PlaintiffDaghrib Shaheed, by and through her attorney, Lawrence P. LaBrew,
of the Law Office of Lawrence LaBrew, complaining against the Defendant City of New York,
Defendant New York City Police Officers (In an Official Capacity and In an Individual
Capacity), and several John Doe Defendant New York City Police Officers (fictitious names) (In
Individual and In Official Capacities) and alleges as follows:
JURISDICTION AND VENUE
2. This action arises under the Constitution of the United States, particularly the First, Fourth,
Eighth, and Fourteenth Amendments to the Constitution of the United States, the Due Process

Page 4 of 36

A0193

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 5 of 36

Clause of the United States Constitution, and under the laws of the United States, particularly the
Civil Rights Act, Title 42 U .S.C. §§ 1983 and 1988.

3. This action also arises under the New York State Constitution, and New York State Law for the
intentional torts of Assault, Battery, Excessive Force, False Arrest, False Imprisonment,
Malicious Prosecution, and Intentional Infliction of Emotional Distress, and Trespass.
4. This Court has jurisdiction of this cause of action under Title 28 of the United States Code §§
133 I and 1343 (28 U.S.C.A. §§ 1331 and 1343).

5. This Court also has supplemental jurisdiction over the New York State causes of action under
Title 28 of the United States Code§ 1367 (28 U.S.C.A. § 1367).
6. The City ofNew York conducted an examination of the Plaintiff pursuant to N.Y. GEN. MUN.
LAW§ 50-h.
7. Venue is placed in this District because the Defendants are located in this District.
DEMAND FOR A TRIAL BY JURY
8. The Plaintiff demands trial by Jury on all counts in this complaint pursuant to Seventh
Amendment to the United States Constitution, and pursuant to Rule 38 of the Federal Rules of
Civil Procedure.
PARTIES
9. Plaintiff Daghrib Shaheed is a citizen of the United States who resides in New York City.
Plaintiff does not have, and has never had, and children.
10. Defendant New York City Police Officer Stephen Kroski is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 6 June 2012.
11. Defendant New York City Police Officer Paul Bliss is being sued individually, and in an

Page 5 of 36

A0194

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 6 of 36

official capacity, in relation to the events alleged in this complaint on 6 June 2012
12. Defendant New York City Police Officer Jonathan Rodriguez is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
13. Defendant New York City Police Lieutenant Kishon Hickman is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
14. Defendant New York City Police Officer Christopher Mitchell is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 6 June 2012.
15. Defendant New York City Police Officer Alex Perez is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 6 June 2012, 29 June 2012
and 30 June 2012.
16. Defendant New York City Police Chief William Morris is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
17. Defendant New York City Police Commissioner James P. O'Neil is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and
30 June 2012.

18. Defendant New York City Police John Essig is being sued individually, and in an official
capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June 2012.
19. Defendant New York City Police Assistant Chief Rodney Harrison is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and
30 June 2012.
20. Defendant New York City Police Deputy Chief Andrew Capul is being sued individually, and

Page 6 of 36

A0195

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 7 of 36

in an officia] capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
21. Defendant New York City Police Inspector Robert Lukach is being sued individuaHy, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
22. Defendant New York City Police Deputy Inspector Wilson Aramboles is being sued
individually, and in an official capacity, in relation to the events alleged in this complaint on 29
June 2012, and 30 June 2012.
23. Defendant New York City Police Inspector Fausto Pichardo is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
24. Defendant New York City Police Captain Timothy Wilson is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
25. Defendant New York City Police Deputy Inspector Marlon Larin is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and
30 June 2012.
26. Defendant New York City Police Captain Brian Franklin is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
27. Defendant New York City Police Inspector Eric Pagan is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June

Page 7 of 36

A0196

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 8 of 36

2012.
28. Defendant New York City Police Lieutenant Hugh MacKenzie is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
29. Defendant New York City Police Lieutenant Kishon Hickman is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
30. Defendant New York City Police Officer Charles Ewing is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
31. Defendant New York City Police Sergeant Medina is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
32. Defendant New York City Police Officer Alex Perez is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
33. Defendant New York City Police Officer Daniel Troyer is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
34. Defendant New York City Police Detective Darren McNamara is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.

Page 8 of 36

A0197

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 9 of 36

35. Defendant New York City Police Detective Anthony Selvaggi is being sued individually, and
in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
36. Defendant New York City Police Detective Ethan Erlich is being sued individually, and in an
official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30 June
2012.
37. Defendant New York City Police Detective Henry Medina is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
38. Defendant New York City Police Detective Edward Birmingham is being sued individually,
and in an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and
30 June 2012.
39. Defendant New York City Police Detective Clifford Parks is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
40. Defendant New York City Police Detective Antonio Rivera is being sued individually, and in
an official capacity, in relation to the events alleged in this complaint on 29 June 2012, and 30
June 2012.
41. Defendant New York City Police Officer John Doe (fictitious name) is being sued
individually, and in an official capacity, in relation to the events alleged in this complaint on 6
June 2012, 29 June 2012, and 30 June 2012.
42. The true names and identities of the "DOE" defendants are presently unknown to Plaintiff.

Page 9 of 36

A0198

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 10 of 36

Plaintiff uses the fictitious name "DOE" to designate these Defendants. Plaintiffs allege that the
"DOE" Defendants, along with the other Defendants, are legally responsible for the incidents,
injuries, and damages set forth herein, and that each of the Defendants proximately caused the
incident, injuries, and damages by reason of their negligence, breach of duty, negligent
supervision, management or control, violation of constitutional rights, or by reason of other
personal, vicarious, or imputed negligence, fault, or breach of duty, whether based on agency,
employment, control, whether severally or jointly, or whether based on any other act or omission.
Plaintiff will seek to amend this Complaint as soon as the true names and identities of each of the
"DOE" defendants has been ascertained.
43. Each of the Defendants, including the "DOE" defendants, caused, and is legally responsible
for, the incidents, unlawful conduct, injuries, and damages alleged by personally participating in
the unlawful conduct, or acting jointly or conspiring with others to act, by authorizing or
allowing, explicitly or implicitly, policies, plans, customs, practices, actions, or omissions that led
to the unlawful conduct, by failing to take action to prevent the unlawful conduct, by failing or
refusing to initiate and maintain adequate training or supervision, and thus constituting deliberate
indifference to Plaintiffs rights, and by ratifying the unlawful conduct that occurred that occurred
by agents and officers under their direction and control, including failing to take remedial or
disciplinary action.
44. Plaintiffs is informed and believes and therefore alleges that at all times mentioned in this
Complaint, Defendant, and each of them, were the agents, employees, servants, joint ventures,
partners, and/or coconspirators of the other Defendants named in the Complaint as indicated, and
that at all times, each of the Defendants was acting within the course and scope of that

Page 10 of 36

A0199

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 11 of 36

relationship with the other Defendants.
45. In doing the acts and/omissions alleged, Defendant, and each of them, acted under color of
authority and/or color of state law at all relevant times.
46. Plaintiff is informed and believes, and therefore alleges, that the violations of the Plaintiffs
constitutional rights complained of were caused by customs, policies, and/or practices of
authorized policymakers of Defendant City of New York, and other supervisory officials of
Defendant City of New York's Police Department, which encouraged, authorized, directed,
condoned, and/or ratified the unconstitutional and unlawful conduct complained of in this
Complaint. These customs, policies, and/or practices were the moving force behind the violations
alleged, and include, but are not limited to failing to maintain adequate policies, failing to
adequately train, supervise, and control police officers concerning entries into the homes of
individuals, failing to investigate and impose discipline on police officers who employ improper
investigation methods, and failing to adopt other remedial measures and policies to ensure that
such violations do not recur.
47. Each of the Defendants, including the "DOE" defendants caused, and are legally responsible
for, the incidents, unlawful conduct, injuries, and damages alleged by personally participating in
the unlawful conduct, or acting jointly or conspiring with others to act, by authorizibng or
allowing, explicitly or implicitly, policies, plans, customs, practices, actions, or omissions that led
to the unlawful conduct, by failing to take action to prevent the unlawful conduct, by failing or
refusing to initiate and maintain adequate training or supervision, and exercising deliberate
indifference to Plaintiffs rights, and by ratifying the unlawful conduct that occurred by the City
of New York or by agents and officers under the direction and control of the City of New York,

Page 11 of 36

A0200

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 12 of 36

and by failing to take remedial or disciplinary action against said agents or officers.
48. The City of New York is a municipal corporation and governmental subdivision of the State
ofNew York.
FACTS
49. Plaintiff Shaheed was 25 years old, 5 feet 7 inches tall, and weighed approximately 118
pounds on 6 June 2012. Plaintiff does not have any children. On 6 June 2012, Plaintiff resided
with her mother and siblings. Plaintiff was a legal tenant on the lease at the location where the
incidents alleged at this complaint happened. On 6 June 2012, at about 6:30 in the evening,
Defendant Police Officer Stephan Kroski began banging on the door of the Plaintiff demanding
entry into the Plaintiffs apartment. Defendant Police Officer Stephan Kroski was accompanied
by the following Defendant New York City Police Officers: ( 1) Police Lieutenant Kishon
Hickman, (2) Police Officer Paul Bliss, (3) Police Officer Jonathan Rodriguez, (4) New York
City Police Officer Christopher Mitchell, and (5) several John Does (fictitious name).
50. Plaintiffs brother - Mr. Noah Shaheed

opened the door; and, while standing inside of the

apartment, asked Defendant Police Officer Kroski if he had a warrant. The Plaintiff states that
Defendant Stephan Kroski stated that he did not need a warrant.
51. At this point the Defendant Police Officers forced their way into the apartment. Including the
named Defendants, there were approximately ten (10) New York City Police Officers who
entered Plaintiffs apartment.
52. Plaintiff asked the Defendant Police Officers to leave her apartment if they did not have a
warrant. The Defendant Police Officers refused to leave the apartment. Defendant Police Officer
Kroski told the Plaintiff that "he did not need a warrant;" and that the Police were at the location

Page 12 of 36

A0201

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 13 of 36

to see the Plaintiffs "babies." The Plaintiff told the Defendant Kroski that the Plaintiff did not
have any babies.
53. Defendant New York City Police Officer John Doe (fictitious name) grabbed Plaintiff- while
Plaintiff was inside of Plaintiffs apartment

and dragged Plaintiff into the kitchen of her

apartment.
54. Plaintiff asked Defendant New York City Police Officer John Doe (fictitious name) if Plaintiff
was under arrest. Defendant Police Officer John Doe (fictitious name) told Plaintiff that she was
not under arrest.
55. Defendant Police Officer John Doe (fictitious name) told Plaintiff that he had to handcuff
Plaintiff, and Defendant John Doe (fictitious name) handcuffed Plaintiff while Plaintiff was in her
kitchen.
56. Plaintiff's bedroom was searched without permission or authority. Plaintiff's closet and
dresser were searched without permission or authority. Plaintiff's bed was damaged during the
search of Plaintiff's bedroom.
57. Defendant New York City Police Officer Paul Bliss entered Plaintiffs kitchen and demanded
to know where Plaintiff's babies were located. Plaintiff stated that she did not have any babies.
Defendant Police Officer Bliss grabbed the Plaintiff by the arm, and forcefully removed the
Plaintiff from Plaintiff's apartment. Plaintiff asked where she was being taken and why (Plaintiff
Shaheed was still in handcuffs). Defendant Police Officer Bliss told the Plaintiff that she was
going to the Precinct, and forcefully pulled Plaintiff by the arm. Plaintiff asked Defendant Police
Officer Bliss if she could put on her shoes. Defendant Police Officer Bliss told the Plaintiff: "You
don't need shoes savage." Plaintiff was forcibly removed from her apartment in handcuffs and

Page 13 of 36

A0202

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 14 of 36

taken to the 25 th Precinct.
58. Defendant New York City Police Officer Bliss told his partner "Let's take this savage in."
Plaintiff asked Defendant Bliss what this was all about. Defendant Poliee Officer Bliss told his
partner "This monkey needs to shut up." While being transported to the Precinct Defendant Police
Officer Bliss told the Plaintiff"You know what you savage bitch, you can't even take care of the
babies that you have."
59. After the police vehicle stopped at the 25 th Precinct, Defendant Police Officer Bliss yanked
Plaintiff Shaheed out of the car causing Plaintiff to hit her head against the car while being pulled
out of the vehicle.
60. Defendant New York City Police Officer John Doe searched Plaintiff Shaheed. Defendant
Police Officer John Doe took Plaintiffs cell phone. Plaintiff Shaheed's cell phone was never
returned to the Plaintiff, and said cell phone contained video footage of the incident on 6 June
2012.
61. Plaintiff asked to be taken to the hospital. Plaintiff was taken to Mount Sinai Hospital.
Defendant New York City Police Officer Jonathan Rodriguez escorted Plaintiff to the Hospital.
Plaintiff was handcuffed to a bed while in the hospital. Plaintiff complained about pain in the left
arm. Plaintiff suffered a bone bruise, a shoulder joint tear, substantial pain and suffering and
mental distress.
62. Plaintiff was taken back to the 25 th Precinct, with no shoes, and placed in a cell with urine on
the floor.
63. After approximately two days, Plaintiff appeared in Court, was arraigned, and was charged
with the following two counts: 1) one count of Resisting Arrest (N.Y. PENAL LAW§ 205.30),

Page 14 of 36

A0203

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 15 of 36

and 2) one count of Obstruction of Governmental Administration in the Second Degree (N.Y.
PENAL LAW§ 195.05). Plaintiff was required to appear in Court approximately 11 times.
64. Plaintiff denies the allegations in the complaint sworn to by Defendant New York City Police
Officer Stephan Kroski on 7 June 2012. Plaintiff states that. she never jumped on Defendant
Kroski's back, and that she never resisted arrest by twisting her body and refusing to place her
hands behind her back.
65. Plaintiff states that the criminal accusatory instrument that wrongly charged Plaintiff Shaheed
with Resisting Arrest, and Obstruction of Governmental Administration in the Second Degree,
was defective under New York State Law because said criminal accusatory instrument did not
allege that the arrest was lawful or authorized.
66. After 6 June 2012, from time to time, Defendant New York City Police Officer Kroski would
follow Plaintiff in his police car when he would see Plaintiff in public.
67. On 18 September 2013 the criminal case was dismissed on the merits and sealed.
68. On 29 June 2012, at approximately 6:30 in the evening, New York City Police Detective
McNamara knocked on the Plaintiffs door, and the occupants to open the door. Plaintiff's
brother, Mr. Noah Shaheed, asked the Defendant Detective if the Detective had a warrant or some
other authorization. Defendant Detective McNamara said that he had a warrant. Plaintiffs
mother, Ms. Waheedah Shaheed, asked Detective McNamara to produce the warrant. Plaintiff
states that Defendant McNamara failed to produce any warrant, or other documentation,
authorizing entry to the subject location.
69. Defendant McNamara asked the Plaintiff to open the door to talk. When the Plaintiff did not
assent to Defendant McNamara demands the Plaintiff was told (in sum and substance) by

Page 15 of 36

A0204

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 16 of 36

Defendant McNamara that Plaintiff "open the door and we can do this the easy way, or we can
do this the hard way, and it'll be worst than June 6th."
70. The Defendants continued banging on the door demanding entry. About two hours after the
Defendants initially arrived, the lights went out, the air conditioning went out, and all electrical
power to the apartment was terminated.
71. On 30 June 2012, a specialized police unit (the emergency services unit or ESU), the
Defendants forced their way into the apartment. The police officers were armed with assault
rifles, and they were dressed and equipped like military soldiers. They pointed their rifles at every
one and every one was told to get down on the floor. Defendant Police Officer John Doe
(fictitious name) stated that they "were going to tear the walls down to find your brother."
72. Plaintiff states that her property was damaged, the family pet hamster was killed, and Plaintiff
was searched and handcuffed inside of her apartment. While being physically removed from her
apartment building, Plaintiff noticed that the building was surrounded by police officers.
73. Plaintiff was taken from her apartment in handcuffs

with neighbors and a large number of

people on the street - placed in an ambulance, and taken to Harlem Hospital.
74. Plaintiff Shaheed was uncuffed at Harlem Hospital and released from custody. She never
appeared before a Judge, or in a courtroom, and she was never taken to a police precinct.
FEDERAL CLAIMS
COUNT ONE: FALSE ARREST
75. Plaintiff re-alleges paragraphs 1 through 74 as though set forth in full herein.
76. The Plaintiff states that she was illegally seized, searched, and arrested in violation of the
Fourth, and Fourteenth, Amendments to the United States Constitution when she was arrested by

Page 16 of 36

A0205

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 17 of 36

Defendant Police Officer Stephan Kroski on or about 6 June 2012.
77. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff on 6 June 2012.
78. The Plaintiff denies resisting a lawful arrest on or about 6 June 2012, and the Plaintiff denies
engaging in any conduct to obstruct governmental administration that would be construed as
resisting a lawful arrest on or about 6 June 2012.
79. Defendant Police Officer Stephan Kroski (or any other police officer or peace officer) did not
have an arrest warrant for the Plaintiff on 6 June 2012.
80. Defendant Police Officer Stephan Kroski (or any other police officer or peace officer) did not
have a search warrant to enter the Plaintiffs residence on 6 June 2012.
81. Plaintiff states that she was intentionally confined without her consent by the Defendants, and
that the arrest and imprisonment of the Plaintiff was not privileged or justified.
82. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation of
the Fourth Amendment to the United States Constitution.
83. Upon information and belief, that being the Plaintiff in this case, the Plaintiff was had not
committing any crime or offense when she was arrested on 6 June 2012, and Plaintiff was
not in possession of - or in close proximity to - any contraband, instrumentalities of a crime, fruits
of a crime, or any other evidence of criminal wrongdoing.
84. Plaintiff states that the Defendant intentionally seized the Plaintiff and that the conduct of the
Defendant shocks the conscience.
85. As a direct and proximate result of the wrongful conduct of Defendants as alleged above,
Plaintiff suffered mental anguish, loss of earnings, loss of capacity for the enjoyment of life, loss

Page 17 of 36

A0206

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 18 of 36

ofliberty, physical injury, pain and suffering, and injury to the Plaintiffs reputation and good
name.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as that amount will sufficiently punish Defendant Police Officers, and Defendant Police
Detectives, for willful and malicious conduct. Said award of punitive damages will serve as an
example to prevent a repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the

prosecution of this action to be paid by the Defendants.
COUNT TWO: FALSE IMPRISONMENT
Plaintiff re-alleges paragraphs 1 through 85 as though set forth in full herein.
86. The Plaintiff states that she was falsely imprisoned in violation of the Fourth, and Fourteenth,
Amendments to the United States Constitution when she was arrested by Defendant Police
Officer Stephan Kroski on or about 6 June 2012.
87. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff because on 6 June 2012.
88. administration on or about 6 June 2012.
89. The Plaintiff denies resisting a lawful arrest on or about 6 June 2012, and the Plaintiff states
that Plaintiff never obstructed governmental administration when the Police entered Plaintiff's

Page 18 of 36

A0207

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 19 of 36

residence on 6 June 2012. The Plaintiff denies engaging in any conduct that could be construed
as resisting a lawful arrest on or about 6 June 2012.
90. Defendant Police Officer Stephan Kroski (or any other police officer or peace officer) did not
have an arrest warrant for the Plaintiff on 6 June 2012.
91. Defendant Police Officer Stephan Kroski (or any other police officer or peace officer) did not
have a search warrant to enter the Plaintiff's residence on 6 June 2012.
92. Plaintiff states that she was intentionally confined without her consent, and that the arrest and
imprisonment of the Plaintiff was not privileged or justified.
93. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation of
the Fourth Amendment to the United States Constitution.
94. Upon information and belief, that being the Plaintiff in this case, the Plaintiff was had not
committing any crime or offense when she was arrested on 6 June 2012, and Plaintiff was
not in possession of - or in close proximity to - any contraband, instrumentalities of a crime, fruits
of a crime, or any other evidence of criminal wrongdoing.
95. Plaintiff states that the Defendant intentionally seized the Plaintiff and that the conduct of the
Defendant shocks the conscience.
96. As a direct and proximate result of the wrongful conduct of Defendant Police Officers as
alleged above, Plaintiff suffered mental anguish, loss of earnings, loss of capacity for
the enjoyment of life, loss ofliberty, physical injury, pain and suffering, and injury to the
Plaintiffs reputation and good name.
WHEREFORE, Plaintiff respectfully requests judgment against the Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million

Page 19 of 36

A0208

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 20 of 36

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as that amount will sufficiently punish Defendant Police Officers' willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT THREE: FALSE IMPRISONMENT
Plaintiff re-a11eges paragraphs 1 through 96 as though set forth in full herein.
97. The Plaintiff states that she was falsely imprisoned in violation of the Fourth, and Fourteenth,
Amendments to the United States Constitution when she was seized and arrested by Defendant
Police Officer Lydia Figueroa, and other Defendants, on or about 30 June 2012.
98. The Plaintiff states that the Defendants did not have probable cause, or arguable probable
cause, to seize/arrest the Plaintiff because on 29 June 2012 or 30 June 2012.
99. The Defendants (or any other police officer or peace officer) did not have an arrest warrant for
the Plaintiff on 29 June 2012, or on 30 June 2012.
I 00. The Defendants (or any other police officer or peace officer) did not have a search warrant to
enter the Plaintiffs residence on 29 June 2012 or 30 June 2012.

IO 1. Plaintiff states that she was intentionally confined without her consent, and that the arrest
and imprisonment of the Plaintiff was not privileged or justified.
102. Plaintiff states that Plaintiff was seized, falsely arrested, and falsely imprisoned in violation

Page 20 of 36

A0209

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 21 of 36

of the Fourth Amendment and Fourteenth Amendment to the United States Constitution.
103. Upon information and belief, that being the Plaintiff in this case, the Plaintiff had not, and
was not, committing any crime or offense when she was seized/arrested 29 June 2012, or on 30
June 2012, and Plaintiff was not in possession of - or in close proximity to - any contraband,
instrumentalities of a crime, fruits of a crime, or any other evidence of criminal wrongdoing.
104. Plaintiff states that the Defendants intentionally seized the Plaintiff and that the conduct of
the Defendants shocks the conscience.
105. As a direct and proximate result of the wrongful conduct of the Defendants as alleged above,
Plaintiff suffered mental anguish, loss of earnings, loss of capacity for the enjoyment of life, loss
ofliberty, physical injury, pain and suffering, and injury to the Plaintiffs reputation and good
name.
WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as that amount will sufficiently punish Defendant Police Officers for Defendant's willful
and malicious conduct and that said award of punitive damages will serve as an example to
prevent a repetition of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

Page 21 of 36

A0210

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 22 of 36

COUNT FOUR: SUBSTANTIVE DUE PROCESS VIOLATION FOR RECKLESS
INVESTIGATION
106. Plaintiff re-alleges paragraphs 1 through 105 as though set forth in full herein.
107. Plaintiff states that, on 6 June 2012, the Defendant New York City Police Officers denied the
Plaintiff substantive due process, and that the intentional conduct of the New York City Police
Officers "shocks the conscience".
108. The Plaintiff states the Defendants, and Defendant New York City Police Officers conducted
a reckless investigation in that the Defendants arrested the Plaintiff without probable cause, or
arguable probable cause, to believe that the Plaintiff had committed a crime.
109. Plaintiff states that she was at her apartment when the Defendants entered the Plaintiff's
apartment without permission or authority.
110. Plaintiff states that she was beaten, seized/arrested, and Plaintiff never gave the Defendant
Police Officers permission to enter here apartment.

WHEREFORE, Plaintiff respectfully requests judgment against the Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officers for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
Page 22 of 36

A0211

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 23 of 36

COUNT FIVE: SUBSTANTIVE DUE PROCESS VIOLATION FOR RECKLESS
INVESTIGATION
111. Plaintiff re-alleges paragraphs 1 through 110 as though set forth in full herein.
112. Plaintiff states that, on 29 June 2012 and 30 June 2012, the Defendant New York City Police
Officers denied the Plaintiff substantive due process, and that the intentional conduct of the New
York City Police Officers shocks the conscience".
113. The Plaintiff states the Defendant New York City Police Officers conducted a reckless
investigation in that the Defendants seized/arrested the Plaintiff without probable cause, or
arguable probable cause, to believe that the Plaintiff had committed a crime.
114. Plaintiff states that she was at her apartment when the Defendants entered the Plaintiffs
apartment without permission or authority.
115. Plaintiff states that she was beaten seized/arrested for not consenting to open her door when
the Defendants demanded entry to Plaintiffs residence.

WHEREFORE, Plaintiff respectfully requests judgment against the Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten ( I 0,000,000.00) million

dollars as will sufficiently punish Defendant Police Officers for Defendants' willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
Page 23 of 36

A0212

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 24 of 36

COUNT SIX: THE CITY OF NEW YORK PROVIDED INADEQUATE TRAINING AND
INADEQUATE SUPERVISION TO DEFENDANT POLICE OFFICER STEPHEN KROSKI
AND OTHER DEFENDANT POLICE OFFICERS
116. Plaintiff re-alleges paragraphs 1 through 115 as though set forth in full herein.
117. Plaintiff states that the City of New York was deliberately indifferent, and failed to properly
train or supervise the Defendant New York City Polices.
118. On 6 June 2012 the Defendants came to the Plaintiff's residence and demanded entry
without an arrest warrant and without a search warrant.
119. The Plaintiff had not committed any crime or violated any law.
120. The Defendants forced their way into the Plaintiff's apartment without consent. Plaintiff was
seized/arrested and physically beaten by Defendant Police Officers.
121. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot enter an individual's home if they
do not have an arrest warrant, a search warrant, or some compelling reason.
122. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot use excessive physical force against
an individual when they enter an individual's home without an arrest warrant, a search warrant, or
some compelling reason, and that individual has not committed any criminal offense.
123. Plaintiff states that the conduct of the Defendants' - as outlined in this complaint - will
frequently result in the deprivation of the constitutional rights of individuals.
WHEREFORE, Plaintiff respectfully requests judgment against Defendant as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million

dollars, together with interest at the legal rate from the date of judgment paid;

Page 24 of 36

A0213

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 25 of 36

B. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
C. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the

prosecution of this action to be paid by the Defendants.
COUNT SEVEN: THE CITY OF NEW YORK PROVIDED INADEQUATE TRAINING AND
INADEQUATE SUPERVISION TO DEFENDANT POLICE OFFICER LYDIA FIGUEROA
AND OTHER DEFENDANT POLICE OFFICERS
124. Plaintiff re-alleges paragraphs 1 through 123 as though set forth in full herein.
125. Plaintiff states that the City of New York was deliberately indifferent, and failed to properly
train or supervise the Defendant New York City Police Officers.
126. On 29 June 2012, and 30 June 2012, the Defendants came to the Plaintiffs residence and
demanded entry without an arrest warrant and without a search warrant.
127. The Plaintiff had not committed any crime or violated any law.
128. The Defendants forced their way into the Plaintiffs apartment without consent. Plaintiff was
seized/arrested and physically beaten by Defendant Police Officers.
129. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot enter an individual's home if they
do not have an arrest warrant, a search warrant, or some compelling reason.
130. Plaintiff states that proper training or supervision would have enabled Defendant New York
City Police Officers to understand that a police officer cannot use excessive physical force against
an individual when they enter an individual's home without an arrest warrant, a search warrant, or
some compelling reason, and that individual has not committed any criminal offense.
131. Plaintiff states that the conduct of the Defendants'

as outlined in this complaint-· will

frequently result in the deprivation of the constitutional rights of individuals.

Page 25 of 36

A0214

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 26 of 36

WHEREFORE, Plaintiff respectfully requests judgment against Defendant as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
C. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT EIGHT: FOURTH AMENDMENT MALICIOUS PROSECUTION CLAIM
132. Plaintiff re-alleges paragraphs 1 through 131 as though set forth in full herein.
133. The Plaintiff states that she was malicious prosecuted within the purview of the Fourth
Amendment and Fourteenth Amendment of the United States Constitution.
134. The Plaintiff states that she was deprived of her liberty on 6 June 2012 when she was
arrested and seized without probable cause, and that said arrest and seizure was unreasonable
because the Plaintiff had not committed any crime or violated any law.
13 5. The Plaintiff states that she was arraigned and forced to come to Court on every court date
regarding the afore-mentioned arrest prior to the case being dismissed on the merits and sealed.
136. The Plaintiff states that the Plaintiff had committed any crime when she was arrested by
Defendant Police Officers on 6 June 2012.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious

Page 26 of 36

A0215

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 27 of 36

conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT NINE: EXCESSIVE FORCE
137. Plaintiff re-alleges paragraphs 1 through 136 as though set forth in full herein.
138. Plaintiff states that on or about 6 June 2012 the misconduct of Defendant Police Officers
violated Plaintiffs right to be free from the unreasonable and excessive use of force as guaranteed
by the Fourth Amendment and the Fourteenth Amendment to the United States Constitution.
139. Defendants' misconduct directly and proximately caused Plaintiff to suffer injury including
bodily injury, pain and suffering, shock, extreme emotional distress, and humiliation.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the

prosecution of this action to be paid by the Defendants.

Page 27 of 36

A0216

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 28 of 36

COUNT TEN: EXCESSJVE FORCE
140.

Plaintiff re-alleges paragraphs 1 through 139 as though set forth in full herein.

141. Plaintiff states that on, about, or between 29 June 2014 and 30 June 2014, the misconduct of
the Defendants, and several John Doe Defendants - as alleged above - violated Plaintiff's right to
be free from the unreasonable and excessive use of force as guaranteed by the Fourth Amendment
and the Fourteenth Amendment to the United States Constitution.
142. Defendants' misconduct directly and proximately caused Plaintiff to suffer injury including
bodily injury, pain and suffering, shock, extreme emotional distress, and humiliation.
WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million

dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
NEW YORK STATE CLAIMS
143. The Plaintiff states that the City of New York is vicariously liable for the New York State
intentional torts - as alleged in this complaint - committed by Defendants under the doctrine of

respondeat superior.

Page 28 of 36

A0217

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 29 of 36

144. Plaintiff states that there is a master-servant relationship between the Defendants and the
City of New York.
145. The Plaintiff states that the Defendants were operating within the scope of their employment
- in their official capacity - when they committed the acts as alleged in this Complaint, and that
the Defendants were acting in furtherance of the City of New York's business or purpose.
COUNT ELEVEN: FALSE ARREST AND IMPRISONMENT
146. Plaintiff re-alleges paragraphs 1 through 145 as though set forth in full herein.
14 7. Plaintiff states that she was falsely arrested, falsely imprisoned, and intentionally confined
without her consent when Defendant New York City Police Officers intentionally seized and
arrested the Plaintiff- on 6 June 2012 - without probable cause.
148. Plaintiff states that the arrest - and confinement - of the Plaintiff was not otherwise
privileged or justified; and Plaintiff was conscious of the confinement.
149. Plaintiff states that the false arrest/false imprisonment - and intentional confinement without
consent - was done with malice.
150. Plaintiff states that the false arrest/false imprisonment was not otherwise privileged.
WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:

A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;

Page 29 of 36

A0218

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 30 of 36

C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

COUNT TWELVE: FALSE IMPRISONMENT
151. Plaintiff re-alleges paragraphs I through 150 as though set forth in full herein.
152. Plaintiff states that she was seized, falsely imprisoned, and intentionally confined without
her consent when Defendant New York City Police Officers intentionally seized and falsely
imprisoned the Plaintiff- on, about, or between 29 June 2012 and 30 June 2012

without

probable cause.
153. Plaintiff states that the seizure and imprisonment of the Plaintiff was not othenvise
privileged or justified; and Plaintiff was conscious of the confinement.
154. Plaintiff states that the seizure/false imprisonment - and intentional confinement without
consent - was done with malice.
155. Plaintiff states that the false imprisonment was not otherwise privileged.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and

Page 30 of 36

A0219

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 31 of 36

D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT THIRTEEN: INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
156. Plaintiff re-alleges paragraphs 1 through 155 as though set forth in full here.
157. The Plaintiff states that, on 6 June 2012, the Defendants engaged, were deliberately
indifferent, or condoned conduct that was extreme and outrageous.
158. That said conduct of the Defendants was performed with the intent to cause, or in disregard
of a substantial probability of causing, severe emotional distress.
159. The Plaintiff states that the actions of the Defendants caused severe emotional distress.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT FOURTEENTH: INTENTIONAL INFLICTION OF EMOTIONAL DISTRESS
160. Plaintiff re-alleges paragraphs 1 through 159 as though set forth in full here.
161. The Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the

Page 31 of 36

A0220

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 32 of 36

Defendants engaged, were deliberately indifferent, or condoned conduct that was extreme and
outrageous.
162. That said conduct of the Defendants was performed with the intent to cause, or in disregard
of a substantial probability of causing, severe emotional distress.
163. The Plaintiff states that the actions of the Defendants caused severe emotional distress.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiffbe awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;

B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT FIFTEEN: MALICIOUS PROSECUTION
164. Plaintiff re-alleges paragraphs 1 through 163 as though set forth in full herein.
165. The Plaintiff states that the criminal judicial proceedings that is the subject of this complaint
was terminated in favor of the Plaintiff because all charges were dismissed on the merits.
166. The Plaintiff states that the Defendant Police Officers did not have probable cause to arrest
the Plaintiff on 6 June 2012.
16 7. Plaintiff states that the Defendants arrested the Plaintiff for the wrong, or an improper

Page 32 of 36

A0221

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 33 of 36

motive and that the judicial proceeding was not commenced so that justice could be served.
168. Plaintiff states that the Defendants arrested the Plaintiff because

according to one of the

Defendant's own statements - the Defendants wanted to teach the Plaintiff a lesson.
169. Plaintiff states that the Defendants acted with malice when they seized/arrested the Plaintiff.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

COUNT SIXTEEN: ASSAULT
170. Plaintiff re-alleges paragraphs 1 through 169 as though set forth in full herein.
171. Plaintiff states that on 6 June 2012, Defendant Police Officers intentionally placed the
Plaintiff in fear of imminent harmful or offensive conduct.
172. Plaintiff states that the Defendants made an unjustified threat of force against the Plaintiff
that created a reasonable apprehension of immediate physical harm, and that the Defendants acted
on the afore-mentioned threat and caused the Plaintiff physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:

Page 33 of 36

A0222

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 34 of 36

A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant1s willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and

D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNTSEVENTEEN:ASSAULT
173. Plaintiff re-alleges paragraphs 1 through 172 as though set forth in full herein.
174. Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the Defendants
intentionally placed the Plaintiff in fear of imminent harmful or offensive conduct
175. Plaintiff states that the Defendants made an unjustified threat of force against the Plaintiff
that created a reasonable apprehension of immediate physical harm, and that the Defendants acted
on the afore-mentioned threat and caused the Plaintiff physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount of ten (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition

Page 34 of 36

A0223

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 35 of 36

of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT EIGHTEEN: BATTERY
176. Plaintiff re-alleges paragraphs 1 through 175 as though set forth in full herein.
177. Plaintiff states that on 6 June 2012 Defendant Police Officers intentionally make bodily
contact with the Plaintiff - without Plaintiff's consent - and caused the Plaintiff to suffer physical
mJury.
WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:

A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million
dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.
COUNT NINETEEN: BATTERY
178. Plaintiff re-alleges paragraphs 1 through 177 as though set forth in full herein.
179. Plaintiff states that on, about, or between 29 June 2012 and 30 June 2012, the Defendants

Page 35 of 36

A0224

Case 1:14-cv-07424-PAE Document 65 Filed 01/20/17 Page 36 of 36

intentionally make bodily contact with the Plaintiff- without Plaintiffs consent - and caused the
Plaintiff to suffer physical injury.

WHEREFORE, Plaintiff respectfully requests judgment against Defendants as follows:
A. That Plaintiff be awarded compensatory damages in the amount of five (5,000,000.00) million
dollars, together with interest at the legal rate from the date of judgment paid;
B. That Plaintiff be awarded punitive damages in the amount often (10,000,000.00) million

dollars as will sufficiently punish Defendant Police Officer for Defendant's willful and malicious
conduct and that said award of punitive damages will serve as an example to prevent a repetition
of such conduct in the future;
C. That Plaintiff be awarded costs of this litigation to be paid by the Defendants; and
D. That Plaintiff be awarded reasonable attorney's fees incurred in connection with the
prosecution of this action to be paid by the Defendants.

('

.·
I.../

, ,. , ;

,-~) \_

,,;1l

1fl~t0

Lawrence P. LaBrew~sq~(L4455)
Law Office of Lawrence LaBrew
Attorney for Plaintiff Daghrib Shaheed
160 Broadway Suite 600 6th Floor
New York, New York 10038
Tel: (212) 385-7500
(212)385-7501
Fax:

Page 36 of 36

A0225

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 1 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
----------------------------------------------------------------------- x
DAGHRIB SHAHEED,
Plaintiff,
-againstTHE CITY OF NEW YORK; NEW YORK CITY
POLICE OFFICER STEPHAN KROSKI (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER PAUL BLISS (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER JONATHAN RODRIGUEZ (In an
Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER LYDIA FIGUEROA (In
an Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE DETECTIVE JOHN DOE
(fictitious name) (In an Individual Capacity and In an
Official Capacity); NEW YORK CITY POLICE
DETECTIVE JAMES DOE (fictitious name) (In an
Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER JANE DOE (fictitious
name) (In an Individual Capacity and In an Official
Capacity); NEW YORK CITY POLICE OFFICER JOHN
DOE (fictitious name) (In an Individual Capacity and In an
Official Capacity); NEW YORK CITY POLICE OFFICER
JAMES DOE (fictitious name) (In an Individual Capacity
and In an Official Capacity),

ANSWER TO THE
COMPLAINT ON BEHALF
OF THE CITY OF NEW
YORK, STEPHAN KROSKI,
PAUL BLISS, JONATHAN
RODRIGUEZ AND LYDIA
FIGUEROA
14 CV 7424 (PAE)
Jury Trial Demanded

Defendants.
----------------------------------------------------------------------- x
Defendants City of New York, Stephan Kroski, Paul Bliss, Jonathan Rodriguez
and Lydia Figueroa by their attorney, Zachary W. Carter, Corporation Counsel of the City of
New York, for their answer to the complaint, respectfully allege, upon information and belief, as
follows:
1.

Deny the allegations set forth in paragraph “1” of the complaint, except admit that

plaintiff purports to bring this action and name parties stated therein.
Appendix H

A0226

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 2 of 17

2.

Deny the allegations set forth in paragraph “2” of the complaint, except admit that

plaintiff purports to bring this action and invoke the jurisdiction of the Court as stated therein.
3.

Deny the allegations set forth in paragraph “3” of the complaint, except admit that

plaintiff purports to bring this action as stated therein.
4.

Deny the allegations set forth in paragraph “4” of the complaint, except admit that

plaintiff purports to invoke the jurisdiction of the Court as stated therein.
5.

Deny the allegations set forth in paragraph “5” of the complaint, except admit that

plaintiff purports to invoke the supplemental jurisdiction of the Court as stated therein.
6.

Admit the allegations set forth in paragraph “6” of the complaint.

7.

Deny the allegations set forth in paragraph “7” of the complaint, except admit that

plaintiff purports to base venue as stated therein.
8.

Paragraph “8” of the complaint sets forth a demand for a jury trial and therefore,

no response is required.
9.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “9” of the complaint.
10.

Deny the allegations set forth in paragraph “10” of the complaint, except admit

that the City of New York employed Stephen Kroski as a police officer at the 25th Precinct on
June 6, 2012, and admit that plaintiff purports to sue defendant Kroski in his individual and
official capacities.
11.

Deny the allegations set forth in paragraph “11” of the complaint, except admit

that the City of New York employed Paul Bliss as a police officer at the 25th Precinct on June 6,
2012, and admit that plaintiff purports to sue defendant Bliss in his individual and official
capacities.

-2-

A0227

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 3 of 17

12.

Deny the allegations set forth in paragraph “12” of the complaint, except admit

that the City of New York employed Jonathan Rodriguez as a police officer at the 25th Precinct
on June 6, 2012, and admit that plaintiff purports to sue defendant Rodriguez in his individual
and official capacities.
13.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “13” of the complaint.
14.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “14” of the complaint.
15.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “15” of the complaint.
16.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “16” of the complaint.
17.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “17” of the complaint.
18.

Deny the allegations set forth in paragraph “18” of the complaint.

19.

Deny the allegations set forth in paragraph “19” of the complaint.

20.

Deny the allegations set forth in paragraph “20” of the complaint insofar as it

purports to set forth averments of fact; insofar as it sets forth conclusions of law, no response is
required.
21.

Deny the allegations set forth in paragraph “21” of the complaint.

22.

Deny the allegations set forth in paragraph “22” of the complaint.

23.

Deny the allegations set forth in paragraph “23” (which is an incomplete

sentence) of the complaint.

-3-

A0228

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 4 of 17

24.

Deny the allegations set forth in paragraph “24 of the complaint, except admit that

the City of New York is a municipal corporation organized under the laws of the State of New
York.
25.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “25” of the complaint, except admit that on June 6, 2012, at
approximately 6:47 p.m., plaintiff was at or near 26 East 129th Street, Apartment 3A in
Manhattan, and except admit that, at some point, defendant officers Stephan Kroski, Jonathan
Rodriguez and Paul Bliss were at or near 26 East 129th Street, Apartment 3A in Manhattan.
26.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “26” of the complaint.
27.

Deny the allegations set forth in paragraph “27” of the complaint.

28.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “28” of the complaint.
29.

Deny the allegations set forth in paragraph “29” of the complaint.

30.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “30” of the complaint.
31.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “31” of the complaint, except admit that plaintiff was arrested
and handcuffed.
32.

Deny the allegations set forth in paragraph “32” of the complaint.

33.

Deny the allegations set forth in paragraph “33” of the complaint, except admit

that plaintiff was arrested, handcuffed and transported to the 25th Precinct.
34.

Deny the allegations set forth in paragraph “34” of the complaint.

-4-

A0229

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 5 of 17

35.

Deny the allegations set forth in paragraph “35” of the complaint.

36.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “36” of the complaint.
37.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “37” of the complaint, except admit plaintiff was escorted to
the hospital by defendant Officer Rodriguez and that plaintiff was handcuffed at the hospital.
38.

Deny allegations set forth in paragraph “38” of the complaint, except admit that

plaintiff was at some point taken to the 25th Precinct.
39.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “39” of the complaint, except admit that plaintiff was arraigned
and charged with resisting arrest and obstruction of governmental administration.
40.

Deny the allegations set for in paragraph “40” of the complaint.

41.

Deny the allegations set for in paragraph “41” of the complaint.

42.

Deny the allegations set forth in paragraph “42” of the complaint.

43.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “43” of the complaint.
44.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “44” of the complaint.
45.

Deny the allegations set forth in paragraph “45” of the complaint.

46.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “46” of the complaint.

-5-

A0230

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 6 of 17

47.

Deny the allegations set forth in paragraph “47” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
the purported forced entry and arrest.
48.

Deny the allegations set forth in paragraph “48” of the complaint, except deny

knowledge or information sufficient to form a belief as to the truth of the allegations concerning
the purported forced entry and arrest.
49.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “49” of the complaint.
50.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “50” of the complaint.
51.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “51” of the complaint.
52.

In response to the allegations set forth in paragraph “52” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“51”, inclusive of this answer, as if fully set forth herein.
53.

Deny the allegations set forth in paragraph “53”of the complaint, except admit

that plaintiff was arrested on June 6, 2012.
54.

Deny the allegations set forth in paragraph “54” of the complaint.

55.

Deny the allegations set forth in paragraph “55” of the complaint.

56.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “56” of the complaint, except admit that Police Officer Kroski
did not have an arrest warrant for plaintiff on June 6, 2012.

-6-

A0231

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 7 of 17

57.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “57” of the complaint, except admit that Police Officer Kroski
did not have a search warrant for plaintiff on June 6, 2012.
58.

Deny the allegations set forth in paragraph ”58” of the complaint insofar as it sets

forth averments of fact; insofar as it sets forth conclusions of law, no response is required.
59.

Deny the allegations set forth in paragraph “59” of the complaint.

60.

Deny the allegations set forth in paragraph “60” of the complaint.

61.

Deny the allegations set forth in paragraph “61” of the complaint.

62.

Deny the allegations set forth in paragraph “62” of the complaint and its

wherefore clause and subparts.
In response to the allegations set forth in the second paragraph “62” of the complaint, at
the top of page 13 of the complaint, defendants repeat and reallege their responses set forth in
the preceding paragraphs “1” through “61”, inclusive of this answer, as if fully set forth herein.
63.

Deny the allegations set forth in paragraph “63” of the complaint.

64.

Deny the allegations set forth in paragraph “64” of the complaint.

65.

Deny the allegations set forth in paragraph “65” (which is an incomplete

sentence) of the complaint.
66.

Deny the allegations set forth in paragraph “66” of the complaint.

67.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “67” of the complaint, except admit that Stephan Kroski did not
have an arrest warrant for plaintiff on June 6, 2012.

-7-

A0232

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 8 of 17

68.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “68” of the complaint, except admit that Stephan Kroski did not
have a search warrant for plaintiff on June 6, 2012.
69.

Deny the allegations set forth in paragraph “69” of the complaint, insofar as it sets

forth averments of fact; insofar as it sets forth conclusions of law, no response is required.
70.

Deny the allegations set forth in paragraph “70” of the complaint.

71.

Deny the allegations set forth in paragraph “71” of the complaint.

72.

Deny the allegations set forth in paragraph “72” of the complaint.

73.

Deny the allegations set forth in paragraph “73” of the complaint and its

wherefore clause and subparts.
In response to the allegations set forth in the second paragraph “73” of the complaint, at
the bottom of page 14 of the complaint, defendants repeat and reallege their responses set forth
in the preceding paragraphs “1” through “72”, inclusive of this answer, as if fully set forth
herein.
74.

Deny the allegations set forth in paragraph “74” of the complaint.

75.

Deny the allegations set forth in paragraph “75” of the complaint.

76.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “76” of the complaint, except admit that defendants did not
have an arrest warrant for plaintiff on June 29, 2012.
77.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “77” of the complaint, except admit that defendants did not
have a search warrant for plaintiff on June 30, 2012.

-8-

A0233

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 9 of 17

78.

Deny the allegations set forth in paragraph “78” of the complaint insofar as it sets

forth averments of fact; insofar as it sets forth conclusions of law, no response is required.
79.

Deny the allegations set forth in paragraph “79” of the complaint.

80.

Deny the allegations set forth in paragraph “80” of the complaint.

81.

Deny the allegations set forth in paragraph “81” of the complaint.

82.

Deny the allegations set forth in paragraph “82” of the complaint and its

wherefore clause and subparts.
83.

In response to the allegations set forth in paragraph “83” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“82”, inclusive of this answer, as if fully set forth herein.
84.

Deny the allegations set forth in paragraph “84” of the complaint.

85.

Deny the allegations set forth in paragraph “85” of the complaint.

86.

Deny the allegations set forth in paragraph “86” of the complaint.

87.

Deny the allegations set forth in paragraph “87” of the complaint and its

wherefore clause and subparts.
88.

In response to the allegations set forth in paragraph “88” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“87”, inclusive of this answer, as if fully set forth herein.
89.

Deny the allegations set forth in paragraph “89” of the complaint.

90.

Deny the allegations set forth in paragraph “90” of the complaint.

91.

Deny the allegations set forth in paragraph “91” of the complaint.

92.

Deny the allegations set forth in paragraph “92” of complaint and its wherefore

clause and subparts.

-9-

A0234

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 10 of 17

93.

In response to the allegations set forth in paragraph “93” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“92”, inclusive of this answer, as if fully set forth herein.
94.

Deny the allegations set forth in paragraph “94” of the complaint.

95.

Deny the allegations set forth in paragraph “95” of the complaint.

96.

Deny the allegations set forth in paragraph “96” of the complaint.

97.

Deny the allegations set forth in paragraph “97” of the complaint.

98.

Deny the allegations set forth in paragraph “98” of the complaint.

99.

Deny the allegations set forth in paragraph “99” of the complaint.

100.

Deny the allegations set forth in paragraph “100” of the complaint and its

wherefore clause and subparts.
101.

In response to the allegations set forth in paragraph “101” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“100”, inclusive of this answer, as if fully set forth herein.
102.

Deny the allegations set forth in paragraph “102” of the complaint.

103.

Deny the allegations set forth in paragraph “103” of the complaint.

104.

Deny the allegations set forth in paragraph “104” of the complaint.

105.

Deny the allegations set forth in paragraph “105” of the complaint.

106.

Deny the allegations set forth in paragraph “106” of the complaint.

107.

Deny the allegations set forth in paragraph “107” of the complaint.

108.

Deny the allegations set forth in paragraph “108” of the complaint and its

wherefore clause and subparts.

- 10 -

A0235

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 11 of 17

109.

In response to the allegations set forth in paragraph “109” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“108”, inclusive of this answer, as if fully set forth herein.
110.

Deny the allegations set forth in paragraph “110” of the complaint.

111.

Deny the allegations set forth in paragraph “111” of the complaint.

112.

Deny knowledge or information sufficient to form a belief as to the truth of the

allegations set forth in paragraph “112” of the complaint.
113.

Deny the allegations set forth in paragraph “113” of the complaint and its

wherefore clause and subparts.
114.

In response to the allegations set forth in paragraph “114” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“113”, inclusive of this answer, as if fully set forth herein.
115.

Deny the allegations set forth in paragraph “115” of the complaint.

116.

Deny the allegations set forth in paragraph “116” of the complaint and its

wherefore clause and subparts.
117.

In response to the allegations set forth in paragraph “117” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“116”, inclusive of this answer, as if fully set forth herein.
118.

Deny the allegations set forth in paragraph “118” of the complaint.

119.

Deny the allegations set forth in paragraph “119” of the complaint and its

wherefore clause and subparts.
120.

Deny the allegations set forth in paragraph “120” of the complaint.

- 11 -

A0236

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 12 of 17

121.

Paragraph “121” of the complaint sets forth conclusions of law, not averments of

fact, and accordingly, no response is required.
122.

Deny the allegations set forth in paragraph “122” of the complaint.

123.

In response to the allegations set forth in paragraph “123” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“122”, inclusive of this answer, as if fully set forth herein.
124.

Deny the allegations set forth in paragraph “124” of the complaint.

125.

Deny the allegations set forth in paragraph “125” of the complaint insofar as it

purports to set forth averments of fact; insofar as it sets forth conclusions of law, no response is
required.
126.

Deny the allegations set forth in paragraph “126” of the complaint.

127.

Deny the allegations set forth in paragraph “127” of the complaint and its

wherefore clause and subparts.
128.

In response to the allegations set forth in paragraph “128” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“127”, inclusive of this answer, as if fully set forth herein.
129.

Deny the allegations set forth in paragraph “129” of the complaint.

130.

Deny the allegations set forth in paragraph “130” of the complaint insofar as it

purports to set forth averments of fact; insofar as it sets forth conclusions of law, no response is
required.
131.

Deny the allegations set forth in paragraph “131” of the complaint..

132.

Deny the allegations set forth in paragraph “132” of the complaint and its

wherefore clause and subparts.

- 12 -

A0237

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 13 of 17

133.

In response to the allegations set forth in paragraph “133” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“132”, inclusive of this answer, as if fully set forth herein.
134.

Deny the allegations set forth in paragraph “134” of the complaint.

135.

Deny the allegations set forth in paragraph “135” of the complaint.

136.

Deny the allegations set forth in paragraph “136” of the complaint and its

wherefore clause and subparts.
137.

In response to the allegations set forth in paragraph “137” of the complaint,

defendants repeats and reallege their responses set forth in the preceding paragraphs “1” through
“136”, inclusive of this answer, as if fully set forth herein.
138.

Deny the allegations set forth in paragraph “138” of the complaint.

139.

Deny the allegations set forth in paragraph “139” of the complaint.

140.

Deny the allegations set forth in paragraph “140” of the complaint and its

wherefore clause and subparts.
141.

In response to the allegations set forth in paragraph “141” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“140”, inclusive of this answer, as if fully set forth herein.
142.

Deny knowledge or information as to the truth of the allegations set forth in

paragraph “142” of the complaint.
143.

Deny the allegations set forth in paragraph “143” of the complaint.

144.

Deny the allegations set forth in paragraph “144” of the complaint.

145.

Deny the allegations set forth in paragraph “145” of the complaint.

- 13 -

A0238

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 14 of 17

146.

Deny the allegations set forth in paragraph “146” of the complaint and its

wherefore clause and subparts.
147.

In response to the allegations set forth in paragraph “147” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“146”, inclusive of this answer, as if fully set forth herein.
148.

Deny the allegations set forth in paragraph “148” of the complaint.

149.

Deny the allegations set forth in paragraph “149” of the complaint and its

wherefore clause and subparts.
150.

In response to the allegations set forth in paragraph “150” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“149”, inclusive of this answer, as if fully set forth herein.
151.

Deny the allegations set forth in paragraph “151” of the complaint.

152.

Deny the allegations set forth in paragraph “152” of the complaint and its

wherefore clause and subparts.
153.

In response to the allegations set forth in paragraph “153” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“152”, inclusive of this answer, as if fully set forth herein.
154.

Deny the allegations set forth in paragraph “154” of the complaint and its

wherefore clause and subparts.
155.

In response to the allegations set forth in paragraph “155” of the complaint,

defendants repeat and reallege their responses set forth in the preceding paragraphs “1” through
“154”, inclusive of this answer, as if fully set forth herein.

- 14 -

A0239

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 15 of 17

156.

Deny the allegations set forth in paragraph “156” of the complaint and its

wherefore clause and subparts.
AS AND FOR A FIRST AFFIRMATIVE DEFENSE:
157.

The complaint fails to state a claim upon which relief can be granted.
AS AND FOR A SECOND AFFIRMATIVE DEFENSE:

158.

Any injury alleged to have been sustained resulted from plaintiff’s own culpable

or negligent conduct and/or the intervening conduct of third parties, and was not the proximate
result of any act by the defendants.
AS AND FOR A THIRD AFFIRMATIVE DEFENSE:
159.

There was probable cause for plaintiff’s arrest, detention and prosecution.
AS AND FOR A FOURTH AFFIRMATIVE DEFENSE:

160.

Defendants acted within the lawful and proper exercise of their discretion.
AS AND FOR A FIFTH AFFIRMATIVE DEFENSE:

161.

Plaintiff provoked any incident.
AS AND FOR A SIXTH AFFIRMATIVE DEFENSE:

162.

No punitive damages can be assessed against the City of New York.
AS AND FOR A SEVENTH AFFIRMATIVE DEFENSE:

163.

To the extent any force was used, it was reasonable, necessary, and justified.
AS AND FOR AN EIGHTH AFFIRMATIVE DEFENSE:

164.

Defendant City has not violated any rights, privileges or immunities under the

Constitution or laws of the United States or the State of New York or any political subdivision
thereof, or any act of Congress providing for the protection of civil rights.
AS AND FOR A NINTH AFFIRMATIVE DEFENSE:

- 15 -

A0240

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 16 of 17

165.

To the extent the complaint alleges any claims against the City of New York

arising under state law, such claims are barred by the doctrine of immunity for judgmental errors
in the exercise of governmental functions.
AS AND FOR A TENTH AFFIRMATIVE DEFENSE:
166.

The individual defendants have not violated any clearly established constitutional

or statutory right of which a reasonable person would have known and, therefore, are protected
by qualified immunity.
WHEREFORE, Defendants City of New York, Stephan Kroski, Paul Bliss, Jonathan
Rodriguez and Lydia Figueroa request judgment dismissing the complaint in its entirety, together
with the costs and disbursements of this action, and such other and further relief as the Court
may deem just and proper.
Dated:

New York, New York
March 4, 2015
ZACHARY W. CARTER
Corporation Counsel of the
City of New York
Attorney for Defendants City of New York, Stephan
Kroski, Paul Bliss, Jonathan Rodriguez and Lydia
Figueroa
100 Church Street
New York, New York 10007
(212) 356-2404
By:

To:

/s/
Deborah L. Mbabazi
Assistant Corporation Counsel

VIA ECF
Lawrence P. LaBrew, Esq.
Attorney for Plaintiff
160 Broadway, Suite 600
New York, NY 10038

- 16 -

A0241

Case 1:14-cv-07424-PAE Document 15 Filed 03/04/15 Page 17 of 17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Docket No. 14 CV 7424 (PAE)
DAGHRIB SHAHEED,
Plaintiff,
-againstCITY OF NEW YORK; NEW YORK CITY POLICE OFFICER STEPHAN
KROSKI (In an Individual Capacity and In an Official Capacity); NEW
YORK CITY POLICE OFFICER PAUL BLISS (In an Individual Capacity
and In an Official Capacity); NEW YORK CITY POLICE OFFICER
JONATHAN RODRIGUEZ (In an Individual Capacity and In an Official
Capacity); NEW YORK CITY POLICE OFFICER LYDIA FIGUEROA (In
an Individual Capacity and In an Official Capacity); NEW YORK CITY
POLICE DETECTIVE JOHN DOE (fictitious name) (In an Individual
Capacity and In an Official Capacity); NEW YORK CITY POLICE
DETECTIVE JAMES DOE (fictitious name) (In an Individual Capacity and
In an Official Capacity); NEW YORK CITY POLICE OFFICER JANE DOE
(fictitious name) (In an Individual Capacity and In an Official Capacity);
NEW YORK CITY POLICE OFFICER JOHN DOE (fictitious name) (In an
Individual Capacity and In an Official Capacity); NEW YORK CITY
POLICE OFFICER JAMES DOE (fictitious name) (In an Individual
Capacity and In an Official Capacity)
Defendants.
ANSWER TO COMPLAINT ON BEHALF OF DEFENDANTS
STEPHAN KROSKI, PAUL BLISS, JONATHAN RODRIGUEZ AND
LYDIA FIGUEROA
ZACHARY W. CARTER
Corporation Counsel of the City of New York
Attorney for Defendants City of New York, Stephan Kroski, Paul Bliss,
Jonathan Rodriguez and Lydia Figueroa
100 Church Street
New York, N.Y. 10007
by: Deborah L. Mbabazi
Assistant Corporation Counsel
Tel: (212) 356-2404
Due and timely service is hereby admitted.
New York, N.Y. ............................................................. , 2015
.......................................................................................... Esq.
Attorney for ..............................................................................

- 17 -

A0242

